<html>
<title> - HARMFUL ALGAL BLOOMS: THE CHALLENGES ON THE NATION'S COASTLINES</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                         HARMFUL ALGAL BLOOMS:
                         THE CHALLENGES ON THE
                          NATION'S COASTLINES

=======================================================================


                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON ENERGY AND
                              ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 10, 2008

                               __________

                           Serial No. 110-113

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov



                   U.S. GOVERNMENT PRINTING OFFICE
43-278 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001


                                 ______

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
LAURA RICHARDSON, California         TOM FEENEY, Florida
PAUL KANJORSKI, Pennsylvania         RANDY NEUGEBAUER, Texas
STEVEN R. ROTHMAN, New Jersey        BOB INGLIS, South Carolina
JIM MATHESON, Utah                   DAVID G. REICHERT, Washington
MIKE ROSS, Arkansas                  MICHAEL T. MCCAUL, Texas
BEN CHANDLER, Kentucky               MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              PHIL GINGREY, Georgia
CHARLIE MELANCON, Louisiana          BRIAN P. BILBRAY, California
BARON P. HILL, Indiana               ADRIAN SMITH, Nebraska
HARRY E. MITCHELL, Arizona           PAUL C. BROUN, Georgia
CHARLES A. WILSON, Ohio
ANDRE CARSON, Indiana
                                 ------                                

                 Subcommittee on Energy and Environment

                   HON. NICK LAMPSON, Texas, Chairman
JERRY F. COSTELLO, Illinois          BOB INGLIS, South Carolina
LYNN C. WOOLSEY, California          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           RANDY NEUGEBAUER, Texas
MARK UDALL, Colorado                 MICHAEL T. MCCAUL, Texas
BRIAN BAIRD, Washington              MARIO DIAZ-BALART, Florida
PAUL KANJORSKI, Pennsylvania             
BART GORDON, Tennessee               RALPH M. HALL, Texas
                  JEAN FRUCI Democratic Staff Director
            CHRIS KING Democratic Professional Staff Member
        MICHELLE DALLAFIOR Democratic Professional Staff Member
         SHIMERE WILLIAMS Democratic Professional Staff Member
      ELAINE PAULIONIS PHELEN Democratic Professional Staff Member
          ADAM ROSENBERG Democratic Professional Staff Member
          ELIZABETH STACK Republican Professional Staff Member
          TARA ROTHSCHILD Republican Professional Staff Member
                    STACEY STEEP Research Assistant


                            C O N T E N T S

                             July 10, 2008

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Nick Lampson, Chairman, Subcommittee 
  on Energy and Environment, Committee on Science and Technology, 
  U.S. House of Representatives..................................     7
    Written Statement............................................     7

Prepared Statement by Representative Ralph M. Hall, Ranking 
  Minority Member, Committee on Science and Technology, U.S. 
  House of Representatives.......................................     8

Prepared Statement by Representative Bob Inglis, Ranking Minority 
  Member, Subcommittee on Energy and Environment, Committee on 
  Science and Technology, U.S. House of Representatives..........     8

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Energy and Environment, Committee on Science 
  and Technology, U.S. House of Representatives..................     8

                                Panel I:

Hon. Connie Mack, a Representative in Congress from the State of 
  Florida
    Oral Statement...............................................     9
    Written Statement............................................    10

Hon. Allen Boyd, a Representative in Congress from the State of 
  Florida
    Oral Statement...............................................    11
    Written Statement............................................    12

Discussion.......................................................    13

                               Panel II:

Dr. Robert E. Magnien, Director, Center for Sponsored Coastal 
  Ocean Science, National Centers for Coastal Ocean Science, 
  National Oceanic and Atmospheric Administration (NOAA)
    Oral Statement...............................................    15
    Written Statement............................................    17
    Biography....................................................    24

Dr. Donald M. Anderson, Senior Scientist, Department of Biology, 
  Woods Hole Oceanographic Institution; Director, U.S. National 
  Office for Marine Biotoxins and Harmful Algal Blooms
    Oral Statement...............................................    25
    Written Statement............................................    33
    Biography....................................................    53

Mr. Dan L. Ayres, Fish and Wildlife Biologist, Coastal Shellfish 
  Lead, Washington State Department of Fish and Wildlife Region 
  Six Office
    Oral Statement...............................................    54
    Written Statement............................................    56
    Biography....................................................    65

Dr. Hilton Kenneth Hudnell, Vice President and Director of 
  Science, SolarBee, Inc.
    Oral Statement...............................................    66
    Written Statement............................................    67

Discussion
  HABHRCA Reauthorization........................................   108
  HARRNESS.......................................................   108
  Obstacles in Predicting Harmful Algal Blooms...................   109
  Satellite Capacity.............................................   110
  Algae Blooms for Biodiesel.....................................   111
  Reducing and Controlling Algal Blooms..........................   111
  Climate Change's Impact on Algal Blooms........................   114
  Predicting Algal Blooms........................................   115
  Algal Bloom Causes: Fertilizer Runoff and Climate Change.......   116
  ECOHAB.........................................................   117
  More on HARRNESS...............................................   118
  Freshwater Algal Blooms........................................   119
  Removing Phosphorus From Discharge.............................   120
  Drinking Water Quality.........................................   122


    HARMFUL ALGAL BLOOMS: THE CHALLENGES ON THE NATION'S COASTLINES

                              ----------                              


                        THURSDAY, JULY 10, 2008

                  House of Representatives,
            Subcommittee on Energy and Environment,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Nick 
Lampson [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                 SUBCOMMITTEE ON ENERGY AND ENVIRONMENT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                         Harmful Algal Blooms:

                         The Challenges on the

                          Nation's Coastlines

                        thursday, july 10, 2008
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Thursday, July 10, 2008 the Subcommittee on Energy and 
Environment of the Committee on Science and Technology will hold a 
hearing to examine Harmful Algal Blooms (HABs) recent trends and 
impacts on the coast, ocean, and Great Lakes.
    The purpose of the hearing is to examine the challenges harmful 
algal blooms and red tide events impose on the coastlines and in marine 
and freshwaters. The hearing will also examine the current research on 
the microbial bloom ecology as well as the options for prevention, 
control, and mitigation. In addition, the hearing will examine the 
state of the science and recent trends on an international level as it 
relates to national and global changes. The hearing will examine the 
National Plan for Algal Toxins and Harmful Algal Blooms, and how the 
plan will affect our nation's ability to control the HABs problem.

Witnesses

Dr. Robert Magnien is the Director of the Center for Sponsored Coastal 
Ocean Research in the National Oceanic and Atmospheric Administration, 
NOAA. Dr. Magnien will discuss the current state of federally funded 
HABs research at NOAA, as well as options for prevention, control, and 
mitigation. He will also discuss the National Plan for Algal Toxins and 
Harmful Algal Blooms.

Dr. Donald Anderson is a Senior Scientist and Director of the Coastal 
Ocean Institute at Woods Hole Oceanographic Institution. Dr. Anderson 
will discuss the current research on the ecology of the blooms of 
microorganisms on both the east and west coasts. He will also discuss 
the issue and the state of the science on an international level, as 
well as comment on the National Plan for Algal Toxins and Harmful Algal 
Blooms.

Mr. Dan Ayres is a Coastal Shellfish Manager and Lead Biologist at the 
Washington State Department of Fish and Wildlife Region Six Office. Mr. 
Ayres will discuss the challenges harmful algal blooms and red tide 
events impose on the coastlines. He will also discuss the impacts of 
harmful algal blooms on beach closures, tourism, human health, and the 
science behind these toxins. He too will comment on the National Plan 
for Algal Toxins and Harmful Algal Blooms.

Dr. H. Kenneth Hudnell is Vice President and Director of Science at 
SolarBee Inc. SolarBee is a solar-powered technology to improve water 
quality through high-flow, long-distance circulation. Dr. Hudnell will 
discuss the challenges and impacts of harmful algal blooms, 
specifically in freshwater. He will also discuss the applications of 
new technologies for prevention and control of biotoxins in water.

Background

What Are Harmful Algal Blooms?
    Algae are photosynthetic, plant-like protists. Algae are vitally 
important to marine and freshwater ecosystems, and most species of 
algae are not harmful. Blooms occur in both marine and freshwater 
environments when some algal species out-compete others and reproduce 
rapidly to produce large numbers of algae. An algal bloom can discolor 
the water due to the large number of algal cells. To the human eye, 
blooms can appear greenish, brown, and even reddish-orange depending 
upon the algal species, the aquatic ecosystem, and the concentration of 
the organisms. Blooms can kill fish and other aquatic life by 
decreasing sunlight available to the water and by using up all of the 
available oxygen in the water (hypoxia).
    A harmful algal bloom (HAB) is a bloom that produces toxins which 
are detrimental to plants and animals. These outbreaks are commonly 
called red or brown tides. These produced toxins accumulate in 
shellfish, fish, or through the accumulation of biomass that in turn 
affect other organisms and alter food webs. In recent years, many of 
the Nation's coastlines, near-shore marine waters, and freshwaters have 
experienced an increase in the number, frequency, duration and type of 
HABs.
    Blooms can be caused by several factors. An increase in nutrients 
can cause algae growth and reproduction to increase dramatically just 
as fertilizing a lawn makes the grass grow faster. In other instances, 
an environmental change allows certain algae to out-compete others for 
nutrients which can result in a bloom of the algae with the advantage. 
This environmental change can be water quality, temperature, nutrients, 
sunlight, or other factors.

Impacts of Harmful Algal Blooms
    Harmful algal blooms are one of the most scientifically complex and 
economically significant coastal management issues facing the Nation. 
In the past, only a few regions of the U.S. were affected by HABs, but 
now all U.S. coastal regions have reported major blooms. These 
phenomena have devastating environmental, economic, and human health 
impacts. Impacts include human illness and mortality following direct 
consumption or indirect exposure to toxic shellfish or toxins in the 
environment; economic hardship for coastal economies, many of which are 
highly dependent on tourism or harvest of local seafood; as well as 
dramatic fish, bird, and mammal mortalities. There are also devastating 
impacts to ecosystems, leading to environmental damage that may reduce 
the ability of those systems to sustain species due to habitat 
degradation, increased susceptibility to disease, and long-term 
alterations to community structure.

The Harmful Algal Bloom and Hypoxia Research and Control Act
    Scientific understanding of harmful algal blooms and hypoxic events 
(severe oxygen depletion) has progressed significantly since the early 
1990's, but major impediments still remain for prediction, control and 
mitigation of these complex phenomena. Practical and innovative 
approaches to address hypoxia and HABs in U.S. waters are essential for 
management of aquatic ecosystems and to fulfill a stronger investment 
in the health of the coasts and oceans called for by the U.S. Ocean 
Action Plan\1\ and recent reports on ocean policy. Recognizing this 
need, in 2004 Congress reauthorized and expanded the Harmful Algal 
Bloom and Hypoxia Research and Control Act of 1998 (Public Law 105-383) 
by passing the Harmful Algal Bloom and Hypoxia Amendments Act of 2004 
(Public Law 108-456).
---------------------------------------------------------------------------
    \1\ U.S. Commission on Ocean Policy. Bush Administration, 2004. 
http://ocean.ceq.gov/actionplan.pdf
---------------------------------------------------------------------------
    The 1998 Harmful Algal Bloom and Hypoxia Research and Control Act 
(HABHRCA) established an Interagency Task Force to develop a national 
HAB assessment and authorized funding for existing and new research 
programs on HABs. This includes two multi-year research programs at 
NOAA that focus on HABs, the Ecology and Oceanography of Harmful Algal 
Blooms (ECOHAB) program and the Monitoring and Event Response for 
Harmful Algal Blooms (MERHAB) program. These programs involve federal, 
State, and academic partners and support interdisciplinary extramural 
research studies to address the issues of HABs in an ecosystem context. 
HABHRCA was reauthorized in 2004, requiring assessments of HABs in 
different coastal regions and in the Great Lakes and plans to expand 
research and address the impacts of HABs. The law also authorized 
research, education, and monitoring activities related to the 
prevention, reduction, and control of harmful algal blooms and hypoxia 
and reconstituted the Interagency Task Force on HABs and Hypoxia.
    The law also directed NOAA to produce three reports and a research 
and technology transfer plan. These were to be provided to Congress and 
made publicly available within one to two years after the date of 
enactment (e.g., by December 2006). The Prediction and Response 
Report,\2\ released in September 2007, addresses both the state of 
research and methods for HAB prediction and response, especially at the 
federal level. None of the other products mandated by the legislation 
have been completed. The National Scientific Research, Development, 
Demonstration, and Technology Transfer Plan for Reducing Impacts from 
Harmful Algal Blooms (RDDTT Plan) is undergoing interagency approval. 
This plan will establish research priorities to develop and demonstrate 
prevention, control and mitigation methods to advance current 
prediction and response capabilities. The Scientific Assessment of 
Freshwater Harmful Algal Blooms is reported to be complete. However, it 
is not yet available. The law also required a scientific assessment of 
hypoxia to be produced within two years of enactment. This report is 
not yet completed.
---------------------------------------------------------------------------
    \2\ Prediction and Response Report, 2007 http://www.cop.noaa.gov/
stressors/extremeevents/hab/habhrca/
Predict<INF>-</INF>Resp<INF>-</INF>IntRpt<INF>-</INF>0107.pdf
---------------------------------------------------------------------------
    The law also provided for the development of local and regional 
scientific assessments of HABs and hypoxia. These were not required to 
be produced by any specific date. These assessments were to be 
initiated at the request of State, tribal, or local governments or for 
affected areas identified by NOAA. No reports have been produced 
through this provision.

Current Federal Research Programs and Plans
    The following are examples of ongoing research programs that 
support interdisciplinary research studies to address the issues of 
HABs and hypoxia:

        <bullet>  Ecology and Oceanography of Harmful Algal Blooms 
        (ECOHAB)--a multi-agency partnership between the U.S. 
        Environmental Protection Agency (EPA), National Aeronautics and 
        Space Administration (NASA), National Science Foundation (NSF), 
        NOAA's Center for Sponsored Coastal Ocean Research (CSCOR) and 
        the Office of Naval Research (ONR)

        <bullet>  Monitoring and Event Response for Harmful Algal 
        Blooms (MERHAB)--NOAA

        <bullet>  Coastal Hypoxia Research Program (CHRP)--NOAA

        <bullet>  Interagency Research Efforts on Gulf of Mexico 
        Hypoxia

                  Northern Gulf of Mexico Program Ecosystems & Hypoxia 
                Assessment (NGOMEX)--NOAA

                  Gulf of Mexico Program--EPA

                  Hypoxia in the Gulf of Mexico--USGS

    For the past 12 years, the science community has been guided by the 
National Plan for Marine Biotoxins and Harmful Algae (Anderson, et al., 
1993).\3\ This plan has served as the foundation for the development of 
national, regional, State and local programs and the advancement of 
scientific knowledge on HABs and their impacts. HABs have increased in 
their type, frequency, location, duration, and severity yet the 
decision-making and management systems have not changed. Thus the 
national plan has been updated to reflect the current state of the HAB 
problem, needs, priorities, and approaches. The new plan, Harmful Algal 
Research and Response: A National Environmental Science Strategy 2005-
2015\4\ (HARRNESS) is composed of views from the research and 
management community and outlines a framework for actions over a ten-
year period.
---------------------------------------------------------------------------
    \3\ Anderson, D., Galloway, S.B., Joseph, J.D. A National Plan for 
Marine Biotoxins and Harmful Algae. 1993. http://hdl.handle.net/1912/
614, https://darchive.mblwhoilibrary.org/bitstream/1912/614/1/WHOI-93-
02.pdf
    \4\ HARRNESS, Harmful Algal Research and Response: A National 
Environmental Science Strategy 2005-2015. National Plan for Algal 
Toxins and Harmful Algal Blooms. http://www.esa.org/HARRNESS/
---------------------------------------------------------------------------
    The HABs issue has been approached at a multi-agency level because 
no single agency has the resources or mandate to address the many 
dimensions of the HAB problem. There is presently a range of programs 
and agencies that address specific aspects of HABs including: the 
ecology, the toxicology, monitoring, and human health impacts. The new 
U.S. plan, HARRNESS, is designed to facilitate coordination by 
highlighting the needs and priorities of research and management of 
communities. As outlined in the plan, the major priorities and critical 
needs for additional capability and understanding fall into four 
thematic areas:

        1.  Bloom ecology and dynamics

        2.  Toxins and their effects

        3.  Food webs and fisheries

        4.  Public heath and socioeconomic impacts

    In addition to the programs listed above, there are several other 
national research programs that support research on HABs:

        <bullet>  NSF/NIEHS Oceans and Human Health Initiative

        <bullet>  National Sea Grant College Program

        <bullet>  EPA Science to Achieve Results (STAR) Program

        <bullet>  Centers for Disease Control (CDC) Programs to support 
        State-based surveillance for human illness associated with 
        HABs.
    Chairman Lampson. Good morning. I want to welcome everyone 
to today's hearing on harmful algal blooms, HABs, and how these 
HABs are impacting our coastlines, marine and freshwaters. Our 
marine and freshwaters are overflowing with life. However, 
under the right conditions, some of the naturally occurring 
microorganisms found in these waters can create toxic 
conditions.
    Harmful algal blooms can cause a tremendous amount of 
damage through the production of toxins and by reducing oxygen 
in the water. Many of our coastal areas and the Great Lakes are 
experiencing the impact of these blooms. These impact include 
alteration of the ocean's food web, human illnesses and 
economic losses to coastal communities and commercial 
fisheries. Our Texas Parks and Wildlife Department monitors 
these blooms to communicate pollution threats to the public. 
They have continued to work hard to respond to incidents where 
fish and other animals have been harmed.
    The research and response needs for the United States have 
grown since the last reauthorization of the Harmful Algal Bloom 
and Hypoxia Research and Control Act of 2004. There has been an 
increase in the number, frequency and type of HABs in recent 
years.
    We need to use the advances in our understanding of these 
blooms to better predict their occurrence and to prevent them, 
if possible. Fishery and beach closures are very costly events 
that can devastate the economies of coastal communities. We 
have a distinguished panel of witnesses here today and I hope 
they will offer us recommendations on how we can improve the 
prevention, control and management of harmful algal blooms. I 
want to thank all of our witnesses for being here today
    [The prepared statement of Chairman Lampson follows:]
              Prepared Statement of Chairman Nick Lampson
    Good morning. I want to welcome everyone to today's hearing on 
Harmful Algal Blooms (HABs) and how HABs are impacting our coastlines, 
marine, and freshwaters.
    Our marine and freshwaters are overflowing with life. However under 
the right conditions some of the naturally occurring microorganisms 
found in these waters can create toxic conditions.
    Harmful algal blooms can cause a tremendous amount of damage 
through the production of toxins and by reducing oxygen in the water.
    Many of our coastal areas and the Great Lakes are experiencing the 
impacts of these blooms. These impacts include alteration of the 
ocean's food web, human illnesses, and economic losses to coastal 
communities and commercial fisheries.
    Our Texas Parks and Wildlife Department monitors these blooms to 
communicate pollution threats to the public. They have continued to 
work hard to respond to incidents where fish and other animals have 
been harmed.
    The research and response needs for the U.S. have grown since the 
last reauthorization of the Harmful Algal Bloom and Hypoxia Research 
and Control Act in 2004. There has been an increase in the number, 
frequency, and type of HABs in recent years.
    We need to use the advances in our understanding of these blooms to 
better predict their occurrence and prevent them, if possible. Fishery 
and beach closures are very costly events that can devastate the 
economies of coastal communities.
    We have a distinguished panel of witnesses here today, and I hope 
they will offer us recommendations on how we can improve the 
prevention, control and management of Harmful Algal Blooms.

    Chairman Lampson. At this time I would like to recognize 
actually not the Ranking Member of the Committee but the 
Ranking Member of the Full Committee, Mr. Hall.
    Mr. Hall. I thank my friend, fellow Texan, and I have a 
statement and I would ask unanimous consent to place it in the 
record and not take the time.
    Chairman Lampson. So ordered.
    [The prepared statement of Mr. Hall follows:]
           Prepared Statement of Representative Ralph M. Hall
    I have to admit, we don't get many harmful algal blooms in my 
district. We are usually more concerned with drought than with excess, 
stagnant water. Nevertheless, harmful algal blooms have detrimental 
effects on our coastal communities and these effects can be felt even 
up in the 4th district with higher prices or limited selections of 
seafood.
    The 105th and the 108th Congresses enacted legislation that directs 
NOAA to put together a national policy on research of harmful algal 
blooms and outline potential mitigation strategies. I am happy to know 
that such plans are now in place and will help coordinate the Federal 
Government's efforts on algae research. I hope that they have 
remembered the Department of Energy's research program on fuel from 
algae several decades ago, and that this outside-the-box thinking is 
characteristic of our national strategy on dealing with harmful algal 
blooms. Sometimes environmental problems can have a silver lining, and 
I hope that our scientists look for that lining in addition to looking 
for a cure.
    I look forward to hearing from our distinguished panelists about 
what research is currently going on, and what is planned for the 
future. Thank you again, and I yield back the balance of my time.

    Chairman Lampson. If there are additional opening 
statements, they will be placed in the record at this point.
    [The prepared statement of Mr. Inglis follows:]
            Prepared Statement of Representative Bob Inglis
    Thank you for holding this hearing, Mr. Chairman.
    South Carolina is home to the Phytoplankton Monitoring Network, an 
outreach tool that unites the community in monitoring marine 
phytoplankton and harmful algal blooms. This network has grown to 
include educators and scientists in several states such as North 
Carolina, Georgia, Florida in the Southeast, to as far away as Hawaii, 
the Virgin Islands, Massachusetts, and Alaska. This network has 
reported more than 70 blooms since it started in 2001, quite a feat for 
an all volunteer network!
    However, this monitoring program would be useless without 
simultaneous research on harmful algal blooms, how to mitigate their 
adverse effects and adapt to their presence. In the last ten years, 
Congress has enacted legislation for research on harmful algal blooms 
and directed NOAA to develop strategies on how to mitigate them. I am 
pleased that so much progress has been made since we passed these laws. 
I know there is still much to be done, particularly on the freshwater 
side. I hope our witnesses will give us insight on how we can address 
the shortcomings in existing law.
    I look forward hearing from our distinguished witnesses, and I 
yield back the remainder of my time.

    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Mr. Chairman, I appreciate the Subcommittee giving attention to 
this matter and holding a hearing on the recent trends of Harmful Algal 
Blooms (HABs).
    As you know, Mr. Chairman, this is not the first time this 
committee has looked at this issue; unfortunately however, HABs 
continue to adversely affect our coasts, oceans and Great Lakes. 
Whereas before, HABs only affected select locations in the United 
States, more recent trends have touched virtually every coastal state.
    As a life-long resident of a Great Lakes state, I am well aware of 
the importance of these vital natural resources to the economic health 
and well being of our state. Whether as a source of drinking water for 
our largest cities, a major transportation corridor for the movement of 
goods and services, or as a center for recreation, the Great Lakes are 
integral to the regional economies and livelihood of those states that 
line their shores.
    I am pleased we continue to examine and explore these issues as 
there are significant policy and organizational challenges that remain 
in this nation's efforts to restore and protect our natural resources. 
We must build upon the 2004 expansion of the Harmful Algal Bloom and 
Hypoxia Amendments Act of 2004 to help coordinate organizational 
efforts to combat HABs harmful effects.
    I welcome the witnesses here today, and look forward to their 
testimony.

                                Panel I:

    Chairman Lampson. At this time I am pleased to introduce 
our first panel of witnesses. We have two of our colleagues 
from Florida--well, we have one of our colleagues from Florida 
with us today, Representative Connie Mack. We may be joined by 
Representative Allen Boyd. Congressman Mack, you are recognized 
to make your statement.

  STATEMENT OF HON. CONNIE MACK, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF FLORIDA

    Mr. Mack. Thank you, Mr. Chairman, and if it is okay with 
the Committee and the Chairman, I have my written statement 
that I would like to submit to the Committee, but if it is all 
right with the Committee, I would like to just talk openly 
about red tide and algal blooms and the effects that they have 
in my part of the country and what I think the overall impact 
is, if that is okay with the Chairman.
    Chairman Lampson. It is absolutely perfect with us. Please 
proceed.
    Mr. Mack. Thank you. And I am sure that most--I know that 
most people behind me and also people on the Committee are 
aware of the problems, and I will refer to as red tide. There 
are lots of different names for these algal blooms and the 
toxins that are produced from them, but from my perspective 
growing up in Southwest Florida, we would have a red tide 
incident that would last maybe a week a year, and now we see 
red tide off our shores and approaching our coastlines 13 
months in a row. So obviously the problem is getting worse.
    And as we try to learn more about red tide and the causes 
of red tide, we always bump into competing research. Someone 
will say that well, research shows that it is not tied to maybe 
runoff, let us say, from fertilizers running off into our 
bodies of water, and others will say, well, the science doesn't 
prove that at all. And then we get Members of Congress such as 
myself who would like to go home and take a couple million 
dollars and go to our local university and hopefully help them 
with their research projects but then we find that we end up 
duplicating research projects.
    And so one of the things that I have proposed and I think 
we have four-some co-sponsors on the bill, is to have a peer 
review research so that when we move forward with red tide 
research, the monies are being distributed by scientists who 
understand the research so we don't duplicate research as we 
move forward and there is more efficiencies. This is not just a 
Florida problem. This is all along the coastal United States, 
also the lakes, and red tide, these algal blooms are different 
in every part of the country. But we can use, if we can 
combined our dollars, if we combined our research and our 
efforts and we let the science and the scientists direct where 
those dollars are going, we will get a much better product. The 
research will be much more reliable. And from that research, we 
can then move into how to better track red tide, how to use the 
research to develop technologies that will limit the red tide 
outbreaks. And if you have ever had the opportunity to visit 
southwest Florida, some of the most beautiful beaches, I know, 
you know, other parts of the state might disagree, but some of 
the most beautiful beaches in the country or in the world, but 
when you have a red tide event, people have a hard time 
breathing. It runs people out of our hotels. The economy 
suffers and there is a lasting--a long-lasting impact to the 
citizens of southwest Florida who have a hard time breathing 
and their eyes will swell and tear up and it is very 
uncomfortable. I am encouraged that the Committee is again 
looking at how we move forward, how do we continue to have 
research that is done in a way that is reliable, that is 
efficient, that we don't waste taxpayers' dollars on 
duplicating of research, and I think that the Committee and the 
wisdom of the Committee will find a way to ensure that we use 
peer review research instead of powerful Members of Congress 
fighting just for their backyard but fighting for all of us 
around the country and taking on red tide.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Mack follows:]
            Prepared Statement of Representative Connie Mack
    Mr. Chairman, I would like to begin by thanking you and the 
Committee for holding this important hearing. I appreciate the chance 
to testify on harmful algal blooms (HABs) and how they are affecting 
our nation's coastlines, oceans, and inland waters. I would also like 
to thank my friend Mr. Boyd for showing his commitment to this issue. 
As you all can see this is not a Republican or Democratic matter, 
rather, it is one that affects the health of our entire nation.
    I represent the coastal areas of Southwest Florida. If you haven't 
been there, it's a beautiful part of the country, with miles and miles 
of white sandy beaches. Our economy hinges in great part on tourism. 
People love to come to our shores to fish, to relax on the beach, and 
to enjoy our unique way of life. For Southwest Florida, like many 
communities, a healthy environment and a healthy economy go hand-in-
hand.
    When I was growing up in Cape Coral, Florida, red tide blooms were 
short-lived nuisances that lasted just a few days. Today, however, red 
tide blooms continue for months at a time, and they have drastic and 
long-lasting implications that threaten the environment, the economy, 
people's health, and our overall quality of life.
    It is imperative that we do more to understand and combat red tide 
and other harmful algal blooms. From New England to the Great Lakes, 
from California to South Carolina, these toxic blooms are a national 
problem that affects us all.
    Harmful algal blooms occur when algae produces toxic or harmful 
effects on people, fish, shellfish, marine mammals, and birds. 
According to the National Oceanic and Atmospheric Administration 
(NOAA), HABs have been reported in almost every coastal state and 
within the Great Lakes. These blooms cause dangerous respiratory 
distress, burning eyes, and other ailments to individuals in affected 
areas, as well as the nationwide potential of severe food poisoning 
from the consumption of contaminated shellfish.
    Harmful algal blooms not only affect our personal health, they also 
affect the health of our economy. Red tide and other toxic blooms cost 
approximately $80 million annually to communities across America. Since 
HABs are affected by many variables, including weather and currents, it 
is difficult to predict their location, timing, or duration. For 
coastal communities like mine that rely on beaches for tourism, the 
potential economic losses could be crippling.
    Legislation regarding these toxic blooms was first introduced in 
1998 under the Harmful Algal Bloom and Hypoxia Research and Control Act 
of 1998 (HABHRCA). This bill authorized appropriations for NOAA to 
research, monitor, and manage activities for the prevention and control 
of HABs. This law established an inter-agency task force to develop a 
comprehensive coordinated federal response to harmful algal blooms and 
hypoxia. In addition, the legislation required the task force to submit 
annual reports to track the progress and effectiveness of the 
departments and agencies.
    The HABHRCA legislation has been reauthorized several times, most 
recently in the Consolidated Appropriations Act of 2008. Current law 
authorizes $30 million per year for the next three years. 
Unfortunately, the existing law passed through the appropriations 
process, and not through your committee. The Members of this committee 
and your staff understand and recognize the importance of this issue. 
By bringing it up through regular order and holding the hearing today, 
your committee can finally give this issue the attention it deserves.
    Last year I introduced the Save Our Shores Act to increase our 
commitment to researching HABS, and to improve the process by which 
those research dollars are accounted for and awarded.
    Although existing law incorporates the increased funding levels 
within my bill, the Save Our Shores Act would reinforce the importance 
of peer-reviewed research and strengthen the annual reporting 
requirements.
    While NOAA has recognized the importance of having scientists and 
experts in the field involved in the peer review process to determine 
where research money is going, Save Our Shores ensures that all HAB 
funding, not just HABHRCA, would be awarded on a competitive peer 
reviewed basis. Additionally, by improving reporting requirements 
Congress and NOAA will be able to measure the effectiveness of these 
research efforts.
    Finally, we need to reduce the gap between authorized and 
appropriated funds, to ensure research can be continued. Annual funding 
has fallen far short of authorized levels and we need to close this 
disparity.
    Once again, I commend the Committee for bringing up such an 
important issue. The sooner we can understand what factors may 
contribute to harmful algal blooms, the sooner solutions can be 
developed to save our nation's coastlines, oceans, and inland waters.

    Chairman Lampson. Thank you, Mr. Mack. We appreciate you 
being here.
    Mr. Boyd, you are recognized.

STATEMENT OF HON. ALLEN BOYD, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF FLORIDA

    Mr. Boyd. I needed my friend, Connie Mack, to show me how 
to turn this thing on. I thank you, Mr. Chairman, and 
Representative Hall and the other Members of the Committee for 
allowing us to appear before you today, and thank you for 
holding this hearing, and I apologize for being a moment late. 
You know, most committees are a little bit starting on time, 
Chairman Lampson, but obviously you are not, and I am grateful 
for that.
    I am also grateful for my friend, Connie Mack, and his 
leadership in this issue, and he is absolutely right that 
Southwest Florida has some of the most beautiful beaches in the 
world. His problem is, he doesn't have the most beautiful 
beaches. That is in North Florida in areas like Panama City, 
Destin, the Fort Walton area, an area that we so endearingly 
call the ``Redneck Riviera.''
    Chairman Lampson. They are not on commercials, are they?
    Mr. Boyd. But red tide has gotten to be a very serious 
problem and it has become more severe. I know when I was 
growing up, it was something we didn't see very often and we 
dreaded it when we did see it, but in the last 15 years or so, 
we have had maybe five or so severe outbreaks, and I think the 
important thing to understand is when that outbreak comes, it 
really renders the coastline and the use of the coast 
worthless, not only for commercial activity like fishing 
because of what it does to the fish but also it renders it 
useless for human use. People can't use the coast when there is 
red tide. So we see that those of us who live in coastal areas, 
and in Florida, 80 percent of our people do live within 12 
miles of the coast. That is what Florida is built on, is our 
beautiful coastline. So it does extreme damage to us 
economically in addition to the ecosystem environmental damage 
that is done also.
    Specifically, I think in our area, we have a very 
aggressively growing community up in the Destin, Fort Walton, 
Panama City area that has turned into quite a tourist spot, but 
we also have a long and historical productive fishing industry, 
particularly in the Apalachicola Bay area. We are home of the 
world famous Apalachicola Bay oyster, and when the red tide 
comes in, then all of that is rendered useless, particularly 
this last outbreak we had after Katrina. We had an outbreak and 
then subsequently the drought, which happened in Georgia, and 
the reduced amount of freshwater coming down the Apalachicola 
River, we weren't able to flush that red tide out and it stayed 
with an extra long time.
    So those are the kinds of problems that we experience with 
the algal bloom that causes the red tide, and Mr. Chairman, I 
want to again thank Connie Mack for his leadership on this 
issue and also for you and your committee for holding this 
hearing, and we will be glad to answer whatever questions that 
we can, hopefully with the understanding that you know that we 
are not technical experts on this but we just know how it 
affects our people and our communities. Thank you very much.
    [The prepared statement of Mr. Boyd follows:]
            Prepared Statement of Representative Allen Boyd

Chairman Lampson and Ranking Member Inglis,

    Thank you for inviting me to this important hearing to tell you 
about the hardship that my constituents suffer every time we have a red 
tide, or Harmful Algal Bloom, outbreak in the Gulf. I would also like 
to thank my friend Mr. Mack for being a leader on this issue for the 
Florida Delegation.
    When I was growing up, red tide was a very rare occurrence. 
However, in the last 15 to 20 years, the incidence of red tide has 
jumped to at least four or five outbreaks in that time period. This has 
been very hard on the oyster and scallop industries as well as on the 
tourism industry in my district and across Florida.
    I represent North Florida along the coast line of the Gulf of 
Mexico. My district has some of the most famous and beautiful beaches 
in the country as well as an important fishing industry and pristine 
natural, protected environments. Our local economies, our environment, 
and our very way of life are threatened every time the algal blooms 
near the coastline.
    The most recent incidence of harmful algal blooms was in 2005 after 
Hurricane Katrina. As you all probably know, red tide originates out in 
the Gulf. Hurricanes and storms push it in to the estuaries where the 
damage to wildlife is enormous. One area in my district, Franklin 
County, produces oysters and was hit particularly hard then. This 
affects the entire oyster industry because Apalachicola Bay provides 90 
percent of the state's oysters.
    The toxins released by these harmful blooms have a particular 
affect on ``filter-feeders.'' Filter feeders are fish like oysters or 
scallops that absorb the waters and filter out the microscopic 
organisms. If eaten, they can cause a person to become very ill.
    As the hurricane pushed the red tide into the Apalachicola Bay, it 
was trapped in the enclosure of the Bay and slow moving water. With 
drought above Florida in Georgia, water was not flowing down to the Bay 
and the entire area had to be closed because we could not flush out the 
algal blooms with freshwater.
    Unfortunately the affects of red tide are not felt only by the 
fish. Along with the rich natural resources that Florida is known for, 
we are also known as a very popular tourist destination. The toxins 
released by the blooms can lead to respiratory and eye problems in 
people who are exposed. So you can see how the yearly outbreaks of red 
tide in the Gulf can affect the $53 billion dollar tourist industry in 
my state.
    For example, during the primary months for oyster harvest, 
September-December, through three previous years, red tides have forced 
closures of the oyster beds in Apalachicola Bay for well over 50 
percent of the season (Table). Total damages from lost production of 
seafood, canceled reservations, regional defamation and respiratory 
illnesses exceeds multi-millions per year.
    In conclusion, the economic welfare of coastal communities, seafood 
commerce and public health about Apalachicola Bay, Florida remains 
vulnerable to increasing occurrences of potentially toxic red tides. 
The adverse occurrence is currently unpredictable and difficult to 
resolve in terms of controls and monitoring methods for resolution. The 
consequences restrict harvest of valuable seafood, devalue coastal 
properties and deter tourism.
    This situation is anticipated to increase with the diminishing flow 
of freshwaters from the northern reserves that are necessary to 
maintain Bay water salinities levels that are less favorable for red 
tides. It is imperative to all of the states around the Gulf of Mexico 
to learn more about this harmful bloom. Many vital industries and the 
fragile ecosystem rely on us coming to a better understanding of where 
this bloom originates and how we can prevent it from further damaging 
our environment.
    Thank you again for your attention to this issue Mr. Chairman. I 
stand ready to work with you in whatever way I can, so that we can 
ultimately develop responsible and effective methods to predict and 
detect red tide.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Discussion

    Chairman Lampson. Thank you very much, Mr. Boyd and Mr. 
Mack.
    Are there any questions of this panel? We have got some 
experts that are sitting behind them that we are going to be 
hearing from but we have time for questions if anyone wants to 
now. Yes, sir?
    Mr. Hall. I would just say it is an exceptional panel here 
that are here with similar problems of a mutual state, and I 
like the way they rag on their particular districts because I 
am reminded that Pike's Peak is not by far the highest peak 
over in that area. There are four or five other higher peaks 
but if Pike's Peak is the one that that Congressman brags 
about, then that's where everybody goes. So maybe even of you 
have a Pike's Peak in your district but all the parts of 
Florida that I ever visited are just absolutely breathtaking, 
and I have great opportunity to be with you, Mr. Boyd, almost 
once a year for the last several years and you are a gracious 
host and you represent a beautiful part of the country. My 
first home during World War II was Daytona Beach, Florida, and 
my wife and I always intended to go back there, but, you know, 
you can't do that when you have families at home and fathers 
and parents and all, but it is a great state. You do a good 
job. Thank you for coming before the Committee.
    Mr. Boyd. Mr. Chairman, if I might thank my friend, Ralph 
Hall, for those comments, and Connie Mack and I certainly would 
agree that the Atlantic coast is the second most beautiful 
coast in the State of Florida with the Gulf of Mexico being 
first.
    Mr. Mack. I would agree with that.
    Chairman Lampson. They are together on something. You know, 
I would question as to whether or not the best fishing is in 
the eastern Gulf or the western Gulf, but we won't get into 
that either today.
    Mr. Mack. Well, since you brought it up, Mr. Chairman, it 
depends on what you are fishing for.
    Chairman Lampson. That is very true.
    Mr. Mack. On a serious note, I know that the--I had an 
opportunity to talk to Members of the Committee and I know that 
you are going to hear from the experts on this, and I am 
fortunate enough to have had the ability to have many 
conversations with who I believe are the experts, and I think 
my colleagues recognize the need for us to once again move 
forward with the ability to have research that is meaningful 
because research is what we rely upon to develop the 
technologies to protect our waterways from these toxins, and so 
I am very honored to be here and to have the opportunity to 
speak, but I really look forward to you hearing from the 
experts as well.
    Chairman Lampson. We thank you both for being here, and 
clearly it is a huge issue. It affects the food chain, it 
affects our tourism activities, it affects the economy 
significantly, and we hope we come up with some of the right 
conclusions. So thank you both for joining us today.
    We will take a very short break as the next panel takes its 
place at the table and we will begin very shortly.
    [Recess.]

                               Panel II:

    Chairman Lampson. I want to welcome our second panel of 
witnesses. Dr. Robert Magnien is the Director of the National 
Oceanic and Atmospheric Administration Center for Sponsored 
Coastal Ocean Research. Dr. Donald Anderson is Senior Scientist 
and Director of the Coastal Ocean Institute at Woods Hole 
Oceanographic Institution. I am going to skip Dr. Ayres for 
just one second and I will go to Dr. Kenneth Hudnell, who is 
the Vice President and Director of Science at SolarBee 
Incorporated. And I would call on our colleague, Mr. Baird, to 
make an introduction.
    Mr. Baird. I am just pleased to have Dr. Dan Ayres here, 
Coastal Shellfish Manager and Lead Biologist for Washington 
State's Department of Fish and Wildlife Region Six. My dear 
friends from Florida spoke earlier, but as Dan knows, we have 
harmful algal blooms off our coast in the Puget Sound as well 
and Dan has been a real leader in trying to deal with those, 
and I am glad he is here. Thank you, Mr. Chairman.
    Chairman Lampson. Thank you, Mr. Baird.
    You will each have five minutes for your spoken testimony. 
Your written testimony will be included in the record for the 
hearing, and when you all complete your testimony, we will 
begin with questions. Each Member will have five minutes to 
question the panel.
    Dr. Magnien, you may begin.

   STATEMENT OF DR. ROBERT E. MAGNIEN, DIRECTOR, CENTER FOR 
 SPONSORED COASTAL OCEAN SCIENCE, NATIONAL CENTERS FOR COASTAL 
OCEAN SCIENCE, NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION 
                             (NOAA)

    Dr. Magnien. Good morning, Mr. Chairman and Members of the 
Subcommittee. My name is Robert Magnien and I am Director of 
NOAA's Center for Sponsored Coastal Ocean Research. My center 
is responsible for administering the competitive research 
program called for in the Harmful Algal Bloom and Hypoxia 
Research Control Act, also known as HABHRCA, which includes the 
only two national programs devoted solely to harmful algal 
bloom research, and you will hear me refer to harmful algal 
blooms as HABs in the rest of my testimony. I appreciate the 
opportunity to discuss NOAA's role in the national response to 
HABs in our coastal waters and our Great Lakes. I will briefly 
discuss what HABs are, highlight NOAA's approach to this 
problem and touch on some of our accomplishments to date.
    Harmful algae are often invisible microscopic organisms but 
they can also appear as visible scums or be seaweed-like. Some 
harmful algae produce potent toxins that cause illnesses or 
death in humans and marine life including fish, sea birds and 
marine mammals. Humans and animals can be exposed to algal 
toxins from the food they eat, the water they drink or swim in 
or the air they breathe. Other algae harm ecosystems by 
smothering valuable habitat such as corals or grow to such 
proportions that their subsequent decomposition depletes all 
life-giving oxygen in the water, thus killing most of the 
resident organisms.
    HAB events have been increasing in frequency and now affect 
all major regions in the United States and the Great Lakes to 
varying extents from year to year. The widespread occurrence 
and diversity of blooms challenges our ability to keep pace 
with the needs of coastal managers to protect human health and 
local economies. Reports just days ago of people being 
hospitalized in New England from eating tainted shellfish show 
how real these threats are.
    Our approach in NOAA to these problems are national in 
scope. They are targeted to the different regional needs and 
they are relevant at the State level where managers are on the 
front lines and need new tools and knowledge to efficiently and 
effectively combat existing and emerging threats. Partnerships 
with State managers like Mr. Ayres and research scientists like 
Dr. Anderson, who will address you shortly, bring a wealth of 
expertise to our HAB programs and keep us focused on the 
management needs. Coordinating and collaborating between 
programs within NOAA and other federal agencies ensures broad 
engagement and efficient use of our resources in addressing 
these difficult problems. As our research programs yield 
valuable products, we are transferring this knowledge to 
operational programs in NOAA as well as supporting the 
transferred adoption of successful technologies to sustained 
operations at State agencies or other local or regional 
entities.
    We have a long record of accomplishments since the passage 
of HABHRCA in 1998 in virtually every coastal state including 
improved HAB monitoring and detection capabilities, 
identification of methods to prevent the development of blooms, 
and forecasts to provide more efficient and comprehensive ways 
of assisting State managers and warning the public of potential 
exposure. I will mention only three examples to provide a sense 
of the progress we have made together with our partners.
    NOAA has developed a satellite-based warning system for the 
devastating red tides in Florida, which you just heard about. 
This is the HAB bulletin that comes out twice a week and 
forecasts the progression of red tide and gives local managers 
a heads up. We are hoping to expand that system to Texas and 
then eventually go national with this system. A NOAA-funded 
monitoring system off Texas recently detected a rare HAB 
species, which alerted State public health managers to this 
threat. Shellfish harvesting was suspended and shellfish 
recalled just days before the Fulton Oyster Fest, a major event 
in the region attended by thousands of people. Early detection 
and quick warning prevented human illness, which could have 
been a devastating blow to the local shellfish industry. The 
current severe red tide affecting New England states was 
predicted months in advance as a result of NOAA-funded 
research. The prediction and subsequent data being supplied in 
real time is allowing State managers and the shellfish industry 
to deal effectively with this difficult situation.
    So in conclusion, over the last 10 years we made 
unprecedented progress in understanding the causes and 
consequences of harmful algal blooms which has led to the 
development of numerous tools that are already in service and 
improving HAB management. We are working hard to build upon 
these successes by continuing to move newly developed 
technologies into application and operation at the national, 
regional and State levels, and we also plan to spend additional 
effort with managers and other partners to identify critical 
future needs region by region and develop strategic plans to 
fill those gaps.
    Thank you for the opportunity to speak on behalf of NOAA on 
the topic of HABs, and I will be happy to answer any questions 
that you may have.
    [The prepared statement of Dr. Magnien follows:]
                Prepared Statement of Robert E. Magnien

Introduction

    Good morning, Mr. Chairman and Members of the Subcommittee. My name 
is Robert E. Magnien, Director of the National Oceanic and Atmospheric 
Administration's (NOAA's) Center for Sponsored Coastal Ocean Research 
(CSCOR). CSCOR provides extramural funding for multi-disciplinary 
research focused on understanding and predicting the impacts of natural 
and anthropogenic influences on coastal ecosystems, communities, and 
economies. In this capacity, I administer the only two national 
programs solely focused on harmful algal blooms (HABs): the interagency 
Ecology and Oceanography of Harmful Algal Blooms (ECOHAB) Program and 
NOAA's Monitoring and Event Response for Harmful Algal Blooms (MERHAB) 
Program, which are authorized by the Harmful Algal Bloom and Hypoxia 
Research and Control Act of 1998 (HABHRCA). I also serve on the 
Interagency Working Group on HABs, Hypoxia, and Human Health (IWG-4H), 
which, among other responsibilities, implements the reporting 
requirements of HABHRCA 2004. I appreciate the opportunity to discuss 
NOAA's role in addressing HABs in our coastal waters and the Great 
Lakes. I will highlight the advances NOAA's efforts have made in 
improving HAB management and discuss how we plan to build on our early 
successes.

HAB Problem

    Algae are simple plants that, in general, are beneficial because 
they provide the main source of energy that sustains marine and aquatic 
life. However, a small percentage of algae cause harm to humans, 
animals, and the environment by producing toxins or by growing in 
excessively large numbers. When this occurs they are referred to as 
``harmful algal blooms'' or HABs. When these algae are present in such 
high numbers that they discolor the water, HABs are sometimes called 
``red tides,'' ``brown tides,'' etc., but not all HABs cause water 
discoloration. Table 1 lists some of the major HAB organisms in the 
United States.
    Some harmful algae produce potent toxins that cause illness or 
death in humans and other organisms--fish, seabirds, manatees, sea 
lions, turtles, and dolphins are some commonly affected animals. Humans 
and other animals can be exposed to algal toxins through the food they 
eat, the water they drink or swim in, or the air that they breathe. 
Other harmful algae are nontoxic to humans and wildlife but form such 
large blooms that they degrade habitat quality through massive 
overgrowth, shading, or oxygen depletion (hypoxia). These high biomass 
blooms can also be a nuisance to humans when masses of algae accumulate 
along beaches and subsequently decay.
    HABs can have major negative impacts on local economies when, for 
example, shellfish harvesting is restricted to protect human health or 
when tourism declines due to degradation of recreational resources. 
HABs can also result in significant public health costs when humans 
become ill. A recent conservative assessment estimates that HABs 
occurring in marine waters alone have an average annual impact of $82 
million dollars in the United States.\1\ We know that local impacts of 
single events can be large, sometimes larger than the average annual 
impact. For example, in 2005, we saw $18 million in lost shellfish 
sales in Massachusetts alone.\2\ Economic impacts can be difficult to 
calculate as they vary from region to region and event to event, but 
they are a primary concern of coastal communities that experience HAB 
events.
---------------------------------------------------------------------------
    \1\ Hoagland, P., and Scatasta, S. 2006. The economic effects of 
harmful algal blooms. In E. Graneli and J. Turner, eds., Ecology of 
Harmful Algae. Ecology Studies Series. Dordrecht, The Netherlands: 
Springer-Verlag, Chap. 29.
    \2\ Jin, D., Thunberg, E., and Hoagland, P. 2008. Economic impact 
of the 2005 red tide event on commercial shellfish fisheries in New 
England. Ocean and Coastal Management 51(5): 420-429.
---------------------------------------------------------------------------
    The public health, ecosystem, and economic impacts can all have 
social and cultural consequences. For example, along the Washington and 
Oregon coasts, tens of thousands of people visit annually to harvest 
razor clams recreationally whenever the beaches are opened but, due to 
high levels of the HAB toxin domoic acid, there have been a number of 
closures to the recreational fishery in recent years. These closures 
have not only resulted in economic losses, but also in an erosion of 
community identity, community recreation, and a traditional way of 
living for native coastal cultures.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The geographic distribution of HAB events in the United States is 
broad. For example, all coastal states have experienced HAB events over 
the last decade (see map of HAB events). Moreover, the problem is not 
limited to the marine coasts of the United States, as freshwater HABs 
occur in the Great Lakes and in many inland waters. Evidence indicates 
that the frequency and distribution of these events and their impacts 
have increased considerably in recent years in the United States and 
globally.\3\
---------------------------------------------------------------------------
    \3\ GEOHAB, 2006. Global Ecology and Oceanography of Harmful Algal 
Blooms, Harmful Algal Blooms in Eutrophic Systems. P. Glibert (ed.). 
IOC and SCOR, Paris and Baltimore, 74 pp.

  Heisler, J., P. Glibert, J. Burkholder, D. Anderson, W. Cochlan, W. 
Dennison, C. Gobler, Q. Dortch, C. Heil, E. Humphries, A. Lewitus, R. 
Magnien, H. Marshall, K. Sellner, D. Stockwell, D. Stoecker, and M. 
Suddleson. 2008 Eutrophication and Harmful Algal Blooms: A Scientific 
Consensus. Harmful Algae. In press.
    Although all coastal states experience HABs, the specific organisms 
responsible for the HABs differ among regions of the country (see HAB 
map). As a result the harmful impacts vary in their scope and severity, 
which leads to the need for specific management approaches for each 
region and problem. Some species need to be present in very high 
abundance before harmful effects occur making them easy to detect and 
track. Others cause problems at very low concentrations and can in 
essence be hidden among other benign algae, so they are difficult to 
detect and track. The factors that cause and control blooms from 
initiation to decline vary not only by species, but also by region due 
to differences in coastlines, runoff, oceanography, nutrient regime, 
other organisms present in the water, etc. Consequently, developing 
strategies for HAB management requires a regional approach.
    The causes of HABs are complex. Not only do they vary between 
species and locations but they are not all well understood. In general, 
algal species grow best when environmental conditions (such as 
temperature, salinity, and availability of nutrients and light) are 
optimal for cell growth. Other biological and physical processes 
determine if enhanced cell growth will result in biomass accumulation 
(or what we call a ``bloom''). The challenge for understanding the 
causes of HABs stems from the complexity of these biological, chemical, 
and physical interactions and their variable influence on growth and 
bloom development among different HAB species. The complexity of 
interactions between HABs, the environment, and other plankton 
complicate the predictions of when and where HAB events will occur. 
Knowledge of how all these factors control the initiation, sustainment, 
and decline of a bloom is a critical precursor for advancing HAB 
management.
    Human activities are thought to contribute to the increased 
frequency of some HABs.<SUP>3</SUP> For example, increased nutrient 
pollution has been acknowledged as a likely factor contributing to 
increased occurrence of several high biomass HABs. Other human-induced 
environmental changes that may foster development of certain HABs 
include changes in the types of nutrients entering coastal waters, 
alteration of food webs by overfishing, introductions of non-indigenous 
species that change food web structure, introduction of HAB cells to 
new areas via ballast water or other mechanisms, and modifications to 
water flow. It should also be noted that climate change will almost 
certainly influence HAB dynamics in some way since many critical 
processes governing HAB dynamics--such as temperature, water column 
stratification, upwelling and ocean circulation patterns, and 
freshwater and land-derived nutrient inputs--are influenced by climate. 
The interactive role of climate change with the other factors driving 
the frequency and severity of HABs is an important topic in the early 
stages of research, but climate change is expected to exacerbate the 
HAB problem in some regions.\4\
---------------------------------------------------------------------------
    \4\ Edwards, M., Johns, D.G., Leterme, S.C., Svendsen, E., and 
Richardson, A.J. 2006. Regional climate change and harmful algal blooms 
in the northeast Atlantic. Limnol. Oceanogr. 52(2): 820-829.

  Dale, B., Edwards, M., and Reid, P.C. 2006. Climate change and 
harmful algal blooms. In Graneli, E., and Turner, J.T. (eds.), Ecology 
---------------------------------------------------------------------------
of Harmful Algae. Ecological Studies. 189: 367-378.

NOAA HAB Programs

    The long-term goal of NOAA's HAB programs is to prevent, control, 
and mitigate HABs and their impacts in U.S. coastal waters, including 
the Great Lakes. Since most HAB impacts are managed at the State and 
local level, achieving this goal is mainly accomplished by providing 
State and local coastal and public health managers and local 
communities with the information and tools they need to protect human 
health, ecosystem health, and coastal economies. NOAA, through its HAB 
research and partnerships with academic institutions as well as other 
efforts in coordination with multiple agencies, is developing tools and 
applications to assist local decision-makers. A few examples include:

        <bullet>  more accurate methodologies for detecting and 
        tracking HAB cells and toxins that allow managers to assess 
        more quickly, and cost-effectively, the magnitude of a HAB 
        event;

        <bullet>  models for forecasting when and where HABs will occur 
        and testing prevention strategies;

        <bullet>  methods of diagnosing and treating toxin exposure in 
        animals and humans;

        <bullet>  risk communication and prevention strategies based on 
        economic analyses and risk assessments for human, animal, and 
        ecosystem health; and

        <bullet>  public education and awareness resources and 
        materials.

    These efforts are guided in part by two strategic plans: (1) 
HARRNESS: National Plan for Algal Toxins and Harmful Algal Blooms and 
(2) Harmful Algal Research and Response: A Human Dimensions Strategy, 
which have both provided direction for NOAA's HAB research and 
management strategies. Developing useful products for HAB management is 
a multi-step process that requires a variety of approaches, all of 
which require a strong scientific understanding of the causes and 
impacts of HABs.
    NOAA leads two programs solely focused on HABs: the interagency 
Ecology and Oceanography of Harmful Algal Blooms (ECOHAB) Program and 
the NOAA Monitoring and Event Response for Harmful Algal Blooms 
(MERHAB) Program, both of which were authorized by HABHRCA. ECOHAB is a 
competitive research program focused on determining the causes and 
impacts of HABs. The information and tools ECOHAB provides are 
necessary for developing technologies for, and approaches to, 
predicting, preventing, monitoring and controlling HABs. MERHAB is a 
competitive research program that focuses on incorporating tools, 
approaches, and technologies from HAB research programs into existing 
HAB monitoring programs. MERHAB also establishes partnerships to 
enhance existing and initiate new HAB monitoring capabilities to 
provide managers with timely information needed to mitigate HAB impacts 
on coastal communities.
    Numerous other programs within NOAA also address HAB problems as 
part of their specific legislative mandate. These include the Oceans 
and Human Health Initiative, Sea Grant, the Office of Protected 
Resources, fisheries management programs, the Integrated Ocean 
Observing System Program, and numerous NOAA labs and centers that 
conduct intramural research. There is close collaboration between all 
of these programs. Many of NOAA's research accomplishments have 
resulted from the efforts of more than one NOAA program.
    Other agencies also contribute substantially to improving HAB 
research and response. These include the Food and Drug Administration, 
the Environmental Protection Agency (EPA), the National Science 
Foundation, the National Institute of Environmental Health Sciences, 
the National Aeronautics and Space Administration, the Centers for 
Disease Control, and the U.S. Geological Survey. Interagency 
coordination is provided by the IWG-4H, which has taken on the 
functions of the HAB Task Force, designated in HABHRCA. Interagency 
coordination has improved considerably since the IWG-4H was established 
under the direction of the U.S. Ocean Action Plan governance structure, 
through the Joint Subcommittee on Ocean Science and Technology.

Accomplishments Since 1998

    The passage of HABHRCA in 1998 marked the formal beginning of 
NOAA's HAB programs, although some efforts were already underway. In 
the following 10 years there have been many accomplishments that have 
improved HAB management and response in virtually every coastal state. 
Below are just a few examples that highlight the benefits of NOAA's HAB 
research.
    In April 2008, NOAA-funded researchers predicted a severe outbreak 
of Alexandrium fundyense off the New England coast. This organism 
produces potent neurotoxins that are filtered by shellfish. When humans 
consume contaminated shellfish they become extremely ill and can die 
without immediate medical treatment. To prevent human health illness 
and death, states in the region have extensive, rigorous shellfish 
toxin monitoring programs. When toxins in shellfish reach regulatory 
limits in a particular region, both commercial and recreational 
harvests are closed.
    The 2008 prediction was derived from a model, based on 10 years of 
ecosystem research in the Gulf of Maine. The prediction was remarkably 
accurate, but the severity of the event cannot be fully assessed until 
the end of the HAB season. The prediction allows State managers and the 
shellfish aquaculture industry to plan for a difficult season. By 
showing the news media and the public that the event was expected and 
State managers were prepared, the prediction may have also reduced the 
``halo'' effect in which shellfish harvesting closures in one area 
reduce shellfish and fish sales from areas unaffected by toxicity. 
Subsequent weekly predictions and survey cruises have provided managers 
with information about the location of high numbers of toxic cells and 
where they are likely to be transported by currents in the next few 
days, helping them to monitor more efficiently and effectively. A 
simple listserv for State and federal managers and researchers keeps 
everyone from the Bay of Fundy to the southern New England states 
informed about the progress of the event.
    Florida's harmful algal blooms are typically red tides caused by an 
organism called Karenia brevis, which produces a very different 
neurotoxin than that found in the species that causes the New England 
blooms. Blooms occur most often along the west Florida coast, but also 
in the Panhandle and occasionally on the east coast of Florida. Besides 
contaminating shellfish, resulting in harvest closures to protect 
public health, Karenia blooms also cause massive fish, bird, turtle, 
and marine mammal mortalities. In addition, the toxin can be suspended 
in the air as an aerosol along beaches and in near-shore areas, causing 
irritation of the throats and eyes of beach-goers. In extreme cases 
severe respiratory problems can result and require hospitalization. 
Recent research shows that instead of one species, Karenia brevis, 
there are multiple Karenia species that produce HABs, and which differ 
in types of toxins and conditions favoring growth. Research is underway 
to develop quick methods and sensors that can be deployed on moorings 
to identify these species.
    A Florida HAB Bulletin is issued twice a week by NOAA, providing 
the location of current blooms, as determined by satellites, and 
forecasting transport and impacts over the next few days. A pilot 
project, funded by the State of Florida, is currently linking lifeguard 
observations to the HAB Bulletin, to provide beach-goers with real time 
information about beach conditions.
    Many methods for detecting Karenia brevis and its toxins have been 
developed with NOAA funding, for use in different applications. A quick 
test for the toxins has been developed and is now undergoing approval 
for use as an official monitoring method for public health. This test 
has also been instrumental in investigating dolphin and manatee 
mortality events, leading to the discovery of unusual toxin exposure 
pathways in both organisms. Additionally, an autonomous underwater 
glider has been developed that can optically map the distribution of 
Karenia below the surface and send the data back to shore-based labs.
    Several large regional studies have produced a model that, along 
with observations, is being used to determine the environmental factors 
that contribute to blooms. In particular there is a debate currently 
about the source of nutrients fueling these recurring blooms. If land-
based nutrient pollution is an important cause, it may be possible to 
reduce or prevent blooms by reducing nutrient inputs.
    NOAA and other agencies have also funded studies to investigate 
both physical and biological methods of controlling Karenia blooms. A 
pilot project in the field has shown that spraying a clay suspension on 
a bloom is highly effective in causing a bloom to sink to the bottom. 
The control of blooms by both naturally occurring bacteria and viruses 
has also been investigated. No suitable viruses were found, but several 
algicidal bacteria were found that killed Karenia in laboratory 
cultures. These studies hold great promise for future HAB control 
strategies, and follow up research would be a priority topic in NOAA 
competitions.
    Karenia brevis blooms also occur in Texas coastal waters, although 
much less frequently than in Florida. A Texas HAB Bulletin has been 
provided by NOAA weekly since 2006 in a demonstration/testing mode, as 
we reevaluate our models to incorporate the specific oceanographic 
conditions off Texas. Because Karenia blooms are much more sporadic 
along the Texas coast, routine monitoring is not conducted unless an 
outbreak is occurring so early warning is especially important for 
protecting public health.
    Several NOAA projects have investigated the use of instruments 
moored offshore that are capable of taking pictures, recognizing images 
of Karenia and sending the pictures back to shore-based labs to provide 
early warning. During a recent experimental deployment a HAB organism 
was observed in very high numbers that had never caused problems in the 
U.S. before, Dinophysis. State public health managers were immediately 
notified and oysters were found to be toxic. Shellfish harvesting was 
closed and shellfish recalled just days before the Fulton Oysterfest, a 
major event in the region, attended by thousands of people. Early 
detection and quick warning prevented human illness which would have 
been a devastating blow to the local shellfish industry.
    The entire west coast of the U.S. has problems with two HAB groups, 
Alexandrium and Pseudo-nitzschia. The Alexandrium on the west coast is 
a different species, but similar in many ways to the Alexandrium in the 
Gulf of Maine. Much less is known about the factors that cause the west 
coast blooms or their impacts. Pseudo-nitzschia are a group of species, 
some of whom produce a potent neurotoxin and others do not. The toxin 
accumulates in both shellfish and fish and has caused bird and marine 
mammal mortality events. Particularly hard hit are sea lions, in which 
the neurotoxin causes seizures. The effected sea lions are often 
permanently impaired if they survive. In pregnant females, the seizures 
have caused them to go into labor prematurely.
    State and tribal public health monitoring is focused on shellfish 
and Dungeness crabs. Through a variety of programs, NOAA has been very 
active in developing and evaluating quick tests for detecting the 
toxins from Alexandrium and Pseudo-nitzschia. These are being 
incorporated into both State and tribal monitoring in order to better 
protect human health. Monitoring partnerships between State and tribal 
agencies and researchers have been fostered by NOAA projects in 
Washington, Oregon, and several locations in California to incorporate 
these new monitoring technologies and to develop new, more effective 
strategies. One of these, the Olympic Region Harmful Algal Bloom 
Partnership, is now funded by the State of Washington.
    NOAA has jointly funded with NSF a large regional study along the 
Washington coast to determine the off-shore source of toxic Pseudo-
nitzschia, which are occasionally transported into shore and make 
shellfish, particularly razor clams, toxic. This study is developing a 
predictive model and is the basis of a HAB Forecast that will be 
released this summer on an experimental basis.
    Some of the Great Lakes have experienced a resurgence of algal 
blooms in the last few years, especially Lake Erie and parts of Lake 
Huron. These blooms, comprised of a mixture of cyanobacteria (blue-
green algae), but usually dominated by Microcystis, can produce 
hepatotoxins and neurotoxins that can cause animal and human illness 
and death. The organisms also produce compounds which make the water 
taste and smell foul and can impart a bad taste to fish. In addition, 
the high biomass levels can lead to bottom water oxygen depletion 
(hypoxia), which kills other organisms. Several NOAA projects have led 
to development of capacity for measuring most of the common 
cyanobacterial toxins and then determining when and where these toxins 
occur. These projects have shown that all major groups of 
cyanobacterial toxins occur in the Great Lakes at some times and that 
concentrations can at times be very high. NOAA is developing a Great 
Lakes HAB forecast, based on satellite remote sensing, in order to 
provide early warning of blooms and bloom tracking.
    Cyanobacterial hepatotoxins are structurally very different from 
any of the other HAB toxins and little is known about their ability to 
accumulate up the food chain and impact higher trophic levels, 
including humans. Several NOAA studies are investigating accumulation 
and impacts of these toxins in organisms that consume cyanobacteria and 
could transfer the toxins through food chains that might lead to 
humans. The link between the zebra and quagga mussel invasion, 
alterations in nutrient cycling, and cyanobacterial blooms is being 
investigated by both NOAA and EPA, as a jointly funded project under 
the interagency ECOHAB program, to explain why these blooms have 
recurred and, perhaps, lead to an effective prevention strategy.
    In general NOAA-funded research has made the greatest improvements 
in developing new methods of detecting HABs and HAB toxins: improving 
monitoring capabilities; understanding the causes and impacts of 
blooms; and predicting some of the most devastating blooms. Progress 
towards prevention and control of HABs and their impacts is also moving 
forward as a result of this advanced understanding and capability. 
Development of prevention strategies and control technologies requires 
a comprehensive understanding of HAB causes, adequate technology 
development, and programs that foster the transition from research to 
operations. The President's FY 2009 Budget Request will allow NOAA to 
continue its efforts to advance the Nation's capabilities in HAB 
prevention, control, and mitigation.

Future Directions and Challenges

    The 2004 HABHRCA reauthorization mandated four HAB reports be 
produced, which summarize the accomplishments of federal research and 
response efforts and provide guidance on future directions for HAB 
research and response. These reports, developed by the IWG-4H, include 
the National Assessment of Efforts to Predict and Respond to Harmful 
Algal Blooms in U.S. Waters and the National Scientific Research, 
Development, Demonstration, and Technology Transfer Plan on Reducing 
Impacts from Harmful Algal Blooms (RDDTT Plan). These two reports will 
be combined and published under the name Harmful Algal Bloom Management 
and Response: Assessment and Plan. The other two reports are the 
Scientific Assessment of Marine Harmful Algal Blooms (Marine HAB 
Report), and the Scientific Assessment of Freshwater Harmful Algal 
Blooms. The National Assessment of Efforts to Predict and Respond to 
Harmful Algal Blooms in U.S. Waters was transmitted to Congress in 
September 2007; all of the remaining reports are undergoing review and 
will be transmitted to Congress as soon as possible.
    The RDDTT Plan lays out a comprehensive approach for improving HAB 
prevention, mitigation, control, event response, and HAB research and 
response infrastructure. As a result, NOAA is establishing an RDDTT 
Program, which will be an extramural, competitive research program to 
support the development, demonstration and transfer of tools, 
technologies, and strategies to help resource managers, public health 
managers, and researchers detect, monitor, investigate, control, and 
reduce HABs and their impacts. Both the original HABHRCA and the 2004 
reauthorization authorize a prevention, control, and mitigation 
program, which the RDDTT Plan now defines. The purpose of the RDDTT 
Program will be to transition new technology and information into tools 
that can easily be used by managers and local communities.
    Recent events and the increasing intensity and frequency of HAB 
events have highlighted the need for enhancing event response 
capabilities. The RDDTT Plan also gives a high priority to enhancing 
event response capabilities. NOAA is considering approaches to 
addressing this emerging issue.
    The Marine HAB Report shows that most HAB problems occur 
regionally. Consequently, most research is conducted and 
accomplishments are achieved on a regional basis. In response to the 
conclusions outlined in the Marine HAB Report and priorities within 
NOAA, we plan to increase the regional emphasis of our programs. 
Research in each region would be guided by a series of plans developed 
through workshops attended by researchers, State and local resource and 
public health managers, and other interested stake holders. These 
workshops would assess the state of the problem, the tools that are 
currently available to address the problem, and propose priorities for 
future research and actions to improve management and response in that 
region. NOAA has already sponsored workshops on specific HABs in the 
Gulf of Mexico, southern California, and Gulf of Maine and has 
workshops in the planning stages for the entire West Coast Region and 
Hawaii.
    One of the long-term goals of NOAA's research is the development of 
operational HAB forecasts, similar in many ways to weather forecasts. 
The purpose is to give advance warning that a HAB is or will be present 
and predict where it will go. Depending on the region, the early 
warning could be an annual prediction or a forecast for the next few 
days. State public health and resource managers unanimously say that 
the longer the warning lead time the more useful it is to them. These 
managers primarily use warnings to guide State monitoring programs both 
in the short- and long-term.
    In summary, operational forecasts are provided in Florida. While 
initially these forecasts were focused on the southwest coast, they are 
now available for the Panhandle and the east coast of Florida as well. 
NOAA is testing forecast models in Texas and the Gulf of Maine, and 
plans to test forecast models for the Washington coast and in Lake Erie 
later this summer. In the next few years, the plan is to transition the 
forecast models we are testing into an operational mode. This will 
require close collaboration with the developing U.S. Integrated Ocean 
Observing System because HAB forecasts are dependent on real-time data 
about ocean conditions. In addition, the development and deployment of 
HAB sensors are critical for providing models with data about HAB 
incidence and abundance.

Conclusion

    Thank you for this opportunity to update you on NOAA's HAB 
programs. Over the last ten years we have made enormous progress in 
understanding the causes and consequences of HABs, which has led to the 
development of many tools and information products that improve HAB 
management, particularly in the area of mitigation. We anticipate that 
in the next ten years this progress will continue and our ability to 
prevent and control as well as mitigate will be greatly enhanced.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                    Biography for Robert E. Magnien
    Robert Magnien has been Director of NOAA's Center for Sponsored 
Coastal Ocean Research (CSCOR) since 2003. CSCOR is responsible for 
administering the competitive research programs called for in the 
Harmful Algal Bloom and Hypoxia Research and Control Act (HABHRCA) 
which include the only two national programs devoted solely to Harmful 
Algal Bloom (HAB) research. CSCOR also administers the national 
competitive Hypoxia research programs called for in HABHRCA and other 
regional-scale applied research programs to provide the predictive 
capabilities necessary for management of coastal systems in an 
ecosystem context.
    From 1983 to 2003 Dr. Magnien held several positions in the State 
of Maryland's Chesapeake Bay Program from its inception and served in 
numerous leadership roles (technical and policy) for the EPA-led 
regional Chesapeake Bay Program. He last served from 1995 to 2003 for 
Maryland's Department of Natural Resources as Director of the Tidewater 
Ecosystem Assessment (TEA) Division and, additionally, from 2002 to 
2003 as Director of the Resource Assessment Service, which oversees the 
Maryland Geological Survey and three other Divisions which include most 
of the State's science capabilities related to the management of the 
Chesapeake Bay and freshwaters. In these capacities Dr. Magnien led 
Maryland's efforts to respond to threats posed by HABs and reported to 
the Governor and his cabinet as needed. He also provided leadership on 
numerous other State and regional issues involving science and policy 
including monitoring programs, hypoxia, water quality, habitat 
restoration, dredging operations, toxic contaminants, ecological 
forecasting, and information management.
    Dr. Magnien has authored numerous peer-reviewed publications, 
technical reports, agency documents and workshop reports and has also 
made numerous invited and submitted presentations at international, 
national, and regional scientific conferences. These publications and 
presentations include his work on harmful algal blooms, hypoxia, large-
scale monitoring programs, environmental assessments and the 
interactions between science and policy.
    Dr. Magnien received a Ph.D. in Aquatic Ecology from Dartmouth 
College and a B.S. in Biology from the State University of New York at 
Albany.

    Chairman Lampson. Thank you, Dr. Magnien.
    Dr. Anderson, you are recognized for five minutes.

    STATEMENT OF DR. DONALD M. ANDERSON, SENIOR SCIENTIST, 
 DEPARTMENT OF BIOLOGY, WOODS HOLE OCEANOGRAPHIC INSTITUTION; 
DIRECTOR, U.S. NATIONAL OFFICE FOR MARINE BIOTOXINS AND HARMFUL 
                          ALGAL BLOOMS

    Dr. Anderson. Mr. Chairman and Members of the Subcommittee, 
my name is Don Anderson and I am a senior scientist at the 
Woods Hole Oceanographic Institution, where I have studied red 
tides and HABs for over 30 years. I have also been actively 
involved in the formulation of the programs and legislation 
that support our national HAB program. And to reinforce what 
Rob Magnien just said, I would like to go through some images 
here for you.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    HABs are caused by algae, many of them microscopic, as you 
see here. These species make their presence known through 
massive blooms of cells that discolor the water, sometimes 
through the illness and death of humans who have consumed 
contaminated shellfish or fish, through the mass mortalities of 
fish, sea birds and marine mammals, and sometimes through 
irritating or aerosolized toxins that drive tourists from 
beaches.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Seaweeds can also cause harm, as seen as in these images 
from China, where the sailing events in the Olympics are 
threatened by massive blooms. These are some rather spectacular 
images, I think.
    Marine HABs affect every coastal state in the United 
States. Now, Florida, Texas and other states in the Gulf of 
Mexico are affected by HABs that make shellfish poisonous, that 
kill fish and that release aerosolized toxins. The causitive 
organisms can be found in the water year-round over wide areas. 
These cells proliferate in certain areas and at certain times, 
often offshore, and are then transported to shore by wind 
events. Special features of the ocean bottom facilitate this 
transport and focus cell delivery to sites of recurrent blooms, 
as you see here. Studies are ongoing to address the highly 
controversial issue of the potential link between red tides and 
nutrient inputs from land including those associated with 
agriculture and other human activities.
    Now, in contrast, in the northeastern United States, a 
different algal species produces toxins that accumulate in 
shellfish but that does not cause massive fish kills or become 
aerosolized. These blooms show no obvious link to land-derived 
pollution. The organism is not present in the water year-round. 
Instead, the blooms are heavily reliant on a cyst or a seed 
stage that lies dormant in the sediments for most of the year 
and then germinates to inoculate the surface water, so the 
blooms are highly seasonal.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Here again, the transport pathways have been identified 
that are critical in carrying the toxic shells to both near-
shore and offshore shellfish, as shown in this image. Industry 
efforts to open a $50-million-a-year sustainable offshore 
shellfish resource near George's bank are being severely 
constrained by the offshore component of these blooms. So in 
these and many other cases, research progress has been 
significant and it is providing tools to managers. For example, 
a computer model of HAB dynamics in the Gulf of Maine has 
advanced to the level where we were able to forecast this 
spring a major bloom for the region that did occur several 
months later, an outbreak that closed shellfish beds from 
Canada to Massachusetts. This is the first time a forecast of 
this type has ever been attempted anywhere. This model is now 
being used to provide weekly forecasts to managers and will be 
used by NOAA as the basis of an operational HAB forecasting 
system for the Gulf of Maine.
    So research progress on HABs has been significant in the 
United States, in part because the scientific and management 
communities worked together 15 years ago to formulate a 
national plan or research agenda. The 1993 National Plan is 
outdated, however. We therefore formulated a new plan called 
HARRNESS, a framework that will guide U.S. HAB research and 
monitoring well into the future, and I enthusiastically support 
this program.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Now, under HARRNESS, several existing national research 
programs will continue but new programs are needed, and 
prominent among these is a program on prevention, control and 
mitigation of harmful algal blooms. This is something that Rob 
Magnien described as the RDDTT program. I also endorse this 
program and recommend that funds be provided for it that are 
separate from existing fundamental research programs such as 
ECOHAB. There are a number of promising HAB mitigation and 
control strategies under development that are highlighted in my 
written testimony. Perhaps we can explore these during 
questions.
    So in conclusion, the diverse nature of HAB phenomena and 
the hydrodynamic and geographic variability associated with 
different outbreaks throughout the United States pose 
significant challenges, no doubt. As a result of research 
funding through ECOHAB and other programs, however, the 
scientific and management community has the skills and the 
knowledge to deal with these issues and stands ready to partner 
with Congress and federal agencies in an expanded national HAB 
program that transitions science to practical applications.
    Mr. Chairman, this concludes my oral statement. Thank you 
for the opportunity to present my views.
    [The prepared statement of Dr. Anderson follows:]
                Prepared Statement of Donald M. Anderson
    Mr. Chairman and Members of the Subcommittee. I am Donald M. 
Anderson, a Senior Scientist in the Biology Department of the Woods 
Hole Oceanographic Institution, where I have been active in the study 
of red tides and harmful algal blooms (HABs) for 30 years. I am here to 
provide the perspective of an experienced scientist who has 
investigated many of the harmful algal bloom (HAB) phenomena that 
affect coastal waters of the United States and the world. I am also 
Director of the U.S. National Office for Marine Biotoxins and Harmful 
Algal Blooms, Co-Chair of the National HAB Committee, and have been 
actively involved in formulating the scientific framework and agency 
partnerships that support and guide our national program on HABs. Thank 
you for the opportunity to acquaint you with the challenges posed to 
the U.S. and other countries by HABs, the present status of our 
research progress, options for prevention, control, and mitigation, and 
the future programmatic actions that are needed to maintain and expand 
this important national program. Other than a few general comments, I 
will restrict my comments to marine HABs, as testimony on freshwater 
HABs is being provided by my colleague Dr. Kenneth Hudnell.

BACKGROUND

    Among the thousands of species of microscopic algae at the base of 
the marine food chain are a few dozen which produce potent toxins. 
These species make their presence known in many ways, sometimes as a 
massive ``bloom'' of cells that discolor the water, sometimes as 
dilute, inconspicuous concentrations of cells noticed only because they 
produce highly potent toxins which either kill marine organisms 
directly, or transfer through the food chain, causing harm at multiple 
levels. The impacts of these phenomena include mass mortalities of wild 
and farmed fish and shellfish, human intoxications or even death from 
contaminated shellfish or fish, alterations of marine trophic structure 
through adverse effects on larvae and other life history stages of 
commercial fisheries species, and death of marine mammals, seabirds, 
and other animals.
    Blooms of toxic algae are commonly called ``red tides,'' since the 
tiny plants sometimes increase in abundance until they dominate the 
planktonic community and sometimes make the water appear discolored. 
The term is misleading, however, since toxic blooms may be greenish or 
brownish, non-toxic species can bloom and harmlessly discolor the 
water, and, conversely, adverse effects can occur when some algal cell 
concentrations are low and the water is clear. Given the confusion, the 
scientific community now uses the term ``harmful algal bloom'' or HAB.
    HAB phenomena take a variety of forms and have a variety of 
impacts. With regard to human health, the major category of impact 
occurs when toxic phytoplankton are filtered from the water as food by 
shellfish which then accumulate the algal toxins to levels that can be 
lethal to humans or other consumers. These poisoning syndromes have 
been given the names paralytic, diarrhetic, neurotoxic, azaspiracid, 
and amnesic shellfish poisoning (PSP, DSP, NSP, AZP, and ASP). All have 
serious effects, and some can be fatal. Except for ASP, all are caused 
by biotoxins synthesized by a class of marine algae called 
dinoflagellates. ASP is produced by diatoms that until recently were 
all thought to be free of toxins and generally harmless. A sixth human 
illness, Ciguatera fish poisoning (CFP) is caused by biotoxins produced 
by dinoflagellates that grow on seaweeds and other surfaces in coral 
reef communities. Ciguatera toxins are transferred through the food 
chain from herbivorous reef fishes to larger carnivorous, commercially 
valuable finfish. Yet another human health impact from HABs occurs when 
a class of algal toxins called the brevetoxins becomes airborne in sea 
spray, causing respiratory irritation and asthma-like symptoms in 
beach-goers and coastal residents, typically along the Florida and 
Texas shores of the Gulf of Mexico. Macroalgal or seaweed blooms also 
fall under the HAB umbrella. Excessive seaweed growth, often linked to 
pollution inputs, can displace natural underwater vegetation, cover 
coral reefs, and wash up on beaches, where the odor of masses of 
decaying material is a serious deterrent to tourism. Finally, another 
poorly understood human illness linked to toxic algae is caused by the 
dinoflagellate Pfiesteria piscicida and related organisms (e.g., 
Karlodinium) that have been linked to symptoms such as deficiencies in 
learning and memory, skin lesions, and acute respiratory and eye 
irritation--all after exposure to estuarine waters where Pfiesteria-
like organisms have been present (Burkholder and Glasgow, 1997).

Distribution of HAB Phenomena in the United States

    With the exception of AZP, all of the poisoning syndromes described 
above are known problems within the U.S. and its territories, affecting 
large expanses of coastline (Fig. 1). PSP occurs in all coastal New 
England states as well as New York, extending to offshore areas in the 
northeast, and along much of the west coast from Alaska to northern 
California. Overall, PSP affects more U.S. coastline than any other 
algal bloom problem. NSP occurs annually along Gulf of Mexico coasts, 
with the most frequent outbreaks along western Florida and Texas. 
Louisiana, Mississippi, North Carolina and Alabama have also been 
affected intermittently, causing extensive losses to the oyster 
industry and killing birds and marine mammals. ASP has been a problem 
for all of the U.S. Pacific coast states. The ASP toxin has been 
detected in shellfish on the east coast as well, and in plankton from 
Gulf of Mexico waters. DSP is largely unknown in the U.S., but a major 
outbreak was recently reported along the Texas coast, resulting in an 
extensive closure of shellfish beds in that area. Human health problems 
from Pfiesteria and related species are thus far poorly documented, but 
some are thought to have affected laboratory workers, fishermen, and 
others working in or exposed to estuarine waters in several portions of 
the southeastern U.S. CFP is the most frequently reported non-bacterial 
illness associated with eating fish in the U.S. and its territories, 
but the number of cases is probably far higher, because reporting to 
the U.S. Center for Disease Control is voluntary and there is no 
confirmatory laboratory test. In the Virgin Islands, it is estimated 
that nearly 50 percent of the adults have been poisoned at least once, 
and some estimate that 20,000-40,000 individuals are poisoned by 
Ciguatera annually in Puerto Rico and the U.S. Virgin Islands alone. 
CFP occurs in virtually all sub-tropical to tropical U.S. waters (i.e., 
Florida, Texas, Hawaii, Guam, Virgin Islands, Puerto Rico, and many 
Pacific Territories). As tropical fish are increasingly exported to 
distant markets, Ciguatera has become a worldwide problem.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Economic and Societal Impacts

    HABs have a wide array of economic impacts, including the costs of 
conducting routine monitoring programs for shellfish and other affected 
resources, short-term and permanent closure of harvestable shellfish 
and fish stocks, reductions in seafood sales (including the avoidance 
of ``safe'' seafoods as a result of over-reaction to health 
advisories), mortalities of wild and farmed fish, shellfish, submerged 
aquatic vegetation and coral reefs, impacts on tourism and tourism-
related businesses, and medical treatment of exposed populations. A 
conservative estimate of the average annual economic impact resulting 
from HABs in the U.S. is approximately $82 million (Hoagland and 
Scatasta, 2006). Cumulatively, the costs of HABs exceed a billion 
dollars over the last several decades. These estimates do not include 
the application of ``multipliers'' that are often used to account for 
the manner in which money transfers through a local economy. With 
multipliers, the estimate of HAB impacts in the United States would 
increase several fold. Furthermore, individual bloom events can 
approach the annual average, as occurred for example in 2005 when a 
massive bloom of Alexandrium species along the New England coast closed 
shellfish beds from Maine to southern Massachusetts. The impact to the 
Massachusetts shellfish industry alone was estimated by the State 
Division of Marine Fisheries to be $50M, with similar large impacts 
occurring in Maine. Additional unquantified losses were experienced by 
the tourist industry and by restaurants and seafood retailers, as 
consumers often avoided all seafood from the region, despite assurances 
that no toxins had been detected in many of these seafood products.

Recent Trends

    The nature of the HAB problem has changed considerably over the 
last several decades in the U.S. Virtually every coastal state is now 
threatened by harmful or toxic algal species, whereas 30-40 years ago, 
the problem was much more scattered and sporadic (Fig. 2.). The number 
of toxic blooms, the economic losses from them, the types of resources 
affected, and the number of toxins and toxic species have all increased 
dramatically in recent years in the U.S. and around the world 
(Anderson, 1989; Hallegraeff, 1993).
    The first thought of many is that pollution or other human 
activities are the main reason for this expansion, yet in the U.S. at 
least, many of the ``new'' or expanded HAB problems have occurred in 
waters where pollution is not an obvious factor. Some new bloom events 
likely reflect indigenous populations that have been discovered because 
of better detection methods and more observers rather than new species 
introductions or dispersal events (Anderson, 1989).
    Other ``spreading events'' are most easily attributed to dispersal 
via natural currents, while it is also clear that man may have 
contributed to the global HAB expansion by transporting toxic species 
in ship ballast water (Hallegraeff and Bolch, 1992). The U.S. Coast 
Guard, EPA, and the International Maritime Organization are all working 
toward ballast water control and treatment regulations that will 
attempt to reduce the threat of species introductions worldwide.
    Another factor underlying the global expansion of HABs is the 
dramatic increase in aquaculture activities. This leads to increased 
monitoring of product quality and safety, revealing indigenous toxic 
algae that were probably always present (Anderson, 1989). The 
construction of aquaculture facilities also places fish or shellfish 
resources in areas where toxic algal species occur but were previously 
unknown, leading to mortality events or toxicity outbreaks that would 
not have been noticed had the aquaculture facility not been placed 
there.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Of considerable concern, particularly for coastal resource 
managers, is the potential relationship between the apparent increase 
in HABs and the accelerated eutrophication of coastal waters due to 
human activities (Anderson et al., 2002). As mentioned above, some HAB 
outbreaks occur in pristine waters with no influence from pollution or 
other anthropogenic effects, but linkages between HABs and 
eutrophication have been frequently noted within the past several 
decades (e.g., Smayda, 1990). Coastal waters are receiving massive and 
increasing quantities of industrial, agricultural and sewage effluents 
through a variety of pathways. In many urbanized coastal regions, these 
anthropogenic inputs have altered the size and composition of the 
nutrient pool which may, in turn, create a more favorable nutrient 
environment for certain HAB species. Just as the application of 
fertilizer to lawns can enhance grass growth, marine algae can grow in 
response to various types of nutrient inputs. Shallow and restricted 
coastal waters that are poorly flushed appear to be most susceptible to 
nutrient-related algal problems. Nutrient enrichment of such systems 
often leads to eutrophication and increased frequencies and magnitudes 
of phytoplankton blooms, including HABs. There is no doubt that this is 
true in certain areas of the world where pollution has increased 
dramatically. A prominent example is the area of the East China Sea 
near Qingdao--where sailing activities in the forthcoming Olympics are 
threatened by mass quantities of seaweed that are a direct result of 
unchecked coastal pollution. This problem is real, but less evident in 
areas where coastal pollution is more gradual and unobtrusive.
    It is now clear that the worldwide expansion of HAB phenomena is in 
part a reflection of our ability to better define the boundaries of an 
existing problem. Those boundaries are also expanding, however, due to 
natural species dispersal via storms or currents, as well as to human-
assisted species dispersal, and enhanced HAB population growth as a 
result of pollution or other anthropogenic influences. The fact that 
part of the expansion is a result of increased awareness should not 
temper our concern. The HAB problem in the U.S. is serious, large, and 
growing. It is a much larger problem than we thought it was several 
decades ago.

PROGRESS AND STATUS OF OUR NATIONAL PROGRAM ON HABS

    More than a decade ago, the U.S. approach to research on marine 
HABS was uncoordinated and modest in scale. Research groups were few 
and their work was piecemeal and constrained by small budgets that 
fluctuated with the sporadic blooms that would occur. There were 
virtually no U.S. Government laboratories involved in HAB research. 
Funding for academic scientists was largely available through 
competitions within the entire oceanographic community since there were 
no targeted funding programs for HABs. This situation changed 
dramatically with the formulation of a national plan (Marine Biotoxins 
and Harmful Algal Blooms; A National Plan; Anderson et al., 1993). This 
plan, the result of a workshop involving academic and federal 
scientists, as well as agency officials, and industry representatives, 
identified major impediments to the goal of science-based management of 
resources affected by HABs, and made recommendations on the steps 
needed to remove those impediments. These impediments have been 
addressed to varying degrees with funding programs targeting specific 
topic areas within the broad field of HABs and their impacts. It is my 
belief that the National Plan has been a major success, leading to the 
creation of several multi-agency partnerships for HAB studies, and to 
many individual agency initiatives on this topic. Two national, 
extramural HAB funding programs, Ecology of Harmful Algal Blooms 
(ECOHAB) and Monitoring and Event Response for Harmful Algal Blooms 
(MERHAB), have together funded approximately $100 million in marine HAB 
research since the programs began in 1996 and 2000, respectively. 
Another partnership between the National Institute of Environmental 
Health Sciences (NIEHS) and the National Science Foundation (NSF) has 
supported four Centers for Oceans and Human Health that include 
significant HAB research and outreach activities. NOAA has also created 
an Oceans and Human Health Initiative (OHHI) that supports extramural 
research and focused activities at three federal OHHI centers. These 
are just a few of many programs and activities that were motivated by 
the 1993 National Plan.

Research and Management Progress

    With the advent of ECOHAB, MERHAB, the OHH programs, and other 
national HAB programs, resources have been directed towards the goal of 
scientifically based management of coastal waters and fisheries that 
are potentially impacted by HABs. These activities have already made a 
significant contribution to HAB management capabilities in the U.S. 
Here I will highlight several advances in our understanding of HAB 
phenomena, as well as some of the program-derived technological 
developments that are providing new tools to coastal resource managers 
in regions impacted by HABs.

Enhanced understanding of HAB dynamics
    In areas studied by the multi-investigator ECOHAB-funded regional 
research projects, HAB phenomena are now far better understood than was 
the case just 10 years ago when the program began. Knowledge is also 
increasing for HABs in other areas through smaller, targeted research 
projects. In the Gulf of Maine, the focus of the ECOHAB-GOM and GOMTOX 
regional programs, survey cruises, experimental and process studies, 
and numerical models have led to the development of a conceptual model 
of bloom dynamics that is consistent with observations of Alexandrium 
cell distributions, and with patterns of toxicity in shellfish along 
much of the New England coast (Anderson et al., 2005). A key feature of 
this model is the strong influence of dormant resting cysts in bottom 
sediments on bloom magnitude. Cysts in several large accumulation zones 
or ``seedbeds'' germinate in the spring and re-populate the water 
column with swimming Alexandrium cells, which then multiply and cause 
the annual PSP outbreaks. Major bloom transport pathways in the Maine 
Coastal Current system have also been identified, with delivery of the 
toxic algal cells to shore influenced by the patterns and strength of 
onshore- and offshore-oriented wind events.
    In the Gulf of Mexico, the ECOHAB-Florida program identified 
transport and delivery mechanisms for the toxic Karenia cells that kill 
fish, cause shellfish to become toxic, and release an irritating 
aerosol that drives residents and tourists from beaches. In particular, 
the Karenia cells are now thought to be transported onshore in deeper 
waters through wind events that cause ``upwelling.'' Special 
bathymetric features of the ocean bottom can facilitate this transport 
and focus cell delivery to areas known to be the sites of recurrent 
blooms. Studies of nutrient uptake by Karenia and surveys of nutrient 
concentrations in the region are addressing the sensitive and highly 
controversial issue of the potential link between red tide blooms and 
nutrient inputs from land, including those associated with agriculture 
and other human activities. This ongoing research has obvious 
implications to policy decisions concerning pollution and water quality 
in the region.
    Consistent with the identification of ``source regions'' for Gulf 
of Maine and Gulf of Mexico HABs, researchers in the Pacific Northwest 
have identified an area west of Puget Sound that appears to accumulate 
toxic diatoms responsible for outbreaks of amnesic shellfish poisoning 
(ASP), a debilitating illness that includes permanent loss of short-
term memory in some victims. Other programs have been equally 
productive in identifying underlying driving mechanisms for HAB blooms, 
such as the brown tide blooms in New York and New Jersey. These dense 
accumulations of tiny Aureococcus anophagefferens cells turn the water 
a deep brown, blocking sunlight to submerged vegetation, and altering 
the feeding behavior of shellfish. These blooms have been linked to 
certain types of nutrients that seem to favor the causative organism--
in particular ``organic'' forms of nitrogen that are preferred by the 
brown tide cells, and give it a competitive advantage in certain 
locations.

Improved monitoring and detection of HAB cells and toxins
    These are but a few of the advances in understanding that have 
accrued from ECOHAB regional funding. Equally important are the 
discoveries that provide management tools to reduce the impacts of HABs 
on coastal resources. Management options for dealing with the impacts 
of HABs include reducing their incidence and extent (prevention), 
stopping or containing blooms (control), and minimizing impacts 
(mitigation). Where possible, it is preferable to prevent HABs rather 
than to treat their symptoms. Since increased pollution and nutrient 
loading may enhance the growth of some HAB species, these events may be 
prevented by reducing pollution inputs to coastal waters, particularly 
industrial, agricultural, and domestic effluents high in plant 
nutrients. This is especially important in shallow, poorly flushed 
coastal waters that are most susceptible to nutrient-related algal 
problems. As mentioned above, research on the links between certain 
HABs and nutrients has highlighted the importance of non-point sources 
of nutrients (e.g., from agricultural activities, fossil-fuel 
combustion, and animal feeding operations).
    The most effective HAB management tools are monitoring programs 
that involve sampling and testing of wild or cultured seafood products 
directly from the natural environment, as this allows unequivocal 
tracking of toxins to their site of origin and targeted regulatory 
action. Numerous monitoring programs of this type have been established 
in U.S. coastal waters, typically by State agencies. This monitoring 
has become quite expensive, however, due to the proliferation of toxins 
and potentially affected resources. States are faced with flat or 
declining budgets and yet need to monitor for a growing list of HAB 
toxins and potentially affected fisheries resources. Technologies are 
thus urgently needed to facilitate the detection and characterization 
of HAB cells and blooms.
    One very useful technology that has been developed through recent 
HAB research relies on species- or strain-specific ``probes'' that can 
be used to label only the HAB cells of interest so they can then be 
detected visually, electronically, or chemically. Progress has been 
rapid and probes of several different types are now available for many 
of the harmful algae, along with techniques for their application in 
the rapid and accurate identification, enumeration, and isolation of 
individual species. One example of the direct application of this 
technology in operational HAB monitoring is for the New York and New 
Jersey brown tide organism, Aureococcus anophagefferens. The causative 
organism is so small and non-descript that it is virtually impossible 
to identify and count cells using traditional microscopic techniques. 
Antibody probes were developed that bind only to A. anophagefferens 
cells, and these are now used routinely in monitoring programs run by 
State and local authorities, greatly improving counting time and 
accuracy.
    These probes are being incorporated into a variety of different 
assay systems, including some that can be mounted on buoys and left 
unattended while they robotically sample the water and test for HAB 
cells. Clustered with other instruments that measure the physical, 
chemical, and optical characteristics of the water column, information 
can be collected and used to make ``algal forecasts'' of impending 
toxicity. These instruments are taking advantage of advances in ocean 
optics, as well as the new molecular and analytical methodologies that 
allow the toxic cells or chemicals (such as HAB toxins) to be detected 
with great sensitivity and specificity. A clear need has been 
identified for improved instrumentation for HAB cell and toxin 
detection, and additional resources are needed in this regard. This can 
be accomplished during development of the Integrated Ocean Observing 
System (IOOS) for U.S. coastal waters, and through a targeted research 
program on HAB prevention, control, and mitigation (see below). These 
are needed if we are to achieve our vision of future HAB monitoring and 
management programs--an integrated system that includes arrays of 
moored instruments as sentinels along the U.S. coastline, detecting 
HABs as they develop and radioing the information to resource managers. 
Just as in weather forecasting, this information can be assimilated 
into numerical models to improve forecast accuracy

Prediction and forecasting of HABs
    A long-term goal of HAB monitoring programs is to develop the 
ability to forecast or predict bloom development and movement. 
Prediction of HAB outbreaks requires physical/biological numerical 
models which account for both the growth and behavior of the toxic 
algal species, as well as the movement and dynamics of the surrounding 
water. Numerical models of coastal circulation are advancing rapidly in 
the U.S., and a number of these are beginning to incorporate HAB 
dynamics as well. A model developed to simulate the dynamics of the 
organism responsible for paralytic shellfish poisoning (PSP) outbreaks 
in the Gulf of Maine is relatively far advanced in this regard 
(McGillicuddy et al., 2005), and is now being transitioned from 
academic use towards an operational mode. Earlier this year, my 
colleagues and I were able to successfully predict a major regional PSP 
outbreak in the Gulf of Maine on the basis of our cyst mapping and 
modeling activities (www.whoi.edu/page.do?pid=24039&tid=282&cid=41211). 
This is the first time a major HAB event has been predicted several 
months in advance, and is strong testimony to the benefits of the 
ECOHAB program's regional research emphasis. Our numerical model for 
Alexandrium bloom dynamics is now being used to provide weekly 
nowcasts/forecasts to managers and other stakeholders affected by PSP 
outbreaks in the region, and is slated to be used by NOAA's National 
Ocean Service (NOS) as the basis of an operational HAB forecasting 
system for the Gulf of Maine.
    In the Gulf of Mexico, satellite images of ocean color are now used 
to detect and track toxic red tides of Karenia brevis. Based on 
research results from the ECOHAB-Florida program, bloom forecast 
bulletins are now being provided to affected states in the Gulf of 
Mexico by the NOAA NOS Center for Coastal Monitoring and Assessment. 
The bulletins (see http://www.csc.noaa.gov/crs/habf/) are based on the 
integration of several data sources: satellite ocean color imagery; 
wind data from coastal meteorological stations; field observations of 
bloom location and intensity provided by the States of Florida and 
Texas; and weather forecasts from the National Weather Service. The 
combination of warning and rapid detection is a significant aid to the 
Gulf states in responding to these blooms.

Mitigation and control strategies
    Other practical strategies to mitigate the impacts of HAB events 
include: regulating the siting of aquaculture facilities to avoid areas 
where HAB species are present, modifying water circulation for those 
locations where restricted water exchange is a factor in bloom 
development, and restricting species introductions (e.g., through 
regulations on ballast water discharges or shellfish and finfish 
transfers for aquaculture). Each of these strategies requires 
fundamental research such as that being conducted in our national HAB 
program. Potential approaches to directly control or suppress HABs are 
under development as well--similar to methods used to control pests on 
land--e.g., biological, physical, or chemical treatments that directly 
target the bloom cells. One example is work conducted in my own 
laboratory, again through ECOHAB support, using ordinary clay to 
control HABs. When certain clays are dispersed on the water surface, 
the tiny clay particles aggregate with each other and with other 
particles, including HAB cells. The aggregates then settle to the ocean 
bottom, carrying the unwanted HAB cells from the surface waters where 
they would otherwise grow and cause harm. As with many other new 
technologies for HABs, initial results are quite promising and small-
scale field trials are underway, but continued support is needed to 
fully evaluate benefits, costs, and environmental impacts.
    Another intriguing bloom control strategy is being evaluated for 
the brown tide problem. It has been suggested that one reason the brown 
tides appeared about 15-20 years ago was that hard clams and other 
shellfish stocks have been depleted by overfishing in certain areas. 
Removal of these resources altered the manner in which those waters 
were ``grazed''--i.e., shellfish filter large quantities of water 
during feeding, and that removes many microscopic organisms from the 
water, including natural predators of the brown tide cells. If this 
hypothesis is valid, a logical bloom control strategy would be to re-
seed shellfish in the affected areas, and to restrict harvesting. Pilot 
projects are now underway to explore this control strategy in Long 
Island.
    In general, bloom control is an area where very little research 
effort has been directed in the U.S. (Anderson, 1997), and considerable 
research is needed before these means are used to control HABs in 
natural waters given the high sensitivity for possible damage to 
coastal ecosystem and water quality by the treatments. As discussed 
below, this could be accomplished as part of a separate national 
program on HAB prevention, control, and mitigation.

PROGRAMMATIC NEEDS

    The 1993 National Plan is outdated. Some of its recommendations 
have been fulfilled, while others remain partially or completely 
unaddressed. Concurrently, the nature and extent of the U.S. HAB 
problem changed with the emergence of several new poisoning syndromes, 
the expansion of known problems into new areas, and the identification 
of a variety of new HAB impacts and affected resources. Furthermore, 
while new scientific understanding taught us that HABs and the toxins 
they produce are complex in their mode of action and that the 
ecosystems in which they proliferate are equally complex, decision-
making and management systems did not change to reflect that 
complexity. Likewise, many new tools to detect HAB cells and their 
toxins have been developed, but are not fully tested or incorporated 
into existing research, management, and ocean observation programs. 
These and other considerations led to the decision to revise and update 
the National Plan. Several hundred scientists and managers, from a wide 
array of fields, contributed to the knowledge base on which this new 
national science and management strategy is based. Over a two-year 
period, an intensive collaborative effort was undertaken, including an 
open forum discussion among 200 participants at the U.S. National HAB 
Symposium, a detailed web-based questionnaire yielding more that 1,000 
targeted responses, a workshop of 50 U.S. HAB experts, an Advisory 
Committee to guide, and a Steering Committee to assemble and review the 
most current information available for use in developing the new plan.
    Our new national plan is called HARRNESS (Harmful Algal Research 
and Response: A National Environmental Science Strategy 2005-2015; 
Ramsdell et al., 2005). This is the framework that will guide U.S. HAB 
research and monitoring well into the future, and is one that I 
enthusiastically support.
    At the conceptual level, HARRNESS is a framework of initiatives and 
programs that identify and address current and evolving needs 
associated with HABs and their impacts. Four major areas of research 
focus have been defined in HARRNESS: Bloom Ecology and Dynamics, Toxins 
and Their Effects, Food Webs and Fisheries, and Public Health and 
Socioeconomic Impacts. Each shares a need for a set of management and 
research activities directed at various scales of the HAB problem. 
These include highly focused or targeted research studies, regional and 
inter-regional scale investigations, and policy-making and resource 
management activities towards mitigation and control. Progress will be 
facilitated through the development of activities and services 
(Infrastructure) required by multiple program foci.
    At the programmatic level, several of the existing national 
programs will continue to function, and new programs will need to be 
added. In the former category, ECOHAB will continue to address the 
fundamental processes underlying the impacts and population dynamics of 
HABs. This involves a recognition of the many factors at the organismal 
level that determine how HAB species respond to, and potentially alter 
their environment, the manner in which HAB species affect or are 
affected by food-web interactions, and how the distribution, abundance, 
and impact of HAB species are regulated by the environment. ECOHAB was 
established as a competitive, peer-reviewed research program supported 
by an interagency partnership involving NOAA, NSF, EPA, ONR, and NASA. 
Research results have been brought into practical applications through 
MERHAB, a program formulated to transfer technologies and foster 
innovative monitoring programs and rapid response by public agencies 
and health departments. MERHAB will also continue under the new 
HARRNESS framework.
    Two relatively new programs (the Centers for Oceans and Human 
Health (COHH) initiative of NIEHS and NSF and NOAA's OHHI) are being 
enthusiastically received by the scientific, management and public 
health communities, and thus are expected to continue under HARRNESS. 
They fill an important niche by creating linkages between members of 
the ocean sciences and biomedical communities to help both groups 
address the public health aspects of HABs. The COHH focus on HABs, 
infectious diseases, and marine natural products, whereas the NOAA OHHI 
Centers and extramural funding include these subjects in addition to 
chemical pollutants, coastal water quality and beach safety, seafood 
quality, sentinel species as indicators of both potential human health 
risks and human impact on marine systems. The partnership between 
NIEHS, NSF, and NOAA clearly needs to be sustained and expanded in 
order to provide support to a network of sufficient size to address the 
significant problems under the OHH umbrella. This is best accomplished 
through additional funds to these agencies, as well as through the 
involvement of other agencies with interests in oceans and human 
health, including, for example, EPA, NASA, FDA, and CDC.
    A number of the recommendations of HARRNESS are not adequately 
addressed by existing programs, however. As a result, the HAB community 
needs to work with Congressional staff and agency program managers to 
create new programs, as well as to modify existing ones, where 
appropriate. For example, a separate program on HABs and food web 
impacts could focus resources on this important topic area in a way 
that is not presently possible through ECOHAB. Chemistry and toxicology 
of HABs, the underlying basis to the adverse consequences of HABs, 
receives only piecemeal funding through support of other HAB efforts 
and requires focused attention and a targeted funding initiative. 
Likewise the practical aspects of HAB prevention, control and 
mitigation are also presently, but inadequately included in ECOHAB. 
This program is discussed in more detail below.
    With the exception of the Great Lakes, which fall under NOAA's 
jurisdiction, freshwater systems that are impacted by HABs have not 
been comprehensively addressed in ECOHAB, MERHAB, or the OHH HAB 
programs. This is because NOAA's mandate includes the great Lakes and 
estuaries up to the freshwater interface, but does not include the many 
rivers, ponds, lakes, and reservoirs that are subject to freshwater HAB 
problems. Freshwater HABs are an important focus within HARRNESS, and 
therefore targeted (and separate) legislation and funding initiatives 
on freshwater HABs are needed.
    The support provided to HAB research through ECOHAB, MERHAB, Sea 
Grant, and other national programs has had a tremendous impact on our 
understanding of HAB phenomena, and on the development of management 
tools and strategies. Funding for ECOHAB is modest, but it is 
administered in a scientifically rigorous manner that maximizes 
research progress. Several five-year ECOHAB regional research projects 
have ended, and new ones are beginning. HAB phenomena are complex 
oceanographic phenomena, and a decade or more of targeted research are 
needed for each of the major poisoning syndromes or regions. ECOHAB 
support for regional studies must be sustained and expanded, and this 
will require a commitment of resources well in excess of those 
currently available. Underlying this recommendation is the recognition 
that we need to form multiple skilled research teams with the equipment 
and facilities required to attack the complex scientific issues 
involved in HAB phenomena. Since HAB problems facing the U.S. are 
diverse with respect to the causative species, the affected resources, 
the toxins involved, and the oceanographic systems and habitats in 
which the blooms occur, we need multiple teams of skilled researchers 
and managers distributed throughout the country. This argues against 
funding that ebbs and floods with the sporadic pattern of HAB outbreaks 
or that focuses resources in one region while others go begging. I 
cannot emphasize too strongly the need for an equitable distribution of 
resources that is consistent with the scale and extent of the national 
problem, and that is sustained through time. This is the only way to 
keep research teams intact, forming the core of expertise and knowledge 
that leads to scientific progress. To achieve this balance, we need a 
scientifically based allocation of resources, not one based on 
political jurisdictions. This is possible if we work within the 
guidelines of HARRNESS and with the inter-agency effort that has been 
guiding its implementation.

A National Program on Prevention, Control, and Mitigation of HABs
    Congress mandated a program for HAB Prevention, Control and 
Management in the legislation reauthorizing the Harmful Algal Bloom and 
Hypoxia Research and Control Act of 1998 (HABHRCA). The strong 
Congressional support behind this program element is further seen in a 
section of HABHRCA that directs NOAA to ``identify innovative response 
measures for the prevention, control, and mitigation of harmful algal 
blooms and identify steps needed for their development and 
implementation.'' Further rationale for this program is that much of 
the focus of past HAB research has been on fundamental aspects of 
organism physiology, ecology, and toxicology, so less effort has been 
directed towards practical issues such as resource management 
strategies, or even direct bloom suppression or control (Anderson, 
1997). To meet this Congressional directive, a workshop was held, and a 
science agenda prepared for Harmful Algal Bloom Research, Development, 
Demonstration, and Technology Transfer (RDDTT). The Executive Summary 
of this report is appended here as Annex 1. Another common name for 
this program is MACHAB (Mitigation and Control of Harmful Algal 
Blooms).
    The proposed RDDTT program has three essential components. These 
are 1) an extramural funding program focused on development, 
demonstration, and technology transfer of methods for prevention, 
control, and mitigation (PCM) of HABs; 2) a comprehensive national HAB 
Event Response program: and 3) a Core Infrastructure program. These 
components are interdependent and critical for improving future HAB 
response
    The PCM component of the RDDTT Program focuses on moving promising 
technologies and strategies arising from HAB research from development 
through demonstration to technology transfer and field application by 
end-users. The Event Response component improves access to existing 
resources through better information sharing, communication, and 
coordination and provides essential new resources. Researching and 
implementing new PCM strategies and improving event response will not 
be possible without enhancing infrastructure, including 1) increasing 
availability of adequate analytical facilities, reference and research 
materials, toxin standards, culture collections, tissue banks, 
technical training, and access to data; 2) improving integration of HAB 
activities with existing monitoring and emerging observational 
programs; and 3) enhancing communication and regional and national 
coordination.
    The need and community readiness for the three RDDTT program 
elements varies with the status of existing research and the planning 
required for each activity. The RDDTT program can, therefore, be 
implemented in stages, with projected funding needs increasing as the 
components mature. Implementation requires both changes in authorizing 
legislation and increases in appropriations. Although RDDTT will be the 
program that the public will most readily perceive as 'progress' in the 
management of HABs, the program is part of an integrated approach to 
HAB risk management that includes other research and response programs. 
Thus, it is essential that the RDDTT program be established as a 
separate element within the national HAB program (HARRNESS), with the 
expectation that related HAB research and response programs will 
provide the new technologies and approaches as well as the ecological 
and oceanographic context to guide its practical and applied 
activities. Since many agencies are involved in HAB research and 
response, it will be necessary to specify that the RDDTT Program is an 
interagency program and to provide funding to agencies with major 
roles. In addition to NOAA and NSF, other agencies, such as FDA, CDC, 
NSF, NIEHS, and USGS also contribute substantially and should be named 
as partners in the national HAB program.

SUMMARY AND RECOMMENDATIONS

    The diverse nature of HAB phenomena and the hydrodynamic and 
geographic variability associated with different outbreaks throughout 
the U.S. pose a significant constraint to the development of a 
coordinated national HAB program. Nevertheless, the combination of 
planning, coordination, and a highly compelling topic with great 
societal importance has initiated close cooperation between officials, 
government scientists and academics in a sustained attack on the HAB 
problem. The rate and extent of progress from here will depend upon how 
well the different federal agencies continue to work together, and on 
how effectively the skills and expertise of government and academic 
scientists can be targeted on priority topics that have not been well 
represented in the national HAB program. The opportunity for 
cooperation is clear, since as stated in the ECOHAB science plan 
(Anderson, 1995), ``Nowhere else do the missions and goals of so many 
government agencies intersect and interact as in the coastal zone where 
HAB phenomena are prominent.'' The HAB community in the U.S. has 
matured scientifically and politically, and is fully capable of 
undertaking the new challenges inherent in an expanded national 
program, exemplified in HARRNESS. This will be successful only if a 
coordinated interagency effort can be implemented to focus research 
personnel, facilities, and financial resources to the common goals of a 
comprehensive national strategy.
    In summary:

        <bullet>  Marine HABs are a serious and growing problem in the 
        U.S., affecting every coastal state; freshwater HABS are an 
        equally significant problem in inland states. HABs impact 
        public health, fisheries, aquaculture, tourism, and coastal 
        aesthetics. HAB problems will not go away and will likely 
        increase in severity.

        <bullet>  HABs are just one of many problems in the coastal 
        zone that are affected by nutrient inputs and over-enrichment 
        from land. They represent a highly visible indicator of the 
        health of our coastal ocean. More subtle impacts to fisheries 
        and ecosystems are likely occurring that are far more difficult 
        to discern.

        <bullet>  A coordinated national HAB Program was created over 
        15 years ago and partially implemented. That National Plan is 
        now outdated, and as a result, a new plan called HARRNESS has 
        been formulated to guide the next decade or more of activities 
        in HAB research and management.

        <bullet>  At the programmatic level, several of the existing 
        national partnerships (e.g., ECOHAB, MERHAB, COHH, OHHI) should 
        be sustained and expanded within HARRNESS, and new programs 
        will need to be added. In the latter context, a separate 
        program on HABs and food web impacts could focus resources on 
        this important topic area in a way that is not presently 
        possible through ECOHAB. The chemistry and toxicology of HABs 
        requires focused attention and a targeted funding initiative. 
        Likewise the practical aspects of HAB prevention, control and 
        mitigation need to be implemented through a targeted program.

        <bullet>  State agencies are doing an excellent job protecting 
        public health and fisheries, but those monitoring programs are 
        facing growing challenges. Needs for the future include new 
        technologies for HAB monitoring and forecasting and 
        incorporation of these tools into regional Ocean Observing 
        Systems.

Recommendations:

        <bullet>  Sustain and enhance support for the national HAB 
        program HARRNESS.

        <bullet>  Sustain and enhance support for the ECOHAB, MERHAB 
        and OHH programs, and implement new programs, such as 
        Prevention, Control and Mitigation of HABs (RDDTT or MACHAB) 
        that include Event Response and Infrastructure elements.

        <bullet>  Encourage interagency partnerships, as the HAB 
        problem transcends the resources or mandate of any single 
        agency.

        <bullet>  Identify and authorize freshwater programs that would 
        fall under the purview of relevant agencies, such as EPA, in 
        addition to the marine and coastal programs authorized in NOAA. 
        Separate funding lines are needed since NOAA has a geographic 
        mandate that includes marine coastal waters and the upper 
        reaches of estuaries, and the Great Lakes. Many freshwater HAB 
        problems fall outside these boundaries, however, and therefore 
        will need to be supported through separate appropriations.

        <bullet>  Support methods and instrument development for land- 
        and mooring-based cell and toxin detection, and for bloom 
        forecasting through instrument development support for the 
        Integrated Ocean Observing System.

        <bullet>  Support appropriations that are commensurate with the 
        scale of the HAB problem. The national HAB program is well 
        established and productive, but it needs additional resources 
        if new topics, responsibilities and tasks are added through new 
        legislation. Research should be peer-reviewed and competitive, 
        and should take full advantage of the extensive capabilities of 
        the extramural research community.

    Mr. Chairman, that concludes my testimony. Thank you for the 
opportunity to offer information that is based on my own research and 
policy activities, as well as on the collective wisdom and creativity 
of numerous colleagues in the HAB field. I would be pleased to answer 
any questions that you or other Members may have.

Literature citations:

Anderson, D.M. 1997. Turning back the harmful red tide. Nature 388:513-
        514.

Anderson, D.M. (Ed.). 1995. ECOHAB: The ecology and oceanography of 
        harmful algal blooms--A research agenda. Woods Hole 
        Oceanographic Institution. 66 pp.

Anderson, D.M. 1989. Toxic algal blooms and red tides: a global 
        perspective. pp. 11-16, in: T. Okaichi, D.M. Anderson, and T. 
        Nemoto (eds.), Red Tides: Biology, Environmental Science and 
        Toxicology, Elsevier: New York, Amsterdam, London.

Anderson, D.M., S.B. Galloway, and J.D. Joseph. 1993. Marine Biotoxins 
        and Harmful Algae: A National Plan. Woods Hole Oceanographic 
        Institution Tech. Report, WHOI 93-02. Woods Hole, MA. 59 pp.

Anderson, D.M., P.M. Glibert, and J.M. Burkholder. 2002. Harmful algal 
        blooms and eutrophication: Nutrient sources, composition, and 
        consequences. Estuaries 25(4b): 704-726.

Anderson, D.M., C.A. Stock, B.A. Keafer, A. Bronzino Nelson, B. 
        Thompson, D.J. McGillicuddy, M. Keller, P.A. Matrai, and J. 
        Martin. 2005. Alexandrium fundyense cyst dynamics in the Gulf 
        of Maine. Deep-Sea Res. II 52(19-21): 2522-2542.

Boesch, D.F., D.M. Anderson, R.A. Horner, S.E. Shumway, P.A. Tester, 
        T.E. Whitledge. 1997. Harmful Algal Blooms in Coastal Waters: 
        Options for Prevention, Control and Mitigation. Science for 
        Solutions. NOAA Coastal Ocean Program, Decision Analysis Series 
        No. 10, Special Joint Report with the National Fish and 
        Wildlife Foundation.

Burkholder, J.M. and H.B. Glasgow, Jr. 1997. The ichthyotoxic 
        dinoflagellate Pfiesteria piscicida: Behavior, impacts and 
        environmental controls. Limnology and Oceanography 42:1052-
        1075.

Hallegraeff, G.M. 1993. A review of harmful algal blooms and their 
        apparent global increase. Phycologia 32:79-99.

Hallegraeff, G.M. and C.J. Bolch. 1992. Transport of diatom and 
        dinoflagellate resting spores via ship's ballast water: 
        implications for plankton biogeography and aquaculture. Journal 
        of Plankton Research 14:1067-1084.

Hoagland, P. and S. Scatasta. 2006. The economic effects of harmful 
        algal blooms. In E. Graneli and J. Turner, eds., Ecology of 
        Harmful Algae. Ecology Studies Series. Dordrecht, The 
        Netherlands: Springer-Verlag.

McGillicuddy, D.J., Jr., D.M. Anderson, D.R. Lynch, and D.W. Townsend. 
        2005. Mechanisms regulating large-scale seasonal fluctuations 
        in Alexandrium fundyense populations in the Gulf of Maine: 
        Results from a physical-biological model. Deep-Sea Res. II 
        52(19-21): 2698-2714.

Ramsdell, J.S., D.M. Anderson, and P.M. Glibert (Eds). 2005. HARRNESS. 
        Harmful Algal Research and Response: A National Environmental 
        Science Strategy 2005-2015. Ecological Society of America, 
        Washington, DC, 96 pp.

Smayda, T. 1990. Novel and nuisance phytoplankton blooms in the sea: 
        Evidence for a global epidemic. In: Graneli, E., B. Sundstrom, 
        L. Edler, and D.M. Anderson (eds.), Toxic Marine Phytoplankton, 
        Elsevier, New York. pp. 29-40.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                           EXECUTIVE SUMMARY

Background

    The marine and freshwaters of many countries are increasingly 
impacted by the growing environmental and socioeconomic problem of 
harmful algal blooms (HABs). HABs are proliferations of marine and 
freshwater algae that can produce toxins or accumulate in sufficient 
numbers to alter ecosystems in detrimental ways. These blooms are often 
referred to as ``red tides,'' but it is now recognized that such blooms 
may also be green, yellow, brown, or even without visible color, 
depending on the type of organisms present. HABs is a more appropriate 
descriptor.
    In U.S. waters HABs are found in expanding numbers of locations and 
are also increasing in duration and severity. Further, new HAB species 
or impacts have emerged to pose additional threats to human and 
ecosystem health in particular regions. The expansion in HABs has led 
to increased awareness of impacts such as poisonous seafood, toxin-
contaminated drinking water, and mortality of fish and other animals 
(including protected and endangered species), public health and 
economic impacts in coastal and lakeside communities, losses to 
aquaculture enterprises, and long-term aquatic ecosystem changes.
    The 1998 Harmful Algal Bloom and Hypoxia Research and Control Act 
(HABHRCA 1998) established research programs to address the U.S. HAB 
problem. When HABHRCA was reauthorized and expanded to include 
freshwater in 2004 (HABHRCA 2004), it required four interagency reports 
and plans to assess U.S. HAB problems and update priorities for federal 
research and response programs. The first, the National Assessment of 
Efforts to Predict and Respond to Harmful Algal Blooms in U.S. Water 
(Prediction and Response Report 2007), assesses the extent of the HAB 
problem in the U.S., details federal, State, and tribal prediction and 
response programs, emphasizing federal efforts, and highlights 
opportunities to improve HAB prediction and response efforts and 
associated infrastructure. A strategy to address these needs for both 
marine and freshwaters will be included in the follow up HABHRCA 2004 
report, the National Scientific Research, Development, Demonstration, 
and Technology Transfer Plan (RDDTT Plan) on Reducing Impacts from 
Harmful Algal Blooms, which will be derived in part from this Workshop 
Report. Besides addressing the needs identified in the Prediction and 
Response Report, the RDDTT Plan will also address issues raised in 
three recent reports developed by the HAB management and research 
community, Harmful Algal Research and Response, A National 
Environmental Science Strategy (HARRNESS, 2005), Harmful Algal Research 
and Response: A Human Dimensions Strategy (HARR-HD 2006), and the 
Proceedings of the Interagency, International Symposium on 
Cyanobacterial Harmful Algal Blooms: State of the Science and Research 
Needs (ISOCHAB 2007).

Process for Developing the RDDTT Program

    Input for the RDDTT Plan was solicited from both the marine and 
freshwater HAB research and management communities during a workshop in 
Woods Hole, MA June 22-25, 2007. This RDDTT Workshop Report summarizes 
the current status of the field, recommends a program to improve HAB 
prediction and response (Box 1), and suggests an implementation 
process. The RDDTT Plan, which will be written by the Joint Committee 
on Ocean Science and Technology Interagency Working Group on Harmful 
Algal Blooms, Hypoxia, and Human Health and submitted to Congress, will 
draw from these recommendations.
    The workshop attendees proposed approaches for an RDDTT Program 
with three essential components, based on the opportunities for 
advancement identified in the reports cited above. These are 1) an 
extramural funding program focused on development, demonstration, and 
technology transfer of methods for prevention, control, and mitigation 
(PCM) of HABs; 2) a comprehensive national HAB Event Response program: 
and 3) a Core Infrastructure program to support HAB research and 
response. All three components require social science research related 
to ``human dimensions'' and call for the meaningful engagement of at 
risk and affected communities. These components are interdependent and 
critical for improving future HAB response (Box 1).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Prevention, Control, and Mitigation (PCM) Development, Demonstration, 
                    and Technology Transfer

    The PCM component or sub-program of the RDDTT Program focuses on 
moving promising technologies and strategies, arising from HAB research 
from development through demonstration to technology transfer and field 
application by end-users. Programs that would feed technologies to the 
PCM component would include programs such as the Ecology of Harmful 
Algal Blooms (ECOHAB), Monitoring and Event Response (MERHAB), Sea 
Grant, and Oceans and Human Health (OHH), As shown in Box 2, the 
program work would flow in three distinct stages: 1) The Development 
phase (Phase 1) advances and evaluates unproven but promising PCM 
technologies and strategies. 2) The Demonstration phase (Phase 2) 
tests, validates and evaluates technologies in the field across a broad 
temporal and spatial scale. 3) The Technology Transfer phase (Phase 3) 
facilitates the transition of proven technologies and strategies to 
end-users. End-users, including local, State, and federal resource and 
public health managers, non-profit organizations, and a variety of 
businesses must be involved in all three phases. Projects can enter the 
extramural PCM program at any phase and would be selected through peer 
review competition. Socially responsible development and effective 
implementation are ensured by the inclusion of social science research 
in all phases.
    Many promising options are already available to feed into the PCM 
sub-program. Example focal areas within the prevention category include 
modifications of hydrodynamic conditions in areas subject to HABs, or 
methods to avoid introducing HABs cells and cysts as invasive species. 
Although nutrient reduction is also a very promising strategy for HAB 
prevention, many nutrient management programs already exist and are 
motivated by issues other than HABs. Methods of control or bloom 
suppression through the removal of HAB cells or toxins by biological, 
chemical, or mechanical means are ready for further investigation. For 
example, mechanical removal of cells and toxins by clay flocculation is 
one approach that has already been tested in pilot field studies, so it 
is ready for further Phase 2 evaluation. A number of biological control 
methods are ready for Phase 1 development studies in the field, with 
concomitant research needed in risk communication to foster public 
understanding and participation in decision-making about potentially 
controversial strategies. Many opportunities exist to improve 
mitigation activities that reduce the impacts of HABs. A few examples 
include new methods of monitoring and forecasting HAB cells and toxins, 
maintaining safe seafood, water, and beaches, preventing and treating 
human and animal disease syndromes, assessing the socioeconomic impacts 
of HABs and the effectiveness of PCM strategies, and advancing 
education and outreach.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    All PCM projects will be extramural, competitive, peer-reviewed and 
funded through an annual request for proposals that will ensure 
priorities for research and implementation are based both on societal 
needs and scientific promise of effectiveness. End-user input to 
proposals in all phases and external advisory committee guidance for 
Phase 2 and 3 projects will facilitate technical success and maximize 
socioeconomic benefits and opportunities. Involvement of researchers 
and user groups throughout the PCM development, demonstration, and 
implementation processes will ensure that projects with the most 
societal relevance are supported and brought into operational use.

Event Response

    In order to mitigate the impacts of HABs, there is an urgent need 
to further develop the capacity for anticipating events and responding 
rapidly. The range of stakeholders involved in event response depends 
upon the nature of the HAB, the geographic area affected and the 
implications for human, fish, and wildlife health. States, counties, 
tribes, and academic researchers are generally the first responders. 
The aquaculture industry in some instances has also acted as front-line 
responders. When HAB events occur on small, localized scales, the 
capacity and financial resources of individual states usually are 
sufficient to respond quickly and effectively. A good example is the 
Maine shellfish monitoring and closure program. Under normal 
conditions, the state is able to mitigate adverse public health 
outcomes through the imposition of carefully timed and positioned 
shellfish closures. Many other states also have successful programs in 
place to manage shellfish closures.
    As HABs are occurring at larger scales, greater frequency and scope 
of impact than in the past, or involve species that are new to State or 
regional waters, the capacity for responding rapidly is sometimes 
inadequate or nonexistent. In addition, freshwater HAB events are 
occurring in states that have never before needed a capacity for 
response. Toxic freshwater blooms can threaten public water supplies 
and lead to widespread recreational impacts.
    The insufficient capacity for adequate responses to new or large-
scale HAB events is in part a product of inexperience, lack of 
resources, and the unpredictable nature of such events. It is costly 
and time-consuming to develop a response capacity for events that are 
sporadic or rare, or for those that have increased in frequency and 
scale, and for which damages are uncertain. These characteristics argue 
strongly for a national and regional approaches to event response. In 
effect, such a program helps a region or the Nation insure itself 
against the public health effects, ecological impacts, and economic 
damages that could arise from unusual, unpredictable, and devastating 
HAB events.
    It is clear that HAB event response capacities need to be expanded 
at a national level. Existing program will not be able to address 
anticipated increases in HAB frequency and intensity.
    The proposed Event Response component of the RDDTT Program improves 
access to existing resources through better information sharing, 
communication, and coordination and provides essential new resources. A 
regionally based, federal HAB Event Response Program is proposed with 
National Marine and Freshwater Coordinators, possibly residing in NOAA 
and EPA, potentially linked to a network of Regional Coordinators. 
Coordinators would maintain web sites cataloging regionally available 
resources, assist in developing regional response plans, organize 
training and information-sharing workshops, and provide coordination 
during events, if requested by regional, State, or local authorities. 
The Regional Coordinators would also request resources from other 
regions and, if needed, request funding from a national Event Response 
Contingency Fund, modeled after the current, but inadequately funded 
NOAA Event Response Program (http://www.cop.noaa.gov/stressors/
extremeevents/hab/current/fact-ev<INF>-</INF>resp.html). A national 
Technical Assistance Fund would provide extramural funds for activities 
designed to improve response to future events; activities would be 
selected by competitive peer review.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


CORE Infrastructure

    The past decade has resulted in tremendous advances in the 
community's understanding of HAB dynamics, from physiology and toxin 
expression to bloom transport and economic impact. The general increase 
in knowledge has been matched by rapid expansion in the capability for 
toxin and species detection using laboratory, hand-held, and in- and 
above-water technologies. Advancements in both basic knowledge and in 
methods and tools have led to significant new opportunities for 
furthering understanding and for protecting human health. However, as 
the field has matured, the infrastructure needs of the community have 
also increased. These core needs form the foundations upon which the 
science and its management applications depend. Many of the associated 
costs are far greater than can be borne by individual investigators or 
end-users. These needs cross-cut science and management and bridge 
individual agency interests. While in some cases they may intersect 
with the goals of other U.S. programs already in place, existing 
programs are inadequate to meet these requirements. The needs for 
critical infrastructure were identified in the first National HAB plan 
in 1993 and strongly reiterated in the revised national plan for 2005-
2015 (HARRNESS 2005). Critical infrastructural needs can now be 
identified and efforts made to obtain the financial and administrative 
support needed to make them a reality, with an ultimate goal of growing 
a greater community through collaboration.
    Researching and implementing new PCM strategies and improving event 
response will not be possible without enhancing CORE infrastructure, 
including 1) increasing availability of adequate analytical facilities, 
reference and research materials, toxin standards, culture collections, 
tissue banks, technical training, and access to data; 2) improving 
integration of HAB activities with existing monitoring and emerging 
observational programs; and 3) enhancing communication and regional and 
national coordination. Two complementary approaches are proposed to 
accomplish these goals: 1) Establish an interagency, competitive, peer 
reviewed extramural funding program that will support CORE 
infrastructure needs and 2) Develop a regional network with national 
and regional coordinators to leverage existing resources, encourage 
coordination and foster active communications with users and stake 
holders within and between regions.

RDDTT Program Implementation

    The proposed RDDTT Program (Box 1) is comprised of three 
components: 1) a component for HAB prevention, control, and mitigation 
(PCM), 2) an Event Response component, and 3) a Core Infrastructure 
component. The need and community readiness for each varies with the 
status of currently existing research and the planning required for 
each activity. The RDDTT program can, therefore, be implemented in 
stages corresponding to the reauthorizations of HABHRCA every five 
years, with projected funding needs increasing as the components mature 
(Box 4). The PCM component forms the core of the RDDTT Program because 
it is only through PCM that the grave risks posed by HAB expansion can 
be successfully confronted in the long-term. Thus, in the first stage 
(FY09-FY13), the greatest emphasis is on developing the PCM component 
because many promising technologies, developed through other HAB 
research programs, are ready to be transitioned to operational use. 
Since CORE infrastructure and Event Response are integral to developing 
HAB response, these programs should be initiated in the first five 
years, but not fully implemented until the next five year 
reauthorization (FY14-FY18).
    Implementation requires both changes in authorizing legislation and 
increases in appropriations. Although the RDDTT will be the program 
that the public will most readily perceive as `progress' in the 
management of HABs, the program is part of an integrated approach to 
HAB risk management that includes other research and response programs. 
Thus, it is essential that the RDDTT program be established as a 
separate element within the national HAB program (HARRNESS 2005), with 
the expectation that related HAB research and response programs will 
provide the innovative new technologies and approaches as well as the 
ecological and oceanographic context to guide its practical and applied 
activities. When HABHRCA is reauthorized, the RDDTT program should 
therefore be highlighted along with the existing ECOHAB and MERHAB 
programs, with the three components of the RDDTT Program specifically 
listed.
    Since many agencies are involved in HAB research and response, it 
will be necessary to specify that the RDDTT Program is an interagency 
program and to provide funding to agencies with major roles. In 
particular the HABHRCA reauthorization should identify and authorize 
freshwater programs that would fall under the purview of relevant 
agencies, such as EPA, in addition to the marine and coastal programs 
authorized in NOAA. Separate funding lines are needed since NOAA has a 
geographic mandate that includes marine coastal waters and the upper 
reaches of estuaries, and the Great Lakes. Many freshwater HAB problems 
fall outside these boundaries, however, and therefore will need to be 
supported through separate appropriations to the EPA. Other agencies, 
such as FDA, CDC, NSF, NIEHS, and USGS, also contribute substantially 
and should be named as partners in the national HAB program.
    Funding to implement the freshwater and marine components of the 
RDDTT program over the next five years (FY09-FY13) is roughly projected 
to be equivalent to that of the ECOHAB and MERHAB programs. Full 
implementation will thus require additional funding of $6.5M (FY08) to 
$10.5M (FY13).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Benefits of RDDTT Implementation

    Full implementation of all the components of an RDDTT Program will 
yield many benefits for the public health and management communities 
and for residents, resource users, businesses and other stakeholders in 
at-risk and affected communities. It will also address many of the 
frustrations people living in HAB impacted communities experience and 
provide them with new strategies to address the problems. These 
benefits include:

        <bullet>  Healthier fisheries industries selling seafood that 
        is safer with respect to biotoxins;

        <bullet>  Reductions in the frequency and impacts of highly 
        toxic or large, unsightly and noxious accumulations of algae;

        <bullet>  Ecosystems that are less threatened by invasions of 
        non-indigenous HAB species;

        <bullet>  Mitigation of bloom impacts using a suite of 
        practical, previous tested strategies;

        <bullet>  Sophisticated yet less expensive, easy to operate 
        instruments for HAB detection;

        <bullet>  Teams of scientists, managers, and community leaders 
        prepared to respond to events;

        <bullet>  Improved prediction and early warning of blooms and 
        HAB impacts due to better predictive models, networks of moored 
        automated observing systems, and satellite surveillance 
        capability for detection and tracking over large distances;

        <bullet>  Improved human health and ecosystem risk assessment;

        <bullet>  Effective means of educating and warning the public.

    The fully-implemented RDDTT Program will link science and 
management to achieve vastly improved mitigation, control, and 
prevention, and education. Full implementation will not be simple and 
will require substantial investment. The socioeconomic costs of not 
addressing these needs, however, greatly exceed the projected 
investment.

                    Biography for Donald M. Anderson
    Don Anderson is a Senior Scientist in the Biology Department of the 
Woods Hole Oceanographic Institution, where he also serves as Director 
of the Coastal Ocean Institute. He earned a doctorate from MIT in 1977 
and joined the WHOI scientific staff in 1978. In 1993, he was awarded 
the Stanley W. Watson Chair for Excellence in Oceanography, in 1999 was 
named a NOAA Environmental Hero, and in 2006 received the Yasumoto 
Lifetime Achievement Award from the International Society for the Study 
of Harmful Algae.
    Anderson's research focus is on toxic or harmful algal blooms 
(HABs). His research ranges from molecular and cellular studies of 
toxin genetics and regulation to the large-scale oceanography and 
ecology of the ``blooms'' of these micro-organisms.
    Along with an active field and laboratory research program, 
Anderson is heavily involved in national and international program 
development for research, monitoring, and training on marine biotoxins 
and harmful algal blooms.
    Anderson is author or co-author of over 230 scientific papers and 
12 books.

    Chairman Lampson. Thank you, Dr. Anderson.
    Mr. Ayres, you are recognized now for five minutes.

  STATEMENT OF MR. DAN L. AYRES, FISH AND WILDLIFE BIOLOGIST, 
COASTAL SHELLFISH LEAD, WASHINGTON STATE DEPARTMENT OF FISH AND 
                   WILDLIFE REGION SIX OFFICE

    Mr. Ayres. Mr. Chairman and Members of the Subcommittee, 
thank you for the opportunity to speak today.
    I represent coastal fisheries and human health managers not 
only from Washington State but also from around the Nation who 
face the task of providing citizens with access to some of the 
most productive fish and shellfish resources while protecting 
those citizens from the threats produced by harmful algal 
blooms. I have spent a significant portion of my career working 
for the Washington State Department of Fish and Wildlife 
managing a key shellfish fishery, the harvest of the Pacific 
razor clam. This abundant and very delicious shellfish species 
has long been a part of the lifeblood of the small communities 
that line Washington's Pacific coast. Over 250,000 avid razor 
claim harvesters are drawn to these small Washington towns 
during the periods when this fishery is open, bringing with 
them millions of dollars spent on lodging, food, gas and 
entertainment. One local restaurant owner left me a message on 
my office phone saying that a recent morning razor clam opener 
meant an additional $8,000 in sales, important income for him 
and his employees. Then just last week, as I sat in a small 
restaurant in the Pacific county town of Long Beach, I overhead 
a conversation between a waiter and some out-of-town customers. 
He told them the only way the restaurant can survive the winter 
is the few days each month the state opens the razor clam 
fishery.
    In addition to the economic impact, one cannot overlook the 
significant role the ability to dig for razor clams plays in 
the lives of so many Washington residents. The joy of joining 
with family and friends to brave the elements to harvest these 
shellfish and then return home to prepare a big meal of fresh 
razor clams cannot be overlooked. These kinds of activities 
have gone on for one for generations for coastal families and 
they are a big part of the social fabric of these communities.
    However, the opening of this fishery does not come cheaply 
to the State of Washington. Each monthly opener must be 
preceded by favorable results from work conducted both by my 
agency and the Washington Department of Health sampling for 
harmful algal species and the testing for levels of toxin in 
clam tissue.
    Razor clams are also important to tribal communities not 
only for subsistence but also for income generated by the sales 
of clams to commercial harvests conducted by the tribes. My 
agency works closely with the Quinault Indian Nation to jointly 
manage razor clams along a portion of the Washington coast and 
we share the monitoring for harmful algae.
    But amidst all the good news about successful harvests and 
positive economic impacts on small communities is the very real 
threat of closures as a result of significant increases in 
harmful algal species and the uptake of toxins by these tasty 
shellfish. These closures can be devastating events that have 
lasted up to a year or more. Closures heavily impact the 
citizens who count on these shellfish for a portion of their 
livelihood.
    Many other coastal managers from around this nation could 
tell you similar stories of how important our coastal resources 
are to the citizens of our nation and the devastating impacts 
HABs have had on the fabric of other U.S. coastal communities.
    Over the last several years, I have had the pleasure of 
getting to know many of these other coastal managers as we were 
brought together by NOAA to assist in the preparation of the 
National Plan for Harmful Algal Toxins and Harmful Algal 
Blooms, as Dr. Anderson referred to, the HARRNESS plan. This 
document was made much stronger by bringing together federal 
and academic scientists and the State-level managers. The 
process was a unique opportunity for each of these groups to 
teach the other about their work, their struggles and the goals 
they share. This process and the resulting plan have spawned 
other important endeavors including the Harmful Algal Research 
and Response, a Human Dimension Strategy, which brought key 
social scientists with HAB researchers and coastal managers to 
define and dress the impacts HABs have on what I described 
earlier, the social fabric of the affected communities. A more 
recent NOAA-sponsored workshop brought together a larger group 
of HAB researchers and coastal managers from around the Nation 
to provide input into the National Scientific Research, 
Development, Demonstration and Technology Transfer Plan on 
Reducing Impacts from Harmful Algal Blooms, the RDDTT plan that 
Dr. Magnien referred to.
    In Washington State, we have also followed this model by 
bringing together Northwest-based federal HAB researchers, 
University of Washington oceanographers and algal experts, 
State and tribal fishery managers and human health experts to 
form a successful partnership, the Olympic Region Harmful Algal 
Bloom Project. Begun in 2000 with funds from NOAA's Monitoring 
and Event Response for HABs program, it is now solely funded by 
State dollars generated through a surcharge on shellfish 
licenses. Working together, we are doing what we can to monitor 
our shellfish and our waters to ensure the safe continuation of 
the state's important fisheries.
    Using the example of Washington's razor clam fishery, I 
hope I have provided you with a better understanding of what 
our nation's ocean resources mean to the citizens of our small 
coastal communities. I hope you also see the impact HAB events 
have had on these communities and how important the continued 
involvement of the Federal Government in bringing the experts 
and the needed resources to the better understanding and 
perhaps in the future control of these events is to our State 
and local governments.
    And finally, I hope you see the value in using federal 
resources to continue to bring all the players, State, tribal, 
academic and federal, to the table to jointly address the 
issues presented by the presence of harmful algae.
    Thank you again for the opportunity to be here today.
    [The prepared statement of Mr. Ayres follows:]
                   Prepared Statement of Dan L. Ayres
    I am pleased to submit this prepared testimony to Members of the 
Subcommittee on Energy and Environment of the United States House of 
Representatives. This testimony will provide Members of the 
Subcommittee detail on the impacts that the continued presence of 
harmful algal blooms have had on Washington State's ability to manage 
important fisheries.
    As a Washington State coastal shellfishery manager, I am part of a 
large group of fishery and human health managers from around the Nation 
who daily face the task of providing the citizens we serve with access 
to some of the most productive fish and shellfish resources and most 
beautiful, inviting beaches this nation has to offer, while still 
protecting those citizens from the threats posed by re-occurring 
harmful algal blooms.
    Along the coast of Washington State our primary problems are 
associated with the naturally occurring algal species--the diatom 
Pseudonitzschia, which can produce dangerous levels of the neurotoxin 
domoic acid.\1\ In the inland marine waters of Puget Sound, wide area 
closures are associated with another naturally occurring algal 
species--the dinoflagellate Alexandrium, which produces the neurotoxin 
saxitoxin.\2\ The presence of these same species--along with a long 
list of others--has resulted in major problems for resource users in 
most of our coastal states.
---------------------------------------------------------------------------
    \1\ Eating of fish and shellfish containing domoic acid causes the 
human illness known as amnesic shellfish poisoning (ASP). Symptoms 
include vomiting, nausea, diarrhea and abdominal cramps within 24 hours 
of ingestion. In more severe cases, neurological symptoms develop 
within 48 hours and include headache, dizziness, confusion, 
disorientation, loss of short-term memory, motor weakness, seizures, 
profuse respiratory secretions, cardiac arrhythmia, coma. People 
poisoned with very high doses of the toxin can die. There is no 
antidote for domoic acid. Research has shown that razor clams 
accumulate domoic acid in edible tissue (foot, siphon and mantle) and 
are slow to depurate (purify) the toxin.
    \2\ Eating of fish and shellfish containing saxitoxin causes human 
illness known a paralytic shellfish poisoning (PSP). Symptoms include 
tingling of the lips followed by paralyzing of the diaphragm and 
possible death.
---------------------------------------------------------------------------
    Having grown up on the Washington coast, I am blessed to have spent 
a significant portion of my career working for the Washington State 
Department of Fish and Wildlife, (WDFW), managing a key shellfish 
fishery that occurs along the Washington coast--the harvest of the 
Pacific razor clam.\3\ This abundant and very delicious shellfish 
species has long been part of the lifeblood of the small communities 
that line Washington's coast. Each year more than 250,000 avid razor 
clam harvesters are drawn to the small Washington towns like Long 
Beach, Ocean Park, Grayland, Westport, Ocean Shores, Moclips and Forks 
during the periods when this fishery is open between October and May, 
bringing with them millions of dollars spent on lodging, food, gas and 
entertainment.
---------------------------------------------------------------------------
    \3\ Washington State has actively managed razor clam populations 
along 58 miles of its Pacific Ocean coastline for more than 70 years. 
http://wdfw.wa.gov/fish/shelfish/razorclm/razorclm.htm
---------------------------------------------------------------------------
    One local restaurant owner left a message on my office phone--a 
message I have saved to remind me of the importance our work has. In 
the message he tells me that a recent morning razor clam opener meant 
an additional $8,000 in sales--important income for him and his 
employees. Then just last week--as I sat in a small restaurant in the 
Pacific County town of Long Beach I overheard a conversation between 
the waiter and some out-of-town customers. He told them the only way 
the restaurant can survive the winter is the few days each month the 
state opens the razor clam fishery.
    We are excited to see the results of a soon-to-be-completed NOAA-
funded economic study by researchers at the University of Washington. 
This study was designed to update decades-old economic information 
regarding how much money was spent by each razor clam digger during a 
trip. It will give WDFW new and clearer insight to the true impact this 
shellfish fishery has on local economies.
    In addition to the economic impact, one cannot overlook the 
significant role the ability to participate in this fishery plays in 
the lives of so many Washington residents. The joy of joining with 
family and friends to brave the elements to harvest these shellfish and 
then return home to prepare a big meal of fresh razor clams cannot be 
overlooked. These kinds of activities have gone on for generations of 
coastal families and are a big part of the social fabric of these 
communities.
    However, the opening of this fishery does not come cheaply to the 
State of Washington. Each monthly opener\4\ must be preceded by 
favorable results from regular sampling WDFW conducts to monitor for 
the presence of harmful algal species. Then, the Washington State 
Department of Health checks the levels of toxin in razor clam tissue. 
The tissue testing, which can take some time, must have good results 
before the go-ahead for a razor clam opener can be given.
---------------------------------------------------------------------------
    \4\ WDFW opens razor clam fisheries for a few days each month 
between October and May depending on the number of clams available for 
harvest and safe levels of marine toxins in razor clam tissue.
---------------------------------------------------------------------------
    Razor clams are also depended on heavily by tribal communities not 
only for subsistence but also for the income generated by the sales of 
razor clams through commercial razor clam harvests conducted by the 
tribes. My agency works closely with the Quinault Indian Nation to 
jointly manage razor clams along a portion of the Washington coast and 
we share the work we need to do to monitor for harmful algae. 
Researchers funded by the National Institute of Health are conducting 
an on-going study of subsistence users of shellfish that have low 
levels of some of these marine toxins. The results of this study could 
potentially require major changes in the way some fisheries are 
managed.
    Amidst all the good news about successful harvests and positive 
economic impacts on small communities is the very real threat of 
closures as the result of significant increases in harmful algal 
species and the uptake of toxins by these tasty shellfish. These 
closures do not last just a few days they are devastating events that 
have lasted a year or more.\5\ These closures heavily impact the 
citizens who count on these shellfish for a portion of their 
livelihood.
---------------------------------------------------------------------------
    \5\ HAB events first disrupted the harvest of Washington's razor 
clams in 1992 and have caused three major coast-wide year-long closures 
since then, with additional numerous smaller area closures.
---------------------------------------------------------------------------
    Many other coastal managers from around this nation could tell you 
similar stories of how important our coastal resources are to the 
citizens of our nation and the devastating impacts HABs have had on the 
fabric of other coastal communities.
    Over the last several years I have had the pleasure of getting to 
know many of these other coastal managers as we were brought together 
by NOAA to assist in the preparation of the National Plan for Algal 
Toxins and Harmful Algal Blooms--also know as HARRNESS--Harmful Algae 
Research and Response National Environmental and Science Strategy.\6\ 
This document was made much stronger by bringing together federal and 
academic scientists and the State level managers. The process was a 
unique opportunity for each of these groups to ``teach'' the other 
about their work, their struggles and the goals that they all share. 
This process and the resulting plan have spawned other important and 
similar endeavors. One of these, the Harmful Algal Research and 
Response; A Humans Dimensions Strategy\7\ brought key social scientists 
together with HAB researchers and coastal managers to define and 
address the impacts HABs have on what I described earlier--the social 
fabric of affected coastal communities. A more recent NOAA-sponsored 
workshop I participated in brought together a larger group of HAB 
researchers and coastal managers to provide input into the National 
Scientific Research, Development, Demonstration, and Technology 
Transfer Plan on Reducing Impacts from Harmful Algal Blooms, (RDDTT 
Plan).
---------------------------------------------------------------------------
    \6\ http://www.whoi.edu/redtide/page.do?pid=15075
    \7\ http://www.whoi.edu/fileserver.do?id=24153&pt=10&p=19132
---------------------------------------------------------------------------
    In Washington State we have also followed this model by bringing 
Seattle-based NOAA HAB researchers, University of Washington 
oceanographers and algae experts, State and tribal fishery managers and 
human health experts to form a successful partnership we call the 
ORHAB--the Olympic Region Harmful Algal Bloom project. This endeavor 
that started in 2000 with funds from NOAA Monitoring and Event Response 
for Harmful Algal Bloom program is now solely funded by State dollars 
generated by a surcharge on shellfish licenses. Working together we are 
doing what we can to monitor our shellfish and our waters to ensure the 
safe continuation of the important fisheries I have described earlier. 
In Washington State another large, nearly completed NOAA-funded study 
has also provided a better understanding of the oceanic processes that 
result in large algal blooms forming off of our coast and bringing them 
on-shore to affect the resources we manage. This multi-disciplinary 
group of scientists from around the Nation was brought together as part 
of the Pacific Northwest ECOHAB Project. While State fishery and human 
health managers were not directly involved in the project, we were 
invited into planning sessions to provide insight on what information 
would be most useful to our work.\8\
---------------------------------------------------------------------------
    \8\ Several federal agencies currently collaborate to sponsor the 
Ecology and Oceanography of Harmful Algal Blooms (ECOHAB), a national 
research program studying HABs in the coastal waters of the U.S. The 
five-year ECOHAB Northwest project totals $8.7 million and is 
specifically sponsored by the National Oceanic and Atmospheric 
Administration and the National Science Foundation. http://
www.ecohabpnw.org/
---------------------------------------------------------------------------
    It is our hope you have a better understanding of what our nation's 
ocean resources mean to the citizens of our small coastal communities. 
We hope you see the impact HAB events have on these communities and how 
important the continued involvement of the Federal Government is in 
bringing the experts and the needed resources to better understanding 
and hopefully control of these events. And finally, we hope you see the 
value in using federal resources to continue to bring all the players--
State, tribal, academic and federal--to the table to jointly address 
the issues presented by the presence of harmful algae.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                       Biography for Dan L. Ayres
    Dan Ayres is a Fish and Wildlife Biologist who leads the Washington 
Department of Fish and Wildlife's (WDFW) coastal shellfish unit based 
in Montesano and Willapa Bay. He manages Washington's razor clam 
fishery and oversees the unit's work managing the coastal Dungeness 
crab, pink shrimp and spot prawn fisheries, the Willapa Bay oyster 
reserves and research projects in Willapa Bay.
    Dan is a life-long resident of the coastal Washington area and 
began his career with WDFW in 1980. A University of Washington 
graduate, he belongs to the National Shellfisheries Association and the 
American Institute of Fishery Research Biologists.

    Chairman Lampson. Thank you very much, Mr. Ayres.
    Dr. Hudnell, you are recognized for five minutes.

  STATEMENT OF DR. HILTON KENNETH HUDNELL, VICE PRESIDENT AND 
              DIRECTOR OF SCIENCE, SOLARBEE, INC.

    Dr. Hudnell. Good morning, and thank you for inviting me to 
testify about freshwater HABs.
    I am Dr. Hilton Kenneth Hudnell and I served as a 
neurotoxicologist at the U.S. EPA for 23 years, where I led an 
interagency effort to address the freshwater HAB problem. I am 
now an adjunct professor at the University of North Carolina 
and Vice President and Director of science for SolarBee 
Incorporated.
    Today I will tell you about HAB cells and their toxins, the 
risks they pose for human health and ecosystem sustainability, 
the increase in occurrence and causes of freshwater HABs, 
approaches to preventing freshwater HABs and the need for 
improved legislation to address HABs in all of our nation's 
waters.
    Freshwater HABs are primarily caused by cyanobacteria. 
Blooms are the rapid expansion of cells to huge biomasses often 
seen as surface scums or mats. Cyanobacteria have been around 
for three billion years. They developed the photosynthetic 
process and pumped oxygen into our atmosphere. About 50 types 
make highly potent toxins, much more potent than industrial 
chemicals and about equally potent to cobra venom. Many make 
multiple toxins and many make the same toxins. The toxins 
affect the liver, nervous system and other organs. The toxins 
threaten human health and the sustainability of our aquatic 
ecosystems. Unfortunately, we are making the earth a better 
place for them to live. The frequency of freshwater HABs is 
increasing rapidly.
    There are no U.S. regulations or guidelines for freshwater 
HABs. The EPA has not assessed the risk or developed a national 
research plan for freshwater HABs. The World Health 
Organization and some countries have developed regulations and 
guidelines. States and local governments are left without 
federal guidance.
    Humans are exposed to HAB toxins in drinking and 
recreational waters. There is no affordable method for removing 
all HAB toxins from drinking water. HAB toxins are causing 
acute, chronic and delayed health effects. Acute effects range 
from rapid death to severe gastrointestinal and flu-like 
illness. Some people remain chronically ill. Science indicates 
that repeated exposures cause cancers and probably 
neurodegenerative diseases like Alzheimer's. All levels of 
aquatic life suffer lethal and sublethal effects from HAB 
toxins. When HABs die off, they sink to the bottom and use up 
all the oxygen. Millions of fish die annually due to lack of 
oxygen.
    Scientists and water managers know the incidence of 
freshwater HABs is increasing rapidly in the United States and 
worldwide. Each year HABs occur where they have not occurred 
before and for longer duration. HABs require nutrients, 
sunlight, warmth and calm water. HABs are increasing because 
too many nutrients are going into our freshwaters, increasing 
temperatures and decreasing flow rates. The nutrients come from 
point sources like wastewater treatment plants and non-point 
sources like fertilizer runoff from our yards and farms. Water 
flow rates are dropping as demand increase and droughts are 
more frequent. Climate change is exacerbating the problem. 
Costs in the United States are estimated to be many millions of 
dollars per year.
    We can only target the HAB causes of nutrient input and 
calm water. Nutrient usage should be reduced and nutrients 
should be recaptured and reused. Water flow rates cannot easily 
be increased. However, water can be circulated. I joined 
SolarBee because I believe they make the best technology for 
moving water cheaply. Floating platforms powered by solar cells 
circulate water over long distances continuously. HABs are 
prevented over a 35-acre area per unit with a success rate of 
95 percent. Algaecide usage to terminate HABs is dangerous for 
humans and cause long-term damage to aquatic ecosystems.
    HABHRCA led to a national research plan for HABs in oceans, 
estuaries and the Great Lakes. Funds authorized through 
Commerce to NOAA support competitive HAB research grants. EPA 
funding was not authorized but EPA was statutorily required to 
help produce a scientific assessment of freshwater HABs and a 
plan for a national research program to mitigate and control 
freshwater HABs. I helped prepare those documents. However, the 
EPA then unilaterally determined that its statutory 
requirements were completed. There is no agency effort to 
develop or implement a national research program for freshwater 
HABs. The agency ceased virtually all participation in 
freshwater HAB research and mitigation. The EPA quit funding 
the interagency extramural HAB research grant programs and 
ceased all HAB research in its National Health and Environment 
Effects Research Laboratory.
    Congress should pass freshwater HABHRCA legislation that 
authorizes funding for and requires the EPA to develop and 
implement a national research program for freshwater HABs. The 
agency should be directed to form partnerships through a strong 
extramural peer-viewed competitive research grant program open 
to all private and public for-profit and non-profit 
organizations. Funding should be directed to the existing 
interagency grants programs and the newly proposed RDDTT/MACHAB 
program for HAB control technologies. Legislation will provide 
clarity to the EPA that freshwater HAB research is authorized 
and required. Congress should then appropriate funds for 
freshwater HAB research. I would urge the House Science and 
Technology Committee, which has primary jurisdiction over EPA 
research, to develop and advance a national freshwater HAB 
research bill. I am pleased to offer my expertise to help 
develop such authority for the EPA.
    I thank the Subcommittee for allowing me to express my 
views today.
    [The prepared statement of Dr. Hudnell follows:]
              Prepared Statement of Hilton Kenneth Hudnell
    Good morning to all in attendance today. Chairman Lampson and 
Ranking Member Inglis, thank you for inviting me to testify before the 
House Energy and Environment Subcommittee today concerning harmful 
algal blooms (HABs) in our nation's freshwater bodies.
    I am Dr. Hilton Kenneth Hudnell. I served as a neurotoxicologist in 
the U.S. Environmental Protection Agency's (EPA) National Health and 
Environmental Effects Research Laboratory for 23 years. I focused on 
the human health effects of biotoxins, toxins produced by single cell 
organisms, for the last dozen years. I led an interagency effort to 
provide the scientific basis for developing a National Research Plan to 
address the risks of freshwater HABs--http://www.epa.gov/
cyano<INF>-</INF>habs<INF>-</INF>symposium/, as mandated by the Harmful 
Algal Bloom and Hypoxia Research and Control Act (HABHRCA, as 
reauthorized in 2004). That effort culminated this year in the 
publication of a book entitled Cyanobacterial Harmful Algal Blooms: 
State of the Science and Research Needs (1) http://www.springer.com/
biomed/neuroscience/book/978-0-387-75864-0, and the Congressionally 
mandated report, Scientific Assessment of Freshwater Harmful Algal 
Blooms (2). I am currently Vice President and Director of Science for 
SolarBee, Inc.--http://www.SolarBee.com/, a company that makes solar 
powered water circulators to solve water quality problems such as HABs, 
and an adjunct professor in the University of North Carolina at Chapel 
Hill's Institute for the Environment--http://www.ie.unc.edu/content/
about/people/listing.cfm. Recently I was elected to the National HAB 
Committee, headquartered at Woods Hole, Massachusetts.
    Whereas Drs. Anderson, Ayres and Magnien's testimony primarily 
concerns HABs in our oceans, estuaries and the Great Lakes, I will talk 
with you about HABs in our nation's inland lakes, ponds, reservoirs, 
streams and rivers. Just as salt levels differ between freshwater, 
estuaries and oceans, so do their ecosystems and the organisms that 
cause HABs in those water bodies. Some of the causes of HABs in those 
environments are the same, such as over enrichment with nutrients. But 
it is important to understand the differences if we are to successfully 
develop strategies for controlling the increasing risks of freshwater 
HABs to human health, the sustainability of aquatic ecosystems and our 
nation's economy. Today I will discuss:

        <bullet>  Freshwater HAB cells and their toxins

        <bullet>  Freshwater HAB risks for human health and ecosystem 
        sustainability

        <bullet>  Occurrence, causes and costs of freshwater HABs

        <bullet>  Approaches to freshwater HAB control

        <bullet>  The need for improved legislation to comprehensively 
        address HABs from freshwater (EPA jurisdiction) to oceans 
        (National Oceanic and Atmospheric Administration (NOAH) 
        jurisdiction)

Freshwater HAB cells and their toxins

    Freshwater HABs are primarily caused by cyanobacteria, although 
similar organisms such as golden algae also cause some of the 
freshwater blooms. Cyanobacteria (a.k.a. blue-green algae) are single-
cell organisms that appear in the fossil record from about three 
billion years ago. This was a time when there was no oxygen in our 
atmosphere. They were the first organisms to use the photosynthetic 
process. They filled our atmosphere with oxygen, enabling the existence 
of life forms such as our own. Cyanobacteria have proven to be highly 
resilient organisms, surviving and even thriving over the eons as 
dramatic shifts occurred in the physical and chemical characteristics 
of our air, water and land. For example, some are able to ``fix'' 
nitrogen; they can take unusable forms of nitrogen from the air or 
water and change it to forms they can use for nourishment. Some are 
able to regulate their position in the water column through buoyancy 
control so they can make maximum use of sunlight or nutrients at 
optimal times. Now they are found in virtually all ecosystems, but are 
primarily a problem in our fresh-to-brackish waters. The first problem 
is that cyanobacteria ``bloom'' when conditions are right. They rapidly 
expand their population from a few cells per milliliter of water to 
dense mats of organic material floating on the water's surface or 
suspended in the water column. These huge masses of organic material 
create serious problems for humans and aquatic ecosystems, as explained 
below. The second and more serious problem is that cyanobacteria often 
produce cyanotoxins, some of the most potent toxins known. It's as if a 
single cobra could become a hoard of cobras overnight, injecting their 
toxic venom into the environment of all living things.
    Cyanobacteria genera are known by tongue-twisting names such as 
Microcystis, Aphanizomenon, Planktothrix, Anabaena, Cylindorspermopsis 
and Lyngbya. Not all types of cyanobacteria are thought to make toxins, 
although the ones I named can make multiple toxins. We don't know what 
triggers their production of toxin, or what causes toxin production to 
stop. We don't even know why they produce toxins; the toxins are not 
essential for the cells to live. However, it is generally thought that 
the toxins provide some survival advantage. For example, the toxins 
kill some organisms with which cyanobacteria compete for space to grow 
and multiply. The toxins also inhibit grazing by some organisms that 
otherwise would be their predators. Zooplankton that graze the good, 
``edible'' green algae, the base of the aquatic food chain, often avoid 
grazing the ``inedible'' blue-greens. Some filter feeders such as the 
zebra mussel seem to selectively ``spit out'' toxic cyanobacteria 
cells. The arrival of zebra mussels in the Great Lakes coincided with 
the resurgence of HABs in the Great Lakes in recent years, and some 
scientists postulate this to be a cause and effect relationship. We do 
know that many genera of cyanobacteria make not only one type of toxin, 
but multiple types of toxins. We also know that many genera make the 
same toxins. Other types of plankton also make some of the toxins made 
by cyanobacteria. An example is highly potent saxitoxin, the cause of 
Paralytic Shellfish Poisoning, made by both marine dinoflagellates and 
cyanobacteria. The genes responsible for toxin production are 
distributed widely within the planktonic world.
    The cyanotoxins are often named after the organism first discovered 
to produce the toxin, such as microcystins, cylindrospermopsins and 
anatoxins. These are thought to be the priority toxins in the U.S. 
because of their high potency and frequent occurrence. Not enough is 
known about saxitoxin occurrence in U.S. freshwaters to determine if it 
should be a priority cyanotoxin.
    Cyanotoxins are among the most potent toxins known, far more potent 
than industrial chemicals. They cause death at dosage levels in the low 
parts per billion range. For example, the toxins named above are more 
potent than strychnine, curare (the poison dart toxin) and sarin (a 
nerve gas). One of the anatoxins is equivalent in potency to cobra 
venom. Only a few toxins are more potent than cyanotoxins, such as 
botulinum toxin (botulism) and ricin (derived from the castor bean). As 
little as a mouthful of lake water containing cyanotoxins can have 
immediate lethal and sub-lethal health effects.
    The toxins are usually placed into one of three categories: 1) 
liver or hepatotoxins, such as the microcystins; 2) neurotoxins, such 
as the anatoxins and saxitoxins, and; 3) non-specific toxins, such as 
the cylindrospermopsins. The classification is based on the organ 
system in which failure is the cause of death at higher doses. However, 
it is a mistake to think that any of these toxins affect only one organ 
system. Lower dose exposures to many cyanotoxins result in multiple-
system symptoms, gastro-intestinal distress and flu-like illness.

Freshwater HAB risks assessment: human health and ecosystem 
                    sustainability

HAB risk assessment. Whereas NOAA led the development of a National 
Research Plan for addressing HABs in oceans, estuaries and the Great 
Lakes, described in HARRNESS, 2005, Harmful Algal Research and 
Response: A National Environmental Science Strategy (3), there is no 
National Research Plan for addressing HABs in our rivers, streams, 
ponds, reservoirs and other lakes. Although many risks of freshwater 
HABs and their toxins for human health and aquatic ecosystem 
sustainability are well known, there are no federal guidelines or 
regulations concerning HAB cells or toxins in U.S. drinking or 
recreational waters. The National EPA placed cyanobacteria, other algae 
and their toxins on their first Contaminant Candidate List (CCL) for 
drinking water toxins in 1998. Regulatory determinations concerning 
contaminants on the CCL, and revised lists, are to be made within each 
five-year period. However, no determinations have been made for 
cyanobacteria and cyanotoxins. They are currently on the draft CCL3 
list. The National offices of the EPA have made no regulatory 
determinations concerning HABs in recreational waters.
    The World Health Organization (WHO) and a number of countries have 
developed guidelines or regulations for a few genera of cyanobacteria 
and their toxins. For example, the WHO developed guidelines for 
Microcystis and microcystins. Numerous mortalities in Brazil led to the 
first regulations on microcystins in drinking water. In the U.S., 
states and localities confronted by HAB risks are increasingly relying 
on the WHO guidelines to develop strategies for protecting human 
health. States developing guidelines for cyanobacteria include 
California, Florida, Iowa, Nebraska and Oregon. This year the Regional 
EPA office in Sacramento ordered that California develop the first ever 
Total Maximum Daily Load (TMDL) for a cyanobacterium and cyanotoxins in 
the U.S. The TMDL order requires California to develop a plan to 
prevent dangerous levels of Microcystis and microcystins in portions of 
the Klamath River. The Klamath regularly experiences some of the 
highest levels of these cells and toxins seen anywhere in the world. 
Contentions have developed between some State and local agencies as 
localities hurry to develop regulations concerning fertilizer usage 
before State legislation preempts such actions. Federal leadership is 
badly needed to assist states and localities in meeting the challenges 
HABs pose for human health, ecosystem sustainability and economic 
vitality.

Human health effects. Exposures to cyanotoxins occur in recreational 
and finished drinking waters. High-level exposures generally occur 
through ingestion of recreational waters. Lower-level exposures occur 
through inhalation and dermal contact. Data from Florida indicate that 
toxin levels in finished drinking water often are higher than in source 
waters. HAB cells are lysed or split open when filtered during water 
processing. The lysed cells release their toxin load into the water. 
Normal drinking water processing often does not remove the toxins. 
There is no known and affordable method to remove all cyanotoxins from 
drinking water. Few, if any, water utilities systematically monitor for 
HAB toxins. However, high-level exposures through drinking water are 
probably rare. Cyanobacteria often make non-toxic compounds that cause 
noxious tastes and odors. Water utilities become aware of the taste and 
odor problems. They either implement supplemental treatment processes 
at high cost, or discontinue drawing water from the contaminated source 
until the tastes and odors dissipate. The additional processing to 
remove taste and odor compounds may reduce toxin levels sufficiently to 
prevent the most serious, acute health effects. However, humans are 
repeatedly exposed to lower levels of cyanotoxins in tap water. There 
is potential for higher-level exposures because many HABs go 
undetected; many do not produce taste and odor compounds or form 
surface scums. The potential for cyanotoxin exposure through drinking 
water is high because two-thirds of the U.S. population's tap water now 
comes from surface-water sources. Cyanotoxins in potable and 
recreational waters have caused acute human-health effects in the U.S. 
and many other countries.
    HAB toxins pose serious risks for human health, as well as the 
health of domestic and wild animals. The health effects are generally 
placed in one of three categories.

Acute health effects. Swallowing a mouth full of contaminated water 
could cause serious injury or death due to respiratory arrest or organ 
failure. Lower level exposures cause a multi-system, flu-like illness. 
Every year there are multiple reports of animal deaths in the U.S. due 
to cyanotoxin exposure. Some states have HAB surveillance systems based 
on telephone hotlines for reporting animal deaths after water body 
contact. Occasionally there are reports of human deaths. For example, 
boys from a high school soccer team swam in a golf course pond after 
practice in Wisconsin during the summer of 2002. Two of the boys were 
horsing around, dunking each other under the water. They soon developed 
gastro-intestinal distress and then seizures. One boy died from 
respiratory arrest. Luckily, the other boy survived. Anabaena were 
found in stool samples taken from both boys. The coroner attributed the 
cause of death to anatoxins. The boys swallowed the ``cobra venom.''
    Our book (1), mentioned earlier, has a chapter describing the 
Nebraska experience with HABs. State officials first noticed HABs in 
their surface waters during the summer of 2004. They determined that 
the HABs were predominated by Microcystis species. The state 
implemented a monitoring program for microcystins in surface waters, 
and developed action levels based on WHO guidelines for increased 
monitoring and closure. Over 700 samples were taken from 111 different 
surface water bodies during 2004. Sixty-nine health advisories 
(increased monitoring) and 26 health alerts (lake closures) were issued 
in 2004. Some closures lasted for more than three months. The great 
benefit to public health provided by the Nebraska HAB action plan 
became evident when a mistake was made in 2004. Toxin levels exceeding 
the health alert level for lake closure were observed in the popular 
recreational lake, Pawnee Lake, on a Friday. Officials were instructed 
to post signs at lake beaches notifying the public that the lake was 
closed due to cyanotoxins. However, only one beach was posted. The 
public used other beaches and the rest of the lake that weekend. The 
state received over 50 reports the following week of severe gastro-
intestinal and flu-like illness in people that recreated on Pawnee Lake 
the previous weekend. The actual number of poisonings may have been 
much higher. It is believed that most physicians do not recognize 
illnesses as being caused by cyanotoxins.

Chronic health effects. Most non-lethal cases of acute cyanotoxin 
poisoning recover within days or weeks. However, an unknown percentage 
of susceptible individuals continue to suffer neurological and other 
symptoms for many months or years. Although few studies have 
investigated chronic illness caused by algal toxins, the phenomenon is 
best described in the literature on chronic Ciguatera-seafood 
poisoning. It is estimated that a 1,000,000 people worldwide may 
contract Ciguatera-seafood poisoning yearly due to the consumption of 
reef fish contaminated with ciguatoxins. The U.S. Centers for Disease 
Control and Prevention (CDC) estimates that only two to ten percent of 
Ciguatera-seafood poisoning cases in the U.S. are recognized or 
reported. Approximately 20 percent of acute illness cases are thought 
to develop a chronic condition characterized by extreme fatigue, 
weakness, muscle pain, sensory abnormalities, and cognitive deficits. 
The scientific literature contains reports of chronic illness following 
acute exposure or repeated, low-level exposure to cyanotoxins, although 
scientific studies of the condition are lacking.
    Last month I reported a study of chronic illness in cyanotoxin-
exposed patients at a medical conference in Costa Rica. My research 
colleague, Ritchie Shoemaker, MD, who specializes in biotoxin-
associated illness, collected the data. The 17 patients had residential 
and/or recreational exposure to freshwater bodies that regularly 
experienced HABs predominated by Microcystis. The average duration of 
illness was about two years. Most patients previously consulted 
numerous physicians and received numerous diagnoses, none of which 
involved toxins. The patients displayed statistically significant and 
severe deficits in vision, multiple-system symptoms, and biochemical 
abnormalities, relative to control study participants. The biochemical 
abnormalities indicated exposure triggered an inflammatory process. 
Illness resolved and symptoms dissipated during cholestyramine therapy. 
Cholestyramine is a non-absorbable polymer that binds many toxins, 
cholesterol, and salts from bile in the intestines, causing them to be 
eliminated rather than re-absorbed during enterohepatic recirculation. 
These and other data indicate that there may be many unrecognized cases 
of chronic illness in the U.S. and world wide that are caused by algal 
and other biotoxins.

Delayed health effects. Little is known about the effects of repeated, 
low-level exposures, but cancer and neurodegeneration are outcomes 
implicated in the scientific literature. For example, laboratory 
studies indicate that microcystins are a cause and promoter of liver, 
colon and other cancers. Microcystin levels in drinking water were 
associated with liver cancer incidence in Chinese epidemiological 
studies. Other studies indicate that cylindrospermopsin and other 
cyanotoxins also may be carcinogenic.
    The results from decades of studying a neurodegenerative complex 
common among natives of Guam recently spurred research on Alzheimer's 
disease and the cyanotoxin, (b-Methyl Amino Alanine (BMAA). Scientists 
reported a high incidence of a neurologic condition with aspects of 
Parkinsonism, Alzheimer's disease and Amyotrophic Lateral Sclerosis 
among the Chamorro population of Guam in the 1940s. The leading 
causative agent is now thought to be BMAA. The cyanobacteria genus 
Nostoc grows on the roots of the cycad plant and produces BMAA. BMAA 
accumulates in the seeds of the cycad. A species of flying fox feeds on 
the seeds and accumulates high levels of BMAA in its tissues. The 
flying fox was a traditional food of the Chamorro. Autopsy studies 
showed BMAA in case, but not control, brains. As the flying fox 
population decreased to near-extinction levels, the incidence of the 
Guam dementia complex decreased dramatically. Recent research produced 
two important results. First, BMAA is produced by most or all genera of 
cyanobacteria, and is often present in surface waters. Second, BMAA was 
observed in Canadian Alzheimer brains, but not in control brains. 
Evidence to date for a causative relationship between BMAA and 
Alzheimer's is far from conclusive, but the potential ramifications are 
enormous. Current studies continue to investigate the Alzheimer's-BMAA 
relationship, while others investigate cancer and cyanotoxin linkages.

Ecosystem effects. HABs adversely impact many trophic levels of aquatic 
environments through a variety of mechanisms during bloom formation and 
collapse. As blooms form, the increased biomass of the cells reduces 
water transparency. Resulting light limitations inhibit the growth of 
plants, epiphyton, benthic algae and other phytoplankton. Water 
alkalinity increases as the expanding biomass consumes carbon dioxide, 
altering phytoplanktonic interactions and causing lethal and sub-lethal 
impacts on fish populations. Cyanotoxins augment and expand these 
effects as fish, zooplankton, macro-invertebrates, wading birds and 
aquatic vertebrates suffer further lethal and sub-lethal effects. For 
example, data from Florida show strong correlations between 
Cylindrospermopsis and cylindrospermopsin concentrations and alligator 
death rates. Another example is a new syndrome among wading birds such 
as coots. The new syndrome, termed avian vacuole myelopathy, was first 
discovered in the U.S. southeast during the mid-1990s. After feeding on 
plants such as hydrilla in lakes, birds were observed to swim and fly 
erratically before dying. Autopsies revealed vacuoles or holes in brain 
and spinal cord nervous tissues. The cause of death is believed to be 
an as yet unidentified toxin produced by a newly discovered 
cyanobacterium in the order of stigonematales that colonized aquatic 
plants. The lethality extended to predatory birds such as bald eagles 
as they easily captured and consumed the impaired wading birds.
    Bloom collapses often are associated with massive fish mortality. 
HABs can completely infest smaller lakes, reservoirs, ponds and long 
stretches of slow moving rivers. Cell densities can soar, creating 
think mats of organic material that completely block out light. 
Eventually, cold weather or other natural causes lead to a gradual 
collapse of the blooms. The cells are lysed, release all of their 
toxins into the water column, and sink to the bottom. Bacterial and 
other aerobic processes deplete oxygen in the water column as the cells 
are decomposed. At first bottom waters, and then upper levels of the 
water column, become hypoxic (no oxygen) or anoxic (low oxygen). Fish 
that are unable to escape to oxygenated waters die, often in massive 
quantities. The decomposition of cells and fish trigger a vicious 
cycle. The lack of oxygen at the sediment-water interface causes 
chemical bonds to be broken, releasing nutrients (e.g., phosphorus) and 
toxic, noxious gasses (e.g., hydrogen sulfide) from the sediment to the 
water column. Because phosphorus is often a limiting agent for bloom 
formation, the release of this and other nutrients sets the stage for 
new bloom formations. Repeated bloom cycles may irrevocably alter 
aquatic ecosystems, extinguishing biota that contribute to healthy 
ecosystems, while creating conditions for continued bloom dominance.

Occurrence, causes and costs of freshwater HABs

HAB occurrence. There is widespread agreement among scientists, water 
managers, local officials, and much of the general public that the 
occurrence of freshwater HABs is rapidly increasing in the U.S. and 
worldwide. Every year freshwater HABs occur where they previously have 
not been observed. HABs are lasting longer than before. Freshwater HABs 
occur in all parts of North America, and durations range from the 
summer months in more northern areas to year round in more southern 
areas. HABs may be readily visible due to the presence of surface 
scums, or difficult to detect because some types bloom only at mid-
level depths. Although there are no national databases on freshwater 
HAB occurrence, and only a few State or local databases, the evidence 
for increasing spatial and temporal occurrence of freshwater HABs is 
undeniable.

HAB causes. Freshwater HAB incidence and duration is increasing because 
of increasing nutrient input into our water bodies, and rising 
temperatures. Climate change is driving much of the increase. Average 
temperatures on land and in water are increasing, an advantage for HAB 
organisms over many types of beneficial algae. The frequency of storms, 
heavy rainfalls and flooding is increasing, causing more nutrients to 
be washed into our water bodies. Somewhat ironically, the frequency of 
droughts is increasing at the same time. Slow-moving or stagnant waters 
favor HABs over beneficial algae. Warm, quiescent, and nutrient 
enriched waters provide the ideal setting for freshwater HABs.
    There are four primary requirements for HAB occurrence--nutrients, 
warmth, sunlight and calm water. HAB cells thrive and multiply only 
when sufficient nutrients are available. Cyanobacteria and other algae 
require carbon, nitrogen, phosphorus and some trace elements to grow. 
Carbon is not a limiting factor; there is plenty of carbon in the air 
and water for algal growth. In fact, some strategies for promoting the 
expansion of beneficial algae have been discussed as a means of 
removing carbon dioxide, a greenhouse gas, from the air. Nitrogen is a 
limiting factor for only some types of HAB cells. When usable forms of 
nitrogen are low, types of cyanobacteria that can ``fix'' nitrogen into 
usable forms dominate HABs. Phosphorus is a limiting factor for all 
types of HAB cells. Phosphorus enrichment of our water bodies is 
driving much of the increase in HAB occurrence. The ratio of nitrogen 
to phosphorus concentrations often determines the types of cells that 
dominate HABs.
    Types of cyanobacteria previously seen only in tropical areas have 
become common in much of the U.S. in recent years. This pattern is 
expected to continue as average temperatures increase. Sunlight is 
required by cyanobacteria to produce energy through photosynthetic 
processes. Some of the recently invasive types of cyanobacteria such as 
Cylindrospermopsis, and others like Planktothrix, efficiently produce 
energy under low light conditions. These types of cyanobacteria often 
bloom deep in the water column, making them difficult to detect from 
the surface.
    Freshwater HABs occur almost exclusively in quiescent, stagnant 
waters. Water flow rates decrease as an expanding population, 
agriculture, and industry withdraw larger quantities for use. Aquifer 
depletion forces increased withdrawal of surface waters and damming to 
create new reservoirs. These factors and droughts are decreasing flow 
rates and increasing the incidence of freshwater HABs.

HAB costs. Although a formal analysis of the total costs of HABs to our 
economy has not been conducted, it is known that freshwater HABs 
account for many millions of dollars in lost recreational revenue, 
water treatment expenditures, monitoring and response activities, 
health care and aquaculture losses. The development of control and 
mitigation technologies and processes offers an opportunity for the 
U.S. to avoid these losses, and create a world-leading industry. World 
leadership in HAB control and mitigation is needed to sustain the 
Earth's aquatic ecosystems, protect human health and vitalize the U.S. 
economy.

Approaches to freshwater HAB control

    Of the four causative factors for freshwater HABs discussed above, 
only two can reasonably be targeted for HAB control--nutrients and calm 
water.

Nutrient input control. Nutrient inputs enter freshwater from both 
point and non-point sources. Point sources include outlets from 
wastewater treatment plants, urban stormwater collection systems, 
industries, aquacultures and concentrated animal-feeding operations. 
Strategies are needed to reduce the amount of nutrients entering these 
systems and exiting these systems. Representatives Stupak and Miller 
recently introduced a House bill that would require the EPA to order a 
reduction of phosphorus in detergents to help control HABs in the Great 
Lakes. Senator Levin introduced a similar bill.
    An ultimate goal should be to recapture and reuse the nutrients in 
these systems. For example, phosphorus is not only essential for HABs, 
but is essential for all living organisms and required for agricultural 
production. There are no synthetic alternatives for phosphorus in 
fertilizer. Scientists around the world warn that there is a looming 
shortage of phosphorus on the horizon. Phosphorus production is 
predicted to peak within 30 years, and reserve depletion is predicted 
within 50-100 years. Countries such as India already face phosphorus 
shortages. Ultimately, there will be no alternative to recapturing and 
reusing phosphorus.
    Non-point source inputs of nutrients to freshwater are much more 
difficult to control than point source inputs. Nutrients enter ditches, 
streams, rivers, reservoirs, ponds and lakes when rainwater washes them 
off of lawns, roads, highways, fields, pastures and forests. 
Development and expansion of watershed management plans and best 
management practices for agriculture, industry and residential property 
are needed to reduce nutrient usage and enable the recapture of 
nutrients.
    There is no question that reduction of nutrient inputs to 
freshwater benefits water quality in many ways. Additionally, systems 
developed to reduce nutrient inputs will likely reduce inputs of other 
pollutants such as pesticides, metals and pharmaceutical products. 
However, HAB control through nutrient-input reduction alone is a very 
long-term process. Many years of excessive nutrient input to freshwater 
bodies has resulted in high concentrations of nutrients in sediments. 
Nutrients in sediment are released to the water column under hypoxic 
and anoxic conditions, and whenever storms or other events stir up 
sediments. Nutrient resuspension often triggers new HABs. To my 
knowledge, there is no instance of sustained HAB elimination in a 
freshwater body of more that 100 acres in size through nutrient-input 
reduction alone.
    Other approaches to nutrient reduction have proven to be cost 
prohibitive, ineffective over the long-term, detrimental to the 
environment or a combination of these factors. For example, alum 
(aluminum sulfate) and other substances have been used to precipitate 
phosphorus from the water column to the sediment. However, this 
approach has the disadvantages of being effective at HAB prevention 
only in the short-term, detrimental to much of the biota in aquatic 
ecosystems, cost prohibitive over the long-term, and applicable only to 
smaller water bodies. Other approaches to nutrient reduction, such as 
hypolimnetic oxygenation, hypolimnetic withdrawal, dredging and 
biological manipulations, also have some combination of these 
drawbacks.

Calm water control. The calm water requirement for HABs can be targeted 
through hydrologic manipulations. Although excess water capacity is not 
usually available, increasing flow rates and decreasing water residence 
time eliminates HABs even in nutrient-rich freshwaters. However, the 
overall outcome of increased flow sometimes creates problems 
downstream. Nutrients in freshwater are transported to coastal 
environments where they stimulate HABs in estuarine and marine 
environments. Another approach is to destratify or artificially mix the 
entire water column. Diffused air system installed in ponds and smaller 
water bodies frequently provide good HAB control. Disadvantages include 
a small area of influence for each air diffuser, the continual need for 
electric-grid power, applicability limited to smaller water bodies due 
to cost and the vertical transport of nutrients sometimes stimulates 
HABs. The installation of artificial waterfalls or fountains in smaller 
water bodies often provides good HAB control with the only drawback 
being the continual need for grid power.
    I joined SolarBee, Inc., because I believe that they developed the 
best technological solution to freshwater HABs in water bodies of all 
sizes. Two engineers in North Dakota, Joel Bleth and Willard Tormaschy, 
developed solar powered long-distance circulation (LDC) technology as a 
cost-effective alternative to aeration in wastewater lagoons. They 
fortuitously found that LDC not only provided the benefits of aeration 
at a lower cost, but also prevented the occurrence of HABs in these 
nutrient rich waters. LDC application for HAB control in 250 U.S. 
freshwater bodies to date has a success rate of about 95 percent.
    LDC is created by floating platforms equipped with high-efficiency 
pumps powered by solar panels and a battery. The circulators operate 24 
hours a day, seven days a week, and are designed for a 25-year lifetime 
with little maintenance. The largest circulator transports 10,000 gal/
min of water from the bottom of the photic zone to the surface, 
creating LDC sufficient for HAB control over an area of about 35 acres. 
LDC deployment for HAB control is unlike other ``artificial 
circulation'' approaches to HAB control in that it does not destratify 
the water column or aerate the hypolimnion. The circulator's intake 
hose is set at the base of the photic zone for HAB control, usually 
just above the thermocline. A plate suspended below the bottom of the 
intake hose causes near laminar-flow intake of water radially from long 
distances. The water smoothly departs from the unit radially, both 
above and below a disk positioned just under the surface. Only the 
epilimnetic water is circulated, the upper portion of the water column 
in which HABs occur. The thermocline or density-change barrier between 
the epilimnion and lower, nutrient rich hypolimnion remains intact, 
thereby preventing those nutrients from entering the photic zone and 
further promoting HABs.
    Unfortunately, a chemical approach to HAB control is commonly used 
today. Algaecides such as copper sulfate are used to terminate blooms 
after they form. This reactive, as opposed to preventive, approach is 
dangerous for humans and has serious detrimental impacts in aquatic 
ecosystems. Copper sulfate lyses HAB cells, causing the release of all 
cyanotoxins to water instantaneously. These extreme levels of 
cyanotoxins in water threaten humans even if they are not directly in 
or on the water. Recent CDC and other evidence indicate that HAB toxins 
become airborne due to wind and wave action. Humans miles away from the 
affected water bodies inhale the toxins. The inhaled toxins cause 
respiratory distress in asthmatic and other susceptible populations, 
and may contribute to the chronic and delayed health effects discussed 
earlier. Copper sulfate itself is toxic to many plants and animals 
living in water. Furthermore, the copper binds with many pollutants 
such as pesticides, making them more bioavailable and damaging to 
aquatic organisms. Copper accumulates to high levels in sediment with 
continued use. As with bacteria resistant to antibiotics, there is 
growing evidence that some strains of cyanobacteria are becoming 
resistant to copper sulfate toxicity. Aquatic ecosystems will not 
survive repeated applications of algaecides over the long-term.

HAB control summary. I believe that the combination of nutrient-input 
reduction and long-distance circulation provides the best approach to 
near- and long-term HAB control. This dual approach is sustainable, has 
no adverse impacts on aquatic ecosystems, provides many environmental 
benefits in addition to HAB control, and is cost effective over the 
long-term.
    However, research is needed to develop more efficient and effective 
strategies for controlling HABs in all water bodies. Specific research 
needs are detailed in the book (1), the mandated Freshwater report (2), 
HARRNESS (3), and the draft Management and Response report (4). A 
research plan that comprehensively addresses HABs in all of our 
nation's water bodies, coordinates agency efforts and prevents 
duplication of effort can only be established through appropriate 
federal legislation.

The need for improved legislation to comprehensively address HABs from 
freshwater (EPA jurisdiction) to oceans (National Oceanic and 
Atmospheric Administration (NOAA) jurisdiction)

    Congress originally passed HABHRCA in 1998 to authorize funds for 
research on HABs and hypoxia. This authority through the Department of 
Commerce directed NOAA to conduct research and seek control of HABs and 
hypoxia in U.S. oceans, estuaries and the Great Lakes.
    The 2004 reauthorization of HABHRCA expanded the Act to include all 
freshwater bodies. The reauthorization incorporated a reporting 
requirement by an interagency task force on freshwater blooms. The book 
(1) I mentioned earlier provided the scientific basis for that report. 
The report, Scientific Assessment of Freshwater Harmful Algal Blooms, 
Interagency Working Group on Harmful Algal Blooms, Hypoxia, and Human 
Health (2), describes the environmental, health and economic 
consequences of freshwater HABs. HABHRCA also mandated that the task 
force develop and submit to Congress a plan providing for a 
comprehensive and coordinated National Research Program to develop and 
demonstrate prevention, control, and mitigation methods to reduce the 
impacts of harmful algae. That report, Harmful Algal Bloom Management 
and Response: Assessment and Plan, is in draft form (4). It recommends 
the creation of a new interagency competitive-grant program, the 
Mitigation, Control and Prevention of Harmful Algal Blooms program 
(MACHAB). Implementation of MACHAB is critical for our nation to 
develop cost-effective strategies for preventing HABs and mitigating 
their consequences. My belief in the need for a HAB control strategy is 
evidenced by my decision to leave the EPA and shift my research from 
human-health effects to HAB control technology. I believe it is much 
better to prevent HABs and biotoxin-associated illness than to have 
people in need of diagnosis and therapy due to HAB toxin exposures.
    I fully support the existing HABHRCA reauthorization bills, 
including the ``clean'' reauthorization bill offered by Congressman 
Connie Mack, and the legislation being developed by Senator Bill Nelson 
that addresses some of the shortcomings of the 2004 legislation. I also 
support the bills to lower phosphorus levels in detergents for the 
Great Lakes area. However, these bills do not address the fundamental 
obstacle preventing the development of a coordinated National Research 
Plan for HABs in all of our nation's waters. Current and proposed 
legislation does not authorize funding for the EPA or direct the Agency 
to ``take ownership'' of the freshwater HAB problem. The current 
legislation authorizes funding only for NOAA through the Department of 
Commerce. That Department does not fund the EPA. It is the EPA that has 
purview over water quality in inland water bodies through the Clean 
Water Act and the Safe Drinking Water Act. As the lead agency with 
oversight over freshwater quality, the EPA must ensure the protection 
of ``aquatic ecosystems to protect human health, support economic and 
recreational activities, and provide healthy habitat for fish, plants, 
and wildlife.'' I believe that the development of a National Research 
Plan for all freshwater HABs is dependent on Congress passing a 
freshwater act that parallels HABHRCA but is specific for the EPA and 
all freshwater bodies.
    Convincing the EPA to accept oversight responsibility for the 
freshwater HAB problem may not be an easy task. Since completion of the 
Freshwater (2) and Management and Response (4) reports, the EPA 
unilaterally determined that its statutory requirements regarding 
freshwater HABs were completed. There is no Agency effort to develop 
and implement a National Research Plan for freshwater HABs. The Agency 
virtually ceased all participation in freshwater HAB research and 
mitigation activities. Prior to that decision, the EPA annually 
contributed funds to one of the two interagency, competitive research 
grant programs for HAB research, the Ecology and Oceanography of 
Harmful Algal Blooms (ECOHAB). The EPA ceased funding that program this 
year. Scientists at the EPA's National Health and Environmental Effects 
Research Laboratory were ordered to cease all research on HABs. Staff 
were ordered to decline requests from the EPA regional offices and many 
State, local and tribal organizations seeking information on the risks 
and management of freshwater HABs. In taking this position, the EPA has 
failed to recognize the urgency of the freshwater-HAB problem, and that 
freshwater HAB cells differ from those that cause marine HABs, just as 
fresh and salt water and their ecosystems differ. Further, some of the 
causes of HABs and potential control technologies likely differ between 
freshwater and saltwater bodies. The EPA's shortsightedness can 
substantially harm human health, the environment and the economy. The 
EPA's decision to halt HAB research was likely influenced by unclear 
Congressional directives, a lack of budgetary authority and lower 
overall Agency funding. It is up to Congress to work with the EPA to 
correct this situation for the good of our nation.
    All Agency officials did not fail to adequately recognize the 
importance of freshwater HABs. The Agency's National Center for 
Environmental Research issued a competitive-grant request for proposals 
in 2007 on research to develop sensors for HAB cells and toxins. The 
EPA's National Center for Environmental Assessment is attempting to 
draft toxicological reviews for a few cyanotoxins.
    My recommendation, and I believe I am joined by the vast majority 
of scientists in this view, is that statutory requirements are needed 
to direct the EPA to develop and implement a National Research Plan for 
freshwater HABs. Freshwater-HABHRCA legislation that parallels the 
current and proposed reauthorizations for HABHRCA can accomplish this 
goal. Congress should pass Freshwater-HABHRCA legislation that 
authorizes funding for, and directs the EPA to develop and implement, a 
comprehensive freshwater-HAB research program. This Act will create a 
unified approach toward protection our nation from the risks of inland 
HABs, just as HABHRCA and NOAA have done for HABs in oceans, estuaries 
and the Great Lakes. The research should be conducted through a strong 
extramural, peer-reviewed, competitive-grant program and supplemented 
through intramural research. The Agency should be directed to fund the 
existing interagency grant programs, ECOHAB and the Monitoring and 
Event Response for Harmful Algal Blooms (MERHAB). The EPA should 
further be directed to help institute and fund the newly proposed 
MACHAB interagency grant program. The extramural grant programs will 
form partnerships critical to developing a successful National Program 
for Preventing HABs. These partnerships should include public, private, 
for-profit and nonprofit institutions and organizations, including 
states, local governments, tribes, appropriate industries (including 
aquatic technology, fisheries, agriculture, and fertilizer), academic 
institutions, and nongovernmental organizations with expertise in 
water-quality science and management. Further, Congress must 
specifically authorize and appropriate funds for these freshwater-HAB 
research programs.
    Legislation will provide clarity to the EPA that freshwater HAB 
research is authorized, and that the Agency must contribute to HAB 
research programs in order to develop solutions to the freshwater HAB 
problem through partnerships. The House Science and Technology 
Committee is an appropriate legislative body to develop a new bill for 
establishing a National Research Program for Freshwater HABs because of 
its responsibility for the environment and jurisdiction over the EPA. I 
urge the Members of the Energy and Environment Subcommittee to address 
this issue.
    I am pleased to offer my expertise to help develop authority for 
the EPA consistent with NOAA's existing research and response programs. 
We must act now as a unified country to develop policy and interagency 
coordination to mitigate and control HABs in all of our nation's 
waters. HAB toxins are far more potent than industrial chemicals, and 
the environmental load of HAB toxins is increasing at an alarming rate. 
The potential consequences of increasing HABs for human health, aquatic 
ecosystem sustainability and our economy are too great to ignore. 
Inaction is not an option that we cannot afford.
    I thank the Subcommittee for allowing me to express my views today.

References

1.  Hudnell H. Kenneth [Ed.], 2008. Cyanobacterial Harmful Algal 
Blooms: State of the Science and Research Needs, Advances in 
Experimental Medicine and Biology, Vol. 619, Springer Press. http://
www.sprinper.com/biomed/neuroscience/book/978-0-387-75864-0

2.  Lopez, C.B., Jewett, E.B., Dortch, Q., Walton, B.T., Hudnell, K., 
2007. Scientific Assessment of Freshwater Harmful Algal Blooms. 
Interagency Working Group on Harmful Algal Blooms, Hypoxia, and Human 
Health of the Joint Subcommittee on Ocean Science and Technology. 
Washington, DC.

3.  Ramsdell, J.S., D.M. Anderson and P.M. Glibert [Eds.]. HARRNESS, 
2005. Harmful Algal Research and Response: A National Environmental 
Science Strategy 2005-2015. Ecological Society of America, Washington 
DC, 96 pp.

4.  Harmful Algal Bloom Management and Response: Assessment and Plan, 
2007 draft. Interagency Working Group on Harmful Algal Blooms, Hypoxia, 
and Human Health of the Joint Subcommittee on Ocean Science and 
Technology. Washington, DC.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                               Discussion

                        HABHRCA Reauthorization

    Chairman Lampson. Well, thank you very much and thank all 
of you for your testimony. At this point we will begin our 
first round of questioning, and the Chair will recognize 
himself for the first five minutes.
    Dr. Magnien, before we get into a discussion on how to move 
forward on the issue, I want to ask a question about the last 
HABHRCA reauthorization in 2004. There were a number of reports 
and plans that were supposed to be done within a year or two of 
enactment and I have only seen one transmitted to Congress. Can 
you tell me about the status of each of these reports and why 
it is taking so long to produce them? I am referring 
specifically to the Research, Development, Demonstration and 
Technology Transfer Plan, the three assessments of harmful 
algal blooms, the freshwater harmful algal blooms and hypoxia.
    Dr. Magnien. As you mentioned, there are four reports of 
the 2004 authorization. One has been produced and the three 
others are essentially completed. They are just going through 
the final stages of review and will be transmitted to Congress 
shortly. Part of the challenge in putting those together was to 
fully engage both the research community, the management 
community and the federal agencies in coming to consensus on 
these reports so I think the product, even though it is a 
little bit beyond the deadline, is well worth the extra effort 
and we made all attempts to keep Congress informed throughout 
the process of some of the delays that were occurring.
    Chairman Lampson. NOAA leads two important competitive 
research programs, the ECOHAB and MERHAB programs. These 
programs got off to a very good start in funding many projects 
that have contributed to the advancement of knowledge and 
management capabilities that we have now. Are there any new 
solicitations for these programs to continue these efforts?
    Dr. Magnien. We had a competition in this fiscal year for 
the ECOHAB program. We alternate between years between the 
ECOHAB and the MERHAB program. Unfortunately, our funding 
availability this year would not allow us to start any new 
awards for the 2008 competition, although we did provide 
funding for some of the multi-year awards for past 
competitions.

                                HARRNESS

    Chairman Lampson. Thanks.
    Dr. Anderson, you mentioned that the current national plan 
is outdated. Now we have the new plan, HARRNESS, to help 
address this issue for the next decade or more. What specific 
components of this plan should be incorporated into the new 
HABHRCA reauthorization?
    Dr. Anderson. Mr. Chairman, you have heard us mention 
several possible programs. One that keeps coming up is this 
RDDTT, or a better way to think of it perhaps is prevention, 
control and mitigation of HABs. The way that report has been 
written, and I have appended the Executive Summary of that 
report to my written testimony, it has three components to it. 
One is an actual research and demonstration program on 
Prevention, Control, and Mitigation strategies, but then there 
is also an Event Response element and then an Infrastructure 
element. Without going into great details, each of those is 
needed because we need programs that will help us test and 
demonstrate mitigation and control strategies and practical 
science, bringing science through to practical applications. 
But we also need to help the states and the regions respond 
with these massive outbreaks and unexpected outbreaks, so an 
Event Response element is needed. And then we also need what we 
are calling infrastructure, which means toxin standards for all 
the measurements that are needed and culture collections and 
many, many other things that we need to conduct our research--
infrastructure that everybody shares. That is an infrastructure 
element. So we put all of this under this RDDTT umbrella. So 
that is one program that I think really is needed and, as I 
said, it needs to be separate from--and shouldn't steal funds 
or shouldn't take funds away from the basic research that is 
already there with ECOHAB and MERHAB.
    Chairman Lampson. What are the major research gaps and 
obstacles? And I guess you spoke about some of that, that make 
predicting the occurrences of the harmful algal blooms 
difficult, and are there other technologies that we could be 
using to help make better predictions?

              Obstacles in Predicting Harmful Algal Blooms

    Dr. Anderson. One of the--I will use my own region as a 
perfect example. We have developed what is probably one of the 
best numerical models in the world for harmful algal blooms and 
it is the one that allowed us to make predictions and give 
forecasts for our managers, but at the same time it is 
restricted by our ability to collect data during these 
outbreaks. You get very good weather forecasts because there is 
a continual flow of data from sensors and weather stations 
everywhere that is being used to constantly update your weather 
models. We don't have that in our system, so what we need is 
one answer to your question. The ocean observatory system is 
starting to instrument the coastal ocean. What we need are 
instruments as part of that system that will detect HABs and 
their toxins and relay that information to us so that we can 
assimilate it into our models and improve those forecasts and 
the predictions. To me, that is a very, very important step 
forward.
    Chairman Lampson. Can we do it with satellites?
    Dr. Anderson. Satellites will only work in some parts of 
the country with certain HABs, like in Florida. There, 
satellites work very well in the predictive system that Dr. Rob 
Magnien mentioned. In the Northeast, for example, or in the 
Northwest, our blooms are never dense enough or are rarely 
dense enough to be visible from space, so satellites are only 
useful in some locations.
    Chairman Lampson. Mr. Ayres, Dr. Hudnell, would you all 
like to comment on that?
    Dr. Hudnell. I definitely support what Dr. Anderson said. 
There is a great need to give a window of opportunity to risk 
managers to take action before harm is done, and the better we 
can develop models like Dr. Anderson has to predict when these 
events will occur, the better we can protect the public health 
from these very potent toxins.
    Mr. Ayres. The other thing I might add is, I did spend some 
time working on the event response portion of the RDT workshop 
report, RDDTT, however that goes, and event response really is 
important to State managers and the ability to share resources 
between states and be able to have federal experts come quickly 
to the aid of states in the event of these blooms that occur 
quite quickly is terribly important to State managers like 
myself around the Nation.
    Chairman Lampson. Mr. Inglis, you are recognized for five 
minutes.

                           Satellite Capacity

    Mr. Inglis. Thank you, Mr. Chairman.
    Dr. Magnien, I understand that there is some question about 
the capacities of the NPOESS satellite to see as well or get 
images as good as we are getting now. Is that your 
understanding as well?
    Dr. Magnien. Well, I am afraid I am not a satellite expert 
so I really wouldn't be able to comment on the specifics of 
that satellite technology but I would be happy to provide that 
information following the hearing.
    Mr. Inglis. That would be helpful, because it is of concern 
if NPOESS isn't going to get us as good of pictures as we are 
getting now, and does anybody else have anything to say about 
that or any information about that?
    Dr. Anderson. I can't comment specifically other than I 
have been to several meetings where the members of our 
community who do work with remote sensing information have 
spoken very strongly about the need for some strong guidance to 
the government to improve the next missions that go out, the 
instruments that are going into space because we are reliant, 
as I understand it, on an Indian satellite that will be coming 
up that we don't even know will have the correct wavelength, 
the correct information that we have been getting or satellites 
that are already beyond their design life, and so the next five 
or ten years is sort of a black hole for some of these sensors 
up in space and I have heard that there is a genuine concern 
and that is perhaps what you are also referring to.
    Mr. Inglis. And speaking of images, Dr. Anderson, I think 
it is you that had the particularly, as you said, dramatic 
images from China. Is that--is what is going on there typical 
as to what we see elsewhere or is this particularly unusual 
amount of growth?
    Dr. Anderson. They truly are dramatic images. The answer 
really is that in some parts of the world, that is, I won't 
call it typical, but in many developing parts of the world 
where there is a strong input of pollutants into coastal 
waters, this is the type of event that you can see. China has 
unfortunately over many years focused a lot of energy on 
feeding its population, on agriculture and aquaculture in the 
coastal zone, and you are now seeing the effects of that. There 
is no question that those seaweed blooms are being driven by 
pollution, much heavier pollution than we typically have in 
this country, so we don't see some of those types of events in 
that extreme, but down in Florida, for example, there are 
seaweeds washing up on beaches and rotting and decaying and 
that occurs up in the New England area as well. It just is not 
quite as extensive as in China.

                       Algae Blooms for Biodiesel

    Mr. Inglis. This may be a question better directed to the 
Chairman because I think he has had some business experience 
with this, but we could learn something from these rapid algae 
blooms in using CO<INF>2</INF> to grow this algae into 
biodiesel, right? It is sort of a two-for. I should recognize 
the Chairman to speak on that. It is sort of a two-for to 
figure how to prevent it from happening in the ocean but maybe 
have it happen, rapid growth, where we want it so we can 
harvest that material, right?
    Dr. Anderson. I will offer a comment there. We all get 
comments and questions these days from industry and so forth 
about exactly that. Couldn't we harvest these blooms and turn 
them into biofuel? The answer is that the economics aren't 
really there for most of them, especially given that not all of 
these blooms are as spectacular as some of the pictures you are 
seeing, and you need to have a sustainable, continuous 
resource. But there is no question that if you move this whole 
process on land and develop the ability to grow these mass 
quantities of algae, they are a much better approach to biofuel 
than growing corn and going the ethanol route. You can grow 
algae in desert locations. There are many, many advantages to 
using algae for biofuel but I don't think one can do that with 
natural blooms. I think they are too sporadic and in many cases 
actually the harm we get is from very dilute suspensions of 
cells that would not be suitable for biofuel.
    Mr. Inglis. My time is up, Mr. Chairman. Thank you.
    Chairman Lampson. I was wondering if we couldn't create 
some giant vacuum cleaner and suck all this stuff up and filter 
out the algae, squeeze the oil out of it and make fuel. 
Apparently that is not the best idea in the world.
    Mr. Baird, you are recognized for five minutes.

                 Reducing and Controlling Algal Blooms

    Mr. Baird. I thank the chairman and thank our witnesses. 
This is indeed an important topic, as mentioned earlier by my 
colleagues. It affects not only our Puget Sound and our 
offshore environment and also Vancouver Lake right near my own 
home. One of the interesting things, Mr. Chairman, about the 
amnesic form of this is how it functions, and it would scare 
the willies out of you if you understand it. It attacks the 
hippocampus. I am a neuropsychologist by training and the 
hippocampus is a structure of the brain that is responsible for 
basically transforming current experience in the long-term 
memories, and when the hippocampus is bilaterally lesioned, you 
get a phenomenon wherein you have your old-term memory, long-
term memory, but nothing gets in, so if we left the room and 
came back a couple minutes later, you would not remember that 
we had seen one another. Sometimes Congress seems to have 
suffered from this. But it is really quite astonishing and 
highlights the seriousness of this. You know, it is not just 
about closing our shellfish industry. It is about a permanent, 
severe neurological impairment that results and that is why 
this topic is so important.
    I would caution, by the way, the notion of commercial algal 
use for petroleum production. There was just an article in 
Science, I think last week, about a reef structure in India 
that has been devastated by the release of algae apparently 
used for commercial production purposes and is just flooding 
over this reef, and you should see the pictures. It has been 
wiped out.
    But I want to get to the question of what do we do about 
these things. I think you have talked about the monitoring. It 
sounded like, Dr. Hudnell, that there are some approaches to 
actually reduce--I mean, once you have got a bloom, these 
things are pretty intractable. Are there--what do we know about 
how to get rid of them once they are there, especially in 
relatively small closed water environments? I know a big bloom 
off a coast might be hard but what are the spectrum of 
opportunities for this?
    Dr. Hudnell. Yes. Well, speaking for cyanobacteria in 
freshwater blooms and somewhat it pertains to the red tides 
also, there are four requirements for blooms. They need 
nutrients, particularly phosphorus and nitrogen as well as 
trace elements. They need sunlight for photosynthesis. They 
need warmth. Many of these develop in warmer areas south and 
then move north as temperatures increase. And they need 
quiescent, stagnant water. So when you are talking about 
solutions for control, you look at the causes. You can do 
something about nutrients. You can reduce nutrient input into 
our water. We need to do that for many reasons, not only 
because of HABs and water quality. We need to reduce nutrient 
input because phosphorus, we are predicted to peak production 
in 30 years, and be out of natural sources of phosphorus in 50 
to 100 years. We need to be recapturing and reusing these 
nutrients instead of let them run into the water and cause 
problems. We can't do much about warmth and sunlight but we can 
do something about quiescent, stagnant water. Unfortunately, we 
can't usually just open the floodgates and let a lot of water 
rush out because of increasing demand and droughts, but we can 
circulate the water. That is why I went to work for SolarBee 
because they made floating platforms that are solar-powered 
with a battery and high-efficiency pumps. You put a big hose 
down. You drawn in water horizontally from long distances. 
Water is in different density layers so you draw in from one 
layer long distances, bring it up at 10,000 gallons per minute 
and push it out smoothly on the surface to circulate the water 
over a 35-acre area, and it is strong enough circulation to 
prevent these HABs over a 35-acre area per unit. So the effect 
is additive. The more units you put in, the more area you can 
protect. For example, now we have about 20-some circulators 
protecting the water intake in Houston in their reservoir, 
which has had bad HAB problems.
    And so I think that we should combine our efforts to do two 
things: control nutrient input to water through best management 
practices, reduce the amount of nutrients we use. For example, 
there are bills now to take phosphate out of detergents. We 
should do some of that. Find other ways to use only what we 
really need, not just throw all the fertilizer out and you 
think the more, the better. And we need to recapture the 
nutrients at the point sources where they come out of the pipes 
into the water. There can be systems there that precipitate out 
the phosphorus before it goes into the freshwaters, so we can 
take it and reuse it. And we need to combine the approach of 
nutrient input reduction with the circulation of water where 
there is no other means for it to be anything other than 
quiescent and stagnant. We need to keep it moving, and we are 
doing research now to figure out why that works. We know it 
works but we haven't done the research yet to figure out how it 
works. So that is my approach to HAB prevention and control.
    Dr. Anderson. To bring us to the marine side of that story, 
we do have a number of technologies that we are looking into. 
Some of them are very simple. In Korea and other countries in 
Asia, they spray clay over the ocean, and it flocculates. It 
makes large particles that carry these red tide cells to the 
bottom and they have effectively protected their fish-farming 
industry with a modest investment compared to the value of that 
industry. Interestingly, though, and my lab has actually been 
doing work on that, we have encountered quite a bit of 
environmental opposition to this as you might understand. But 
at the same time, it is rather frustrating from my standpoint 
because we do everything I think we need to do to demonstrate 
that this is much less damaging that the red tide itself and 
that clay flows into the ocean constantly from rivers and 
rainfall and yet there are groups that oppose it. And so what 
is happening is, we are developing certain technologies, and I 
could mention viruses and parasites and bacteria that will all 
destroy these red tide cells, but there is a social issue that 
we need to address and to get society to accept this in the 
ocean is going to be a big step. We already accept spraying for 
mosquitoes, spraying for pests on broccoli or corn or whatever, 
but people are not yet ready to let us do the same in the 
ocean, and I think this is an important issue to be addressed. 
It is an important area for invasive species as well and it is 
one that I think we can approach, and that is one of the 
reasons that I think we need this separate RDDTT program 
because when I write a proposal that tries to get funding for 
clay work and it is competing against basic science proposals 
from other investigators, guess which ones tend to get 
supported? Because mine is much more controversial, some 
reviewers say it is never going to work, it is going to cause 
all these problems, and so you need to have a separate pool of 
money where engineers and everyone else comes in and starts to 
attack these problems while the basic research keeps moving on 
a separate track.
    Mr. Baird. Mr. Chairman, I know my time is up but I would 
be very interested in following up with you on that, Dr. 
Anderson. We have seen this with invasives in my own district 
where an invasive species threatened to wipe out a marine 
estuary, just was going to destroy it, turn it into a prairie 
from an estuary, and the fight was to get herbicide labeled so 
that we could kill, it was Spartena grass, and we almost lost 
the estuary. We are beating it now in a remarkable success 
story but we need at some point to gauge the cost-benefits in a 
better way and just saying under no circumstances intervene 
when the condition that you are trying to beat may be far more 
destructive than the intervention and finding a way to deal 
with that would be very helpful. Maybe we could pursue this in 
this committee. Thanks, Dr. Anderson.
    Chairman Lampson. Thank you, Mr. Baird.
    Mr. McNerney, you are recognized for five minutes.

                Climate Change's Impact on Algal Blooms

    Mr. McNerney. Thank you, Mr. Chairman.
    I think I am going to say the same thing that Mr. Baird 
said. This is a fascinating subject, and I don't know that much 
about it, so thank you for coming and testifying.
    Dr. Anderson, could you outline briefly or in detail, if 
you wish, what you think the impact of climate change and 
specifically ocean acidification would be on HABs?
    Dr. Anderson. I will take the marine side of that and I 
think Dr. Hudnell will probably have some comments to add about 
the freshwater side. We get asked that question a lot and it is 
a very difficult one to answer because HABs are very complex 
phenomena. In my own region, again I will use that as an 
example, we now have computer models for future climate 
scenarios that would say, for example, we will have more 
rainfall and warmer temperatures and things like this. We can 
start to put those predictions into our models to ask what that 
might do to our blooms. But these organisms are very adaptive. 
As I said, they have a cyst stage that remains in the sediment. 
It is a lot like a seed of a higher plant. So if the winter is 
shorter, it just means the cyst will germinate a little bit 
earlier and if it is a hotter summer, it may end its bloom 
sooner. So it is very hard to say how much difference that 
would make. But I think in general, we could say that we are 
going to see a movement of these HAB problems from some areas 
where they occur now into other areas where they don't just 
because temperatures become more tolerant. But on the other 
hand, you might actually see the disappearance of some species 
from some areas as the temperatures become too warm, for 
example. Acidification is an issue that I don't have any 
specific answer for, given all of our different HAB organisms. 
There are so many different kinds that each one would have to 
be studied separately, and that research is just beginning. I 
think on the freshwater side of the picture though, it is a 
little more clear that with the warming temperatures and the 
changes of stratification and pH, that one would see more 
cyanobacterial blooms.
    Dr. Hudnell. I believe that climate change is having an 
impact on this and will continue to do so. First of all, the 
issue of increasing temperatures. We are seeing organisms that 
used to only occur south of the United States occurring in the 
United States now, and spreading rapidly, for example, 
Cylindorspermopsis makes highly potent cylindorspermopsin 
toxins that affect multiple organ systems, stop protein 
production. This is occurring in many places in this country 
now and expanding because it is getting the warmth that it 
needs. But on top of temperature, the precipitation and storms 
is another issue. It is sort of ironic that with climate 
change, it seems that you get on the one hand more frequent 
heavy storms, and what this does is wash off more nutrients 
into our freshwater. But on the other hand, you also get more 
frequent and extended drought periods, and so when you get 
droughts, you get slower water flow, more quiescent stagnant 
water, so both of these factors tend to increase the occurrence 
of these freshwater harmful algal blooms.

                        Predicting Algal Blooms

    Mr. McNerney. Thank you.
    Dr. Magnien, you went over the predictions of the New 
England event. How effective would that modeling be in terms of 
other types of these events around other coastlines, other 
sections of our coastline?
    Dr. Magnien. Well, that is a good question because it 
speaks to the national scope of our programs as well as 
tailoring things regionally, so there definitely are components 
of all of these types of research whether it is a forecast or 
detection or a control issue with a virus or a bacteria clay 
that is transferable from one region to another, so the 
knowledge that we have developed through our partners in New 
England can definitely be transferred elsewhere, not 
necessarily lock, stock and barrel but with adjustments to the 
particular HAB species or the circulation patterns in a given 
region with much less effort and shorter time frames. So we are 
looking at all of those opportunities to get efficiencies and 
transfer knowledge from one region to another and we have 
already got a number of very good examples where that has been 
done.
    Mr. McNerney. So do you find coordination between agencies 
or scientists to be at a beneficial state now or a non-
beneficial state?
    Dr. Magnien. I think it is at a beneficial state and we are 
working very hard in NOAA to help support that, and you have 
heard a number of our efforts to support that through 
workshops, through the HARRNESS report which we provided 
funding for. We have had workshops in Florida recently. We are 
going to have another workshop on the regional problems in the 
West Coast. We have gotten great participation from the 
managers, the social scientists, the federal agencies and we 
are also working very hard with all of these groups in putting 
together the reports for the HABHRCA legislation that the 
chairman asked me about earlier, and that is, you know, a big 
job but it is one worth taking on and doing to the benefit of 
everybody.
    Mr. McNerney. Thank you. My time is expired, but would you 
let Dr. Anderson have a word?
    Dr. Anderson. Just to add to the issue of the 
transferability of the model results. It was our model that was 
doing this prediction. These models generally have two 
components, a physical model which is of the circulation of the 
water, and those are being developed all over the country, and 
into these we have to build the biology of these HAB organisms. 
Many of the HAB organisms that we work on do occur in other 
parts of the country so the one that causes problems in New 
England also occurs along the coast of California and 
Washington and even Alaska, so I actually have received 
inquiries and have invited someone from Washington to my lab to 
do some of the experiments that are needed to take their 
organism and to just change the parameters slightly so that 
they can use our model. So in many cases I think these modeling 
efforts are transferable with some tweaking of the organisms so 
that it reflects this region as opposed to that region.
    Mr. McNerney. Thank you, Mr. Chairman.
    Chairman Lampson. You are welcome, Mr. McNerney. Thank you.
    Mr. Akin, you are recognized for five minutes.

        Algal Bloom Causes: Fertilizer Runoff and Climate Change

    Mr. Akin. Thank you, Mr. Chairman, and we have three 
hearings at the same time. It is hard to be in three places at 
once, so I missed your testimonies.
    The first question I have is, the problem of fertilizer 
runoff and things like that off of land, particularly farmland, 
has long been a problem. I think of it more in connection with 
Lake Erie and freshwater bodies more than saltwater perhaps, 
and then there is also talk though about conditions in the 
ocean where there is some pH change. It is not driven by 
fertilizer I think as much as it is pH change, which then tends 
to destroy coral formations and things like that. Are these in 
any way connected or are they two totally separate situations, 
and which is more serious?
    Dr. Magnien. I assume you are talking about actually three 
things here, the nutrient connection to harmful algal blooms 
but also the ocean acidification connection to harmful algal 
blooms.
    Mr. Akin. Correct.
    Dr. Magnien. I think before you walked in, Dr. Anderson 
addressed some of the issues related to the ocean acidification 
and that it is so early in the research phase there that we 
really don't know how that particular situation is going to 
affect the multitude of different species that compose the 
group of harmful algae. The nutrient----
    Mr. Akin. Do we know for sure that it is a pH thing that is 
driving those conditions?
    Dr. Magnien. PH is involved but nutrients are much more 
overwhelming in importance for harmful algal blooms.
    Mr. Akin. If you say the drivers, you are saying we know 
for sure the nutrients is a huge part of it?
    Dr. Magnien. Right.
    Mr. Akin. The pH is not as clear-cut?
    Dr. Magnien. Exactly, and the changes we are seeing at 
least now in pH are fairly subtle, so it may become an issue 
down the road and we certainly should look at that, but for 
now, the immediate issue is nutrients and----
    Mr. Akin. Is it nitrogen or phosphorus?
    Dr. Magnien. It can be both. In marine systems, it tends to 
be more nitrogen but phosphorus could be involved. In the 
freshwater situations, it tends to be more phosphorus that kick 
up these large blue-green algae blooms in freshwaters. And it 
also connects with another important issue in HABHRCA, which is 
the dissolved oxygen or hypoxia problem. So all these things 
are interrelated, and that is why we----
    Mr. Akin. But these reduce the oxygen in the water, don't 
they, the algaes?
    Dr. Magnien. Right. Well, you have a sequence of events 
where the excess nutrients pouring into these water bodies 
create an overabundance of algae, the algae eventually die, 
decompose, settle to the bottom and the decomposition process, 
they use up the oxygen, leading to fish kills and loss of 
habitat, and that is one of the reasons why you have heard so 
much about predictions here. We try to put all this complex 
science together in models and in a way that managers can make 
decisions. You know, we can't just wave our arms and say 
nutrient pollution is a problem. We need to be specific and 
say, you know, if you reduce it X percentage, this is how it is 
going to affect the algal blooms.
    Mr. Akin. But certainly the farmers have an incentive, 
increasingly an incentive, to be sparing with their 
fertilizers, so with the new GPS systems where you are 
literally putting just the fertilizer in you need, has that 
become pretty effective in knocking it down from where it was 
10 or 20 years ago?
    Dr. Magnien. Well, it is certainly helping but we still 
have got a huge issue there and actually NOAA has been talking 
recently with USDA to try to work with them and address this 
nutrient problem as well with EPA and other State and federal 
agencies that can influence the situation.
    Mr. Akin. Can you comment on the change? I mean, if you 
take, for instance, clean air--I am from the St. Louis area. If 
you take a look at the air that I was breathing as a high 
school student, which I thought was pretty good air, I didn't 
have much other alternative but to breathe it, but if you take 
a look at that air by today's standards, I mean, it is orders 
of magnitude cleaner than it was when I was in high school. Do 
we have the same kinds of improvements? Because this is a 
problem that has been around for a long time.
    Dr. Magnien. I would say we have comparable improvements on 
what we call the point sources of nutrient pollution such as 
wastewater treatment plants and industries. We have done 
yeoman's work there just here in the Potomac River. Some of 
those images that we saw earlier, the green paint-type covering 
of the water used to be right here in the Potomac in the 1960s 
and 1970s due to the wastewater treatment at Blue Plains and 
other big treatment plants. That has made a remarkable recovery 
comparable to the air issues. Where we are still struggling is 
what we call the non-point sources which are primarily 
agriculture, runoff from urban areas. It is much more 
difficult. It is much more pervasive. It is not an engineering 
fix at a particular pipe, so we need to continue to be vigilant 
there and work with new technologies and methodologies to help 
reduce that problem.
    Mr. Akin. Mr. Chairman, I know that my time is expired but 
I thank you for your patience and thank you for appearing all 
of you as our witnesses.

                                 ECOHAB

    Chairman Lampson. Thank you for your good questions. The 
chairman will recognize himself for five minutes.
    Mr. Ayres, as a coastal fisheries manager, what NOAA 
projects and efforts are most helpful to you in dealing with 
the impacts of harmful algal blooms? What could this program 
provide that would be more helpful in the management decision-
making process?
    Mr. Ayres. Well, a recently completed or nearly completed 
ECOHAB-funded study of the movement of Pseudonitzschia, the 
plankton species that causes the problems the most significant 
on the Washington coast, has provided us a lot of detail about 
how that happens and has given us much better insight into how 
those plankton species move and when we might expect problems 
with the shellfish that we are managing along the Washington 
coast. I mean, as Dr. Anderson pointed out earlier, continued 
data collecting is so important to that, and the federal 
funding--specific research. We have an understanding of how 
that works but still continued visits to the area offshore, the 
offshore sampling that the state does not have the capability 
of funding needs to occur in some way, and Dr. Anderson talked 
about ocean observing systems being a possible way of doing 
that, whether it is opportunistic ride-alongs on NOAA vessels. 
We have some staff out this week on a NOAA vessel offshore just 
in an opportunistic way collecting some samples in this 
specific area, the Strait of Wanafuka eddy. It is a region at 
the mouth of the Strait of Wanafuka where these plankton 
species tend to congregate and bloom and then eventually 
perhaps move on to the Washington coast. We are also affected 
by blooms that come from the south part of our coast and that 
also affect the Oregon coast, widespread areas, and there was 
an ECOHAB proposal that was identified for funding, and as Dr. 
Magnien pointed out earlier, there wasn't enough funding to 
actually allow that to go forward, at least during this fiscal 
year, and hopefully it will happen in the future. So additional 
work like that, ECOHAB, large studies over these large ocean 
areas that can identify not only the oceanography but the 
specifics of what is happening, how do these plankton species 
move onshore would be very helpful to managers like myself in 
Washington and Oregon and down into California. We are talking 
wide areas. And, you know, we have a trans-boundary area as 
well where a lot of these blooms are coming out of the Canadian 
waters and affecting Canadian waters the same as they do in the 
United States. So continued cooperation with researchers in 
Canada is certainly important as well. We do a lot of work with 
Canadians on a lot of issues because of that trans-boundary 
issue in Washington State. So the continued collection of just 
primary data and then the larger-scale projects like ECOHAB can 
fund is very important to managers like myself, especially in 
the Pacific Northwest.

                            More on HARRNESS

    Chairman Lampson. From a manager's perspective, does the 
new plan that the research community has published, the 
HARRNESS plan, address the needed priorities and help in the 
prediction part?
    Mr. Ayres. Yes. HARRNESS did a very good job of doing that 
and I think a very good job not only for a manager like myself 
in the Pacific Northwest but for managers all around the 
country, and that is because--and I give NOAA a lot of credit 
for bringing managers into that process, and not only fishery 
mangers but human health managers early on and so we had an 
opportunity to provide a lot of input, and if you look at 
HARRNESS, you will see comments by managers like myself 
throughout the document pointing out what is important to us 
and HARRNESS did a very good job of that. And the RDDTT plan 
did the same thing and it was a great opportunity for managers 
to be a part of that process in a workshop format where we were 
able to provide a lot of input into that workshop plan that 
will eventually then influence the plan.
    Chairman Lampson. Can we improve it? And Dr. Anderson, 
would you also comment after Mr. Ayres?
    Mr. Ayres. Pardon me?
    Chairman Lampson. Are there any ways to make it--can the 
plan be improved?
    Mr. Ayres. Funding. Funding, funding, funding.
    Chairman Lampson. That is the story of our life.
    Mr. Ayres. Yeah, I think that is the primary answer.
    Chairman Lampson. Would you make any comment, Dr. Anderson?
    Dr. Anderson. Funding is always the answer, but one of the 
ways to make that happen is partnerships among federal 
agencies, and we could use the help of committees like this to 
forge some of those partnerships. There are many agencies that 
have mandates where harmful algal blooms are involved at some 
level, and in fact, a number of them are not participating in 
this national program. I could name a few, Department of 
Agriculture, for example, or EPA in some ways on the marine 
side in particular. So if we could form partnerships and get 
some of these agencies to put their resources, even limited, 
together, we would start to have successes. ECOHAB is a success 
in large part because it is a partnership, as NOAA, NSF, and 
EPA were in it for a while, as well as the Office of Naval 
Research, and even NASA. So it is a partnership of agencies 
that would all jointly fund projects. So to me, that would be 
one of the areas where we could get some help.

                        Freshwater Algal Blooms

    Chairman Lampson. I will ask a question for Dr. Hudnell. 
What are some of the possible options for addressing the 
freshwater HABs? Is research needed to understand freshwater 
HABs much like was needed for the marine and coastal HABs 
issue?
    Dr. Hudnell. In my opinion, I believe it is very likely 
that nutrients are an issue both for freshwater and marine 
HABs. As we have heavy rainfalls, nutrients run off the non-
point sources which are harder to control, and they enter the 
freshwater and they flow to the coast, and the water is all 
connected so you have first of all the nutrients starting HABs 
in the freshwater. They move down to estuaries. At estuaries, 
you may have the same species, same types of cyanobacteria or 
other organisms, but then you also can pick up new organisms 
that thrive better in the higher salinity range. And then I 
think it is likely that this issue about marine HABs and 
nutrients, I just believe that all organisms require nutrients 
and that if more nutrients are coming in, it is going to 
further stimulate it, and it may not cause the marine HABs to 
start but it may, I believe, feed them and make them worse. The 
nutrient input reduction is critical, I believe, for 
controlling HABs, for addressing other water quality problems, 
and we should make a better attempt to control the input into 
the freshwater where it all starts.
    Second of all, in freshwater particularly, we can circulate 
water where we know that it is too stagnant, where there are 
dams built, for example, new reservoirs put in. We are building 
lots of new reservoirs. Two-thirds of our population now get 
their drinking water from surface water as our aquifers are 
becoming depleted. We are building more and more of these, and 
unfortunately, we tend to have more and more situations where 
the water is too stagnant, too quiescent, and that is causing 
blooms to happen in freshwater. And if you look at a place like 
the Klamath River that starts in Oregon and moves through 
California down to the ocean, in recent years the problem has 
just become phenomenal with species of cyanobacteria called 
Microcystis, and it often starts with some problems in the 
upper portions of the river but then when you get to the 
reservoirs where there have been dams built, you start to see 
these massive blooms of cyanobacteria occurring there, and it 
is because the water is so stagnant, and there we have seen the 
highest cell counts I have ever seen anywhere in the world and 
the highest toxin levels, many thousands of times above the WHO 
guideline level for what is a safe level. It is a very 
dangerous situation. And what happens is, these dams will open 
up and let water out, and last year for the first time there 
were so many cells that enough survived that they kept moving 
down the river and they would be in one reservoir, move down, 
be in the next reservoir, and one of the slides I had flashing 
by showed them hitting the ocean and it was just all over the 
delta. So it is a problem of both nutrients and cells moving 
down the water, and in my opinion, the best thing we can do, 
particularly in sensitive areas like shellfish beds, is 
circulate water in estuaries and places where it is too 
stagnant and prevent the nutrients from getting there to feed 
those HABs.
    Chairman Lampson. Do any of your--the program that you 
mentioned earlier that you have down in Houston, have they 
tried that in larger--or have you tried it in larger open 
bodies of water like a lake?
    Dr. Hudnell. We have just begun to do some of that. Some of 
these lakes are, you know, more than 100 square miles. We are 
now starting to work in Lake Taihu in China, which is their 
second-largest lake, I forget, hundreds of square miles big, 
and they have terrible Microcystis blooms every year. In fact, 
last summer the town of Wuzi of several million people, they 
had to shut down all the drinking water plants because there 
was so much toxin in the water so people survived off of 
bottled water for weeks until the situation came under control.
    Chairman Lampson. Thank you very much.
    Mr. Inglis.

                   Removing Phosphorus From Discharge

    Mr. Inglis. Thank you, Mr. Chairman.
    Dr. Hudnell, you had mentioned earlier the possibility of 
removing phosphorus from discharge. Where are the economics of 
that? I take it not very good and that is why it is not being 
done right now, or can they be somewhat positive?
    Dr. Hudnell. You know, there has not been research on that 
near enough and there are no places to apply for funds for that 
kind of research that I know of, but at SolarBee, we have 
recently begun to look at this issue and trying different 
approaches. What we are trying now is, where you have this 
floating platform pumping up all this water to put a metal ring 
around the water where it is coming into the unit and run 
solar-powered electric charges that pulse positive and negative 
off this thing, and what you can do is magnetize the phosphorus 
and attract it to these bars. If you can develop a system that 
will attract the phosphorus in and then you can go and 
periodically exchange the rings, you can take all the 
phosphorus off those metal rings and then refuse it. And, you 
know, this is just a very small-scale first attempt to do this 
but I think that potentially technology will allow us to do 
very large-scale things like this at water treatment plants, 
for example, and recapture that phosphorus. We really have no 
alternative in the future because the phosphorus is going to be 
depleted and we cannot farm without phosphorus. There is no 
synthetic alternative. Every living organism requires 
phosphorus but we are using up all the natural reservoirs of 
phosphorus that we now mine, and like I said before, production 
is predicted to peak in 30 years and the sources be depleted in 
50 to 100 years. So there are many reasons that this technology 
needs to--research needs to invest in this type of technology 
to look at how to best recapture in an economical way these 
nutrients that we are going to need for use in the future and 
we need now.
    Mr. Inglis. Dr. Anderson.
    Dr. Anderson. If I could just add to that, I want to make 
sure that we have it clear that only some of the HABs that we 
deal with, both marine and freshwater, are related to nutrient 
pollution. Certainly more so on the freshwater side, but many 
of the problems around this country, if there is a nutrient 
impact, it is sometimes subtle, and so when we try to move 
forward with policies and programs, we have to look beyond just 
saying the problem is nutrients. So I just need to make that 
clear. And so there are other technologies that we need to help 
manage those problems, whether it be predictions and detection 
systems and maybe even some efforts for bloom suppression that 
are not using nutrients as a preventive tool but in fact going 
after the cells themselves with chemicals or parasites or 
something else like that. But I just want to make sure that the 
Committee doesn't get the impression that the answer is 
nutrient reduction for all HABs.
    Mr. Inglis. What could be the other--just to recap that. 
The other possibilities are a natural phenomenon that is 
occurring. Is that right?
    Dr. Anderson. Yes.
    Mr. Inglis. And perhaps some other variables. What would 
those be?
    Dr. Anderson. Well, again, let us go to my region. We have 
looked very hard. We have not found a nutrient relationship 
with the Northeast shellfish poisoning problems. So if you are 
trying to manage that problem or do something about it, you are 
not going to change the river outflows or the way the wind 
blows and the types of storms we get, so the best you can do 
then is to be able to understand the system, to predict it, to 
forecast it so the shellfishmen and the industries are aware of 
what is coming. You develop better technologies to detect these 
cells so that you know exactly which areas should be closed and 
which should be open. You can in a sense start having surgical 
closures of harvesting instead of closing an entire coastline. 
You can close here and there but not over there. And so you 
have to live with the fact that these are natural phenomena and 
learn how to manage around them, and in that case, that is 
plain management.
    There are also other areas that we have talked about where 
technologies can be used to suppress a bloom or control a 
bloom. That is what everyone keeps asking me. If you can 
control mosquitoes, why can't you control a red tide? It is a 
complex answer to that, but there are technologies out there. I 
have mentioned the clay, I have mentioned viruses, parasites 
and so forth. They all need more research. They all need pilot 
studies and then some actual demonstration projects to show 
whether they will or will not work and then we can perhaps get 
society to start to accept them. I mean, I will just say that 
same thing. Imagine your estuary, the Puget Sound is about to 
be invaded by some major organism that is going to destroy who 
knows what, salmon or something like that. Right now, I don't 
think we have the knowledge or the mandate, a government agency 
mandate, to be able to go out and stop that invader. We have 
those same problems for HABs, and I think that something needs 
to change to help us fight that battle.
    Mr. Inglis. Thank you.
    Thank you, Mr. Chairman.
    Chairman Lampson. Dr. Baird, you are recognized for five 
minutes.

                         Drinking Water Quality

    Mr. Baird. Mr. Chairman, I would say that one of the 
reasons I particularly enjoy this committee is, we get to 
address issues that are not on the political radar screen but 
may actually be very profound both economically and from a 
health perspective.
    I want to ask for clarification or edification for myself, 
the toxins that are produced from some of these HABs, my 
understanding is, they are not--when we look at our normal 
water filtration and treatment systems, my understanding is, 
some of these toxins are not filtered out. In other words, if I 
were a hiker going to a lake that had a HAB in it, I might get 
my usual filter out and think oh, you know, I am thinking I am 
going to get out, you know, Giardia or something like that, but 
the toxins themselves can still be toxic even with normal 
filtration. Is that accurate?
    Dr. Hudnell. Well, I can speak directly to the freshwater 
cyanobacteria toxins, and that in fact is one of the things 
that worries me the very most. There is a lot of data from 
Florida, for example, that shows if you repeatedly measure 
toxin levels in the raw source water and in the finished 
drinking water, many times you will find the toxin levels to be 
higher in the finished drinking water than the raw source 
water. The reason that occurs is because when you bring in 
water to the plant, one of the first things you do is filter 
it, and when you filter it, that lyses or breaks open the 
cells, and then the cells release all their toxin into the 
water. And normal drinking water processing as shown by the 
Florida just does not get these toxins out. And I have looked a 
lot into this issue with one of my colleagues who specializes 
in this, Judy Westrick, and other people, and what you find 
when you do laboratory tests is that even if you take only one 
toxin, one cyanotoxin which is Microcystin, well, actually 
there are over 80 known analogs of that toxin, and if you look 
at different methods to try to deactivate, breakdown, or get 
rid of that toxin, you find that some things work for a few 
analogs, some work for a few other analogs. There is just no 
way that we can get all of these toxins out with any kind of 
affordable processing. The only answer I can see is that we 
simply have to prevent these toxins from coming into the plant 
in the first place, and surely if you go out camping with your 
water filter and you see some green water, I would hope you 
will not try to filter it and drink it because it is not going 
to work.
    Mr. Baird. I used that as an example because I think we 
have become accustomed to think oh, we have water treatment 
centers that will protect us from this, and the point is, this 
is a different kind of entity that is our problem.
    I want to go back to this issue of nutrients. You know, a 
couple years ago, Dr. Ehlers and I were working on a bill 
relating to harmful algal blooms and I put in a provision to 
deal with the causes of it, and it was interesting, this 
provision got completely hung up for reasons unknown to us. We 
could not understand it. We had to put a lot of work in. Why is 
someone blocking it? It turned out a staff member, who was also 
on the ag committee, didn't want research looking at the causes 
of this lest we demonstrate scientifically that runoff from 
farms or agricultural operations, feedlots, whatsoever, were 
causing HABs so this portion of the bill got just completely 
hung up, and I am interested in--and Mr. Ayres, you deal with 
the economic costs downstream of this. What are your thoughts 
or your experience or yours or anyone else on the panel of 
trying to reduce the upstream inputs that may contribute 
collectively to damage downstream?
    Mr. Ayres. Well, certainly the downstream economic impacts 
are big, and not even well quantified, although in my written 
testimony, you will see there is a study that is about to be 
completed that will give us some insight in our specific case 
in Washington State on the economic impacts of some of these 
fisheries, and I agree with Dr. Anderson, at least in the 
Pacific Northwest example, we are not sure if there is any 
specific causes of the blooms that we are seeing. They are 
naturally occurring. Are there some specific nutrients that are 
coming out of the Strait of Wanafuka? I mean, the Strait of 
Wanafuka empties water out of the Puget Sound region, the 
Strait of Georgia, some big population centers, so it is not 
impossible to believe that that might be the case. But I don't 
think the science has proven it to this point to be the case. 
But certainly if there were some proof like that and there was 
some ability to reduce the impacts these HABs have on our 
coastline as a result of reducing some of the upstream effects, 
that would be a good thing, and I agree with that, but I don't 
think the science yet in our case in Washington State says that 
is the case. In other places in the Nation where that is the 
case, certainly, the cost-benefit issues that you talked about 
earlier should be looked at and balanced accordingly.
    Dr. Hudnell. If I could, I would like to say that while 
there is some controversy about how much nutrients are involved 
in the red tides, marine HABs, there is really no controversy 
for the freshwater HABs. It is very clear that nutrients are 
the driving force. Nitrogen and phosphorus are the two most 
important--cells need three things. They need carbon, nitrogen 
and phosphorus and then some trace metals. But there is some 
plenty of carbon. You can't do anything about that. There is 
some nitrogen and there are species that can fix nitrogen. They 
can take unusable forms out of the air or water and fix it in 
the forms that they can use for nutrients. And then phosphorus 
is the only thing that is limiting for everything, so it is 
important for freshwater to keep the phosphorus out, and the 
ratio between nitrogen and phosphorus determines which type of 
cyanobacteria bloom. So it is important to get them all out. 
But it is clear that with the freshwater issue, reducing 
nutrients will reduce the occurrence, but it is a very long 
time frame where you can reduce nutrients in an area that 
always has--annually has HABs. It will be a long time before 
you can get the nutrient level down to where you won't have 
them, and there are a couple reasons for that. We have already 
dealt some with the point sources by reducing nutrients coming 
out of the pipe. As has been said, it is much more difficult to 
deal with the non-point sources, and we need better research 
and effort into best management practices to reduce the amount 
of nutrient we are putting on plants to begin with and then to 
find better ways to contain the runoff and maybe recapture the 
nutrients there before it finally gets into the freshwater.
    Chairman Lampson. Thank you, Dr. Baird, and thank all of 
you. Dr. Baird, you are right: This has to be the most 
fascinating committee in Congress. We get to hear some 
significant things and hopefully learn enough to be able to 
react to what it is that we are learning because of its impact 
on us and----
    Dr. Hudnell. If I could make one more comment about that?
    Chairman Lampson. Please do.
    Dr. Hudnell. I was in a kind of in the middle of an 
uncomfortable situation in Florida related to this nutrient 
issue, and you are talking about competing interests. The last 
couple of years I was invited to talk at a number of localities 
in Florida because they were trying to really rush legislation 
that would say in our locality, you cannot use certain types of 
fertilizer, you have to limit the amount you put down. They 
wanted to pass restrictions on fertilizer usage because, you 
know, they have grass up to the edge of canals and all that 
fertilizer going in the water and big blooms, but on the other 
end, you have the huge agricultural interests in the middle of 
the state who are doing lots of farming and doing--using lots 
of fertilizer and they are coming down the rivers and so there 
was a situation where the state was trying to pass a fertilizer 
regulation that would say this is what we are going to do and 
localities cannot do beyond this. So the localities were trying 
before the state passed theirs to get their placeholders in 
place so that they wouldn't be blocked from passing legislation 
on fertilizer. So we really need some kind of national 
leadership to help the localities and the states see the best 
road to take to do the right thing.
    Chairman Lampson. Thank you very much, and thank all of you 
for all your comments. We appreciate you being here.
    Under the rules of this committee, the record will be held 
open for two weeks for Members to submit additional statements 
and any additional questions that they might have for the 
witnesses. This hearing is now adjourned.
    [Whereupon, at 11:41 a.m., the Subcommittee was adjourned.]

</pre></body></html>
